<html>
<title> - WATER RESOURCES DEVELOPMENT ACT OF 2000</title>
<body><pre>[Senate Hearing 106-976]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-976

                WATER RESOURCES DEVELOPMENT ACT OF 2000

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                   TRANSPORTATION AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2000

                               __________

  Printed for the use of the Committee on Environment and Public Works



                    U.S. GOVERNMENT PRINTING OFFICE
68-423 cc                   WASHINGTON : 2001
                   _______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
?

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

               one hundred sixth congress, second session
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                  GEORGE V. VOINOVICH, Ohio, Chairman

JOHN W. WARNER, Wyoming              MAX BAUCUS, Montana
CHRISTOPHER S. BOND, Missouri        DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 23, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     4
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    34
Moynihan, Hon. Daniel Patrick, U.S. Senator from the State of New 
  York...........................................................    36
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     1

                               WITNESSES

Borrone, Lillian, Director of Port Commerce, Port of New York and 
  New Jersey.....................................................    23
    Prepared statement...........................................    85
    Responses to additional questions from Senator Voinovich.....    87
Malloy, Hon. Dannel P., Mayor, Stamford, Connecticut.............    28
    Prepared statement...........................................   105
Marlowe, Howard, president, American Coastal Coalition...........    30
    Prepared statement...........................................   110
Palmer, Barry, executive director, DINAMO........................    26
    Prepared statement...........................................    90
    Responses to additional questions from Senator Voinovich.....   103
Sutherland, Doug, county executive, Pierce County, Washington....    21
    Prepared statement...........................................    82
    Responses to additional questions from Senator Smith.........    84
Westphal, Hon. Joseph, Assistant Secretary of the Army (Civil 
  Works), Department of Defense..................................     6
    Affadavits, Investigation on Mississippi and Illinois Rivers 
      Navigation................................................. 45-82
    Prepared statement...........................................    36
    Responses to additional questions from:
        Senator Baucus...........................................    44
        Senator Smith............................................    41

                          ADDITIONAL MATERIAL

Letter, Ron Sims, King County, WA................................   116
Statements:
    Great Lakes Task Force......................................126-148
    King County, WA..............................................   116
    Kitsap County, WA............................................   118
    Lee County, WA...............................................   119
    National Association of Flood and Stormwater Management 
      Agencies...................................................   120
    National Mining Association..................................   123

                                 (iii)

  

 
                WATER RESOURCES DEVELOPMENT ACT OF 2000

                              ----------                              


                         TUESDAY, MAY 23, 2000

                                     U.S. Senate,  
               Committee on Environment and Public Works,  
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m. in 
room 406, Senate Dirksen Building, Hon. George V. Voinovich 
(chairman of the subcommittee) presiding.
    Present: Senators Voinovich, Lautenberg, Chafee, Thomas, 
Lieberman, and Baucus [ex officio].

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Good morning. The hearing will please 
come to order.
    Today we are going to consider the Administration's version 
of the Water Resource Development Act of 2000, WRDA 2000. While 
this is, in one sense, our initial hearing on the Water 
Resources Development Act, it is actually this committee's 
fourth hearing concerning aspects of WRDA 2000. The full 
committee has already held a field hearing in Florida and a 
hearing in this very room on the comprehensive Everglades 
restoration plan, which will be the cornerstone of this year's 
WRDA bill. In addition, the subcommittee held a hearing last 
week on the backlog of Corps of Engineers projects.
    As many in this room are aware, Chairman Smith has set an 
ambitious schedule for putting together the WRDA bill with a 
goal of marking up legislation by June 27.
    There are some who may question the need for a WRDA bill 
this year, since Congress passed a WRDA bill last year. In 
reality, last year's bill was actually unfinished business from 
1998. If Congress is to get back on its 2-year cycle for 
passage of WRDA legislation, we need to act on a bill this 
year.
    The 2-year cycle is important to avoid long delays between 
planning and the execution of projects and to meet commitments 
to State and local government partners who share the costs with 
the Federal Government.
    While a 2-year authorization cycle is extremely important 
in maintaining efficient schedules for completions of important 
water resource projects, as we explored at our hearing on May 
16th, efficient schedules also depend on adequate 
appropriations.
    The appropriations for the Corps programs have not been 
adequate, and, as a result, there is a backlog of over 500 
projects that will cost the Federal Government $38 billion to 
complete.
    As we heard from General Van Winkle last week, they are 
worthy projects with positive benefit-to-cost ratios and 
capable non-Federal sponsors, so these are not wish projects, 
these are real projects. There are 500 of them, $39 billion 
worth that are sitting on the shelf.
    The failure to provide adequate funding for these projects 
means that the project construction schedules are spread out 
over a longer period of time, resulting in increased 
construction costs and delays in achieving project benefits.
    I recognize that budget allocations and Corps 
appropriations are beyond the purview of this committee, but I 
believe the backlog issue should impact the way we approach 
WRDA 2000 in three very important ways:
    First, we need to control the mission creep of the Corps of 
Engineers. At the backlog hearing I held last week, I mentioned 
that even though I obtained a limited authority for 
environmental infrastructure in Ohio, I am not convinced that 
there is a Corps role in water and sewage plant construction. 
In fact, I would like to see it knocked out, period. That 
should be a State and local government responsibility, with 
some Federal assistance through the State revolving loan funds.
    Another example is the brownfields remediation authority 
proposed by the Administration for the Corps. Brownfield 
remediation and redevelopment is a very important issue. It is 
a big problem in my State, and I am working to remove Federal 
impediments to State cleanups. If we get the EPA off our back 
and get the authority to go forward with it, there would be 
unbelievable brownfield cleanups by States with State money. 
But, having said that, I don't think that this is the mission 
of the Corps of Engineers.
    What we need to do is recognize and address the large 
amount of unmet national needs within the traditional Corps 
mission areas--needs such as flood control, navigation, and 
emerging mission area of restoration of nationally significant 
environmental resources, like the Florida Everglades.
    The second thing we need to do in WRDA 2000 is make sure 
that the projects we are authorizing meet the highest standard 
of engineering, economic, and environmental analysis. We must 
be sure that the projects and project modifications Congress 
authorizes make maximum net contributions to economic 
development and environmental quality. We can only assure that 
projects meet these high standards if projects have received 
adequate study and evaluation to establish project costs, 
benefits, and environmental impacts to an appropriate level of 
confidence. This means that a feasibility report must be 
completed before projects are authorized for construction.
    Finally, we have to preserve the partnerships and cost-
sharing principles of the Water Resources Development Act of 
1986. WRDA 1986 established the principle that water resource 
projects should be accomplished in partnership with State and 
local governments and that this partnership should involve 
significant financial participation by the non-Federal 
sponsors.
    My experience as mayor of Cleveland and Governor of Ohio 
convinced me that the requirement for local funding to match 
Federal dollars results in much better projects than where 
Federal funds are simply handed out. It doesn't matter if it is 
parks, housing, highways, or water resource projects, the 
requirement for local cost share provides a level of 
accountability that is essential to a quality project, and 
cost-sharing principles must not be weakened.
    We are going to start today's hearing with the presentation 
of the Administration's WRDA proposal. We will follow that 
presentation for the panel of proponents for projects and 
programs that are either already contained in the 
Administration's bill or are scheduled to have feasibility 
reports completed this year in time for WRDA consideration.
    I believe today's presentation will give the committee a 
good blueprint from which we will be able to formulate a 
Congressional WRDA bill this year.
    [The prepared statement of Senator Voinovich follows:]
    Senator Voinovich. Senator Baucus?

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    First, I compliment you on the way you are conducting this 
hearing, particularly the way you and Chairman Smith are 
handling the WRDA bill. It is a comprehensive schedule, but it 
is one that is solid, and it is timely and very professional 
and I just congratulate you for your work on it.
    I just have a couple of points. I would like my statement 
to be included in the record.
    One, I compliment the Corps, and particularly Secretary 
Westphal, for all of your work, generally.
    Second, I want to thank Senator Crapo for coming out to 
Montana, for holding a hearing on the Fort Peck Fish Hatchery 
on April 29th of this year. I won't go into great detail as to 
the importance of that project, but I can assure you that the 
folks in that part of my State are very, very appreciative of 
the efforts of this committee and the Corps with respect to 
that hatchery.
    More generally, I think it is important to remind ourselves 
how important WRDA is, because it is essentially an 
infrastructure bill, and the better the infrastructure in our 
country, the more solid and sound the economy.
    It is really the water equivalent of T-21. We passed a 
highway bill out of this committee a few years ago which helped 
highway infrastructure, and this is essentially the water T-21. 
It is the water infrastructure bill. I just think it is 
important that we all keep that in the back of our minds as we 
move forward. These are not just local projects for local 
areas; this is a national bill to improve the national 
infrastructure.
    Finally, I very much compliment you and others that have 
worked so hard in the Everglades restoration bill. I support 
it. I think it is an extremely worthwhile project. Several of 
us--I know you have, too, Mr. Chairman, asked a couple of tough 
questions in previous hearings. Frankly, in my judgment--and I 
know that's the view of the Secretary--those tough questions 
just help the program. It helps it by showing the tough 
questions can not only be asked, but can be answered. I 
compliment all of you for working so hard on that project.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Baucus follows:]
    Senator Voinovich. Senator Lautenberg?

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    My compliments, as well, to you for getting this hearing 
underway. The subject is so important, and as time passes I 
think it is fair to say we see the great need to take advantage 
of the skills and the resources that we have in the Army Corps 
and to try to use them as effectively as we can, and recognize 
that in this full-blown economy that we are experiencing, that 
we may need help in some areas just to maintain what we've got.
    We've seen what can be, based on the buoyancy of the 
economy, and now we have to step up to the conditions that 
arise as a result of that.
    Well, we're going to hear later on from Lillian Borrone of 
the Port Authority. She's going to testify today, and she's 
going to discuss the need to deepen the major channels in our 
port area to 50 feet. I hope the subcommittee is going to 
authorize this project, which just this month received a 
favorable report from the Corps of Engineers.
    Senator Moynihan, my colleague on this committee, and I 
have a great interest in the future of our port, and I served 
as a commissioner of the Port Authority before coming here, so 
between us Senator Moynihan and I have lots of years of 
experience related to the port and its effect on the economy of 
our region.
    The 50-foot project for the Port of New York and New Jersey 
is the largest project anticipated for our region in the 
history of the port, and it is well worth the investment.
    The Port of New York and New Jersey is not just a local 
port, but it is the Nation's port. It is located at the center 
of the largest regional market in the country. It is the 
largest container port on the east coast, and the third-largest 
in the United States. It serves 34 percent of the population of 
this country. And last year exports exceeded $22 billion. 
That's second only to the Port of Long Beach, California. The 
Port of New York and New Jersey also provides about 165,000 
local jobs.
    So, Mr. Chairman, over the next several years, the Port 
Authority, that bi-State agency that I think was one of the 
more brilliant creations that has happened in terms of 
government, tries to--not always successfully, but tries to 
ameliorate problems that occur between the States and get on 
with the work that affects both our economies.
    They project that there will be somewhere between 3.7 and 
4.6 percent growth in the volume of cargo entering and leaving 
our port. This cargo depends very much on larger vessels. These 
vessels are capable of carrying over 6,000 containers and 
require a channel depth in excess of 46 feet. So, just in 
comparison, a ship carrying only 2,000 containers--we just said 
they are carrying over 6,000 now--is the equivalent of 1,000 
rail cars, or 2,000 trucks. One of these ships, the ``Regina 
Emeris,'' recently entered our harbor only partially filled. I 
wish that everyone could see this picture. The red line is 
below the draft line. The red color is below the preferred 
draft level, because it is traveling and coming in about half 
full because the channel just was not deep enough to allow it 
access to our terminals. That's a problem we have to attend to.
    I also want to briefly mention another issue in WRDA the 
chairman brought up that I hope the subcommittee is going to 
consider, and that is the issue of port sharing or port 
projects.
    Mr. Chairman, as you know, the current cost for navigation 
projects greater than 45 feet is half, 50/50, half and half. 
The formula was established 14 years ago, before we were aware 
of the need to deepen our harbors to accommodate new 
generations of container ships, and it is time that we bring 
this cost-sharing into the 21st century and include a provision 
that revises the cost sharing to reflect a fairer distribution 
of costs.
    Finally, I want to address the Administration's proposal to 
authorize the Corps to participate in brownfields redevelopment 
projects. I support efforts to increase the Federal 
Government's assistance with State and local brownfield 
projects, and that's the reference I was talking about, Mr. 
Chairman. The Corps is already participating in brownfields-
like projects known as Minnich Park in Newark, New Jersey, and 
they are really helping. They have removed deteriorated piers 
and restored the waterfront, making it into an urban park as 
part of a larger flood control project along the river.
    The project enjoys strong support from the city of Newark, 
and a lot of the communities just don't have the means to get 
into this without some assistance from the Federal Government, 
so I hope that we are going to be able to move on this, and I 
await the witnesses' testimony.
    Senator Voinovich. Thank you, Senator.
    Senator Chafee?

           OPENING STATEMENT OF HON. LINCOLN CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Thank you, Mr. Chairman.
    I am looking forward to the testimony, especially of Dr. 
Westphal and General Van Winkle and Mayor Malloy, who will 
testify this morning about the role of the Army Corps of 
Engineers in brownfields redevelopment.
    I understand, Mr. Chairman, your concern for mission creep 
for the Corps; however, the undeniable economic, environmental, 
and social benefits of brownfields redevelopment do demand that 
we utilize all the tools at our disposal, and I do believe the 
Corps is an effective tool, and I look forward to working with 
members of this subcommittee and the Administration to ensure 
that the Corps continues to play a valuable role in the 
revitalization of our communities.
    Thank you.
    Senator Voinovich. Thank you.
    Our first two witnesses this morning are Dr. Joseph 
Westphal, who is the Assistant Secretary of Army Civil Works, 
and Major General Hans A. VanWinkle, Deputy Commanding General 
for Civil Works, U.S. Army Corps of Engineers.
    We are very happy to have you with us this morning, Dr. 
Westphal, if you will begin the testimony.

 STATEMENT OF HON. JOSEPH WESTPHAL, ASSISTANT SECRETARY OF THE 
                       ARMY (CIVIL WORKS)

ACCOMPANIED BY:
        MAJOR GENERAL HANS A. VAN WINKLE, DEPUTY COMMANDING GENERAL FOR 
            CIVIL WORKS, U.S. ARMY CORPS OF ENGINEERS
        MICHAEL DAVIS, DEPUTY ASSISTANT SECRETARY FOR POLICY AND 
            LEGISLATION, DEPARTMENT OF THE ARMY
    Mr. Westphal. Thank you, Mr. Chairman.
    I do have with me my Deputy Assistant Secretary for policy 
and legislation, Michael Davis, and I am also accompanied by 
General Hans VanWinkle, who is Deputy Commanding General for 
Civil Works, Army Corps of Engineers.
    Mr. Chairman, I want to just say, first of all, I think we 
have given you a complete testimony for the record. I'm going 
to shorten my oral testimony significantly to allow more time 
for questions and answers and give you more time to get at some 
of the issues you want to get at.
    I do want to say that I have enjoyed very much and continue 
to enjoy working with you on the many issues we are facing this 
year. We are, obviously, in the throes of some very, very 
important decisions that your committee has to make, that we, 
as an Administration, are making on a daily basis in light of 
this program's challenges.
    I think the better that we work together with you in 
addressing these issues and getting answers to your questions 
and coming up with some sense of a strategy for the future, the 
better off I think our country will be, because I think we have 
a great asset in the Corps of Engineers and I think we need to 
develop a plan for how we are going to address a lot of these 
problems you've raised, like the backlog issue and mission 
definitions and things like that.
    So I look forward to working with you, both here and in the 
committee formal structure, but also informally with you and 
members of the committee.
    Mr. Chairman, let me just make--as I said, I just want to 
be very brief on our bill and give you some highlights of the 
things I think are very important proposals that we are making 
in this WRDA 2000.
    As you know, the main centerpiece of this bill is the 
Everglades, and you've already alluded to the hearings and the 
testimony we've had on that. We also felt this year that we 
needed to provide you with a piece of legislation that was less 
project oriented and more oriented toward some very important 
policy ideas that we wanted to bring forth to the committee and 
to address on a more national basis.
    For us, for the President, the important areas to address 
here were simply to get to the issues of how do we provide 
assistance to tribal and low-income communities. What can we do 
to help?
    You made one of your three points that you had alluded to 
as a concern was the idea that we needed to preserve the 
partnerships and the cost-sharing formulas that had been set up 
in the 1986 water resources bill.
    We agree with that, but I think it is time that we all 
collectively--Congress and the Administration, this and future 
Administrations--look at cost sharing and see what impact it is 
having on certain sectors of our economy.
    Again, I particularly would focus on tribal and low-income 
disenfranchised communities, which may involve both minority 
communities, as well as rural communities.
    In this bill, we did look at a number of policy issues that 
we wanted to bring forth, beginning with a watershed and river 
basin assessment authority.
    We believe that it is very important that, as we move into 
sort of the new dimensions of our work, which encompass so much 
environmental legislation and so many other pieces of 
legislation that have to be addressed as we build projects or 
as we design and plan and study projects, that we need to look 
at what we are doing in a more comprehensive, broader basin 
watershed approach.
    I don't think there is any disagreement anywhere that this 
is the approach that best suits the way we can make decisions, 
and so we are asking for a clarification or readdressing of 
this authority, which is established in section 29 of the water 
resources bill of 1986, to give the Corps of Engineers the 
authority to undertake broader comprehensive studies in 
conjunction with other Federal agencies.
    Bear in mind that the products of these comprehensive 
studies would not necessarily mean more Corps projects. It 
could very well be that these studies will assist EPA, 
Interior, or a vast number of Federal and State agencies, and 
especially the States, I think, in addressing the broader 
programmatic aspects of what is going on on river systems 
around the country. We believe that is an important part of 
this bill.
    Two areas that are related to this that we are proposing is 
we are proposing to get more involved and more active 
participation on the part of the Corps of Engineers in the 
CALFED Bay Delta program. The Corps, because of its basically 
project-driven type of program, has not been a real partner in 
CALFED, and much of the work that is anticipated and much of 
what I think we are doing in California relates to the work 
that CALFED ultimately needs to be a part of.
    We have got a major comprehensive study going on of the 
Sacramento and San Joaquin Rivers, and I think those need to be 
a part of how we look at CALFED solutions, so we are asking for 
authority for the Corps to have the ability to participate 
fully in CALFED as an equal member to the other Federal 
agencies.
    We also believe that, while there is a lot of work going on 
in the Puget Sound area with a variety of projects under 
different Corps authorities, environmental restoration 
projects, that, again, this is an area where we need to get 
ahead of the problem, particularly dealing with endangered 
species issues, so we are proposing there an authority that 
allows us to engage in some or initiate a series of what we 
call ``critical projects,'' which essentially would be small 
projects that would be seen as a comprehensive effort to 
address the broader issues in the Puget Sound area. So these 
projects would all be tied together. They would all be 
evaluated on the basis of how they programmatically affect each 
other.
    Now, we think our proposal is also very complementary to 
legislation that is being introduced in the Senate or has been 
introduced in the Senate by Members from the Washington 
delegation. We would go right to projects, and we think that 
that's important.
    The other area of policy you brought up, and that's 
brownfields. We are doing a considerable amount of brownfields 
work already through EPA. What we believe is being neglected 
here is a very important part of this dimension of brownfields, 
and that's the part that relates to the waters of the United 
States. That's the part that relates.
    Senator Lautenberg mentioned the New Jersey project. These 
are projects where you've got sites that are adjacent to or on 
wetlands or river systems or water bodies where there are 
problems that are pretty significant to both communities and to 
also the economic growth of these areas and the possibilities 
for economic development.
    We believe that it is our responsibility under our mission 
in the water resources area to try to address these 
programmatically, ourselves, indirectly, so we are asking for a 
very small, a very conservative authority, both budgetarily and 
project specific, to allow us to go into these specific areas 
and do some brownfields remediation.
    The Conference of Mayors--I saw a study where they had 
identified somewhere in the vicinity of about 20,000 sites that 
are in dire need of cleaning up, and for which there are really 
no resources at the State or local levels.
    Mr. Chairman, we also have a series of provisions, as I 
mentioned, where we are really trying to identify those aspects 
of tribal and low-income communities where we can be helpful. 
We are proposing a tribal partnership program. What we want to 
do here is basically partner up with the tribes with the 
Department of Interior to look again comprehensively within the 
boundaries of the reservation to see what we can do in areas 
like environmental restoration, flood control, and our other 
traditional mission areas to help and to coordinate the work 
that the Department of Interior is doing in these areas.
    We are also proposing some changes in our ability to pay 
provisions. Currently, the ability to pay provisions that you 
have authorized in the past are for flood control and for water 
supply for agriculture. We are asking to amend that to allow us 
to do equal ability to pay provisions for the environmental 
restoration and environmental protection kinds of projects.
    We also are asking the committee to consider some changes 
in our project deauthorization provisions to tighten these up, 
to make it--to have the time aspects of when we deauthorize 
projects a little bit shorter, cutting it back from 7 years to 
5 years, where we can look at projects, if they don't receive 
funding for construction within a 5-year period, and 
consistently throughout a 5-year period they would 
automatically become deauthorized.
    We think this is not the solution to the backlog problem, 
but it is part of the solution. It is part of the way we get at 
this issue.
    Finally, Mr. Chairman, we are also providing you with a 
recommendation on making some changes in our flood damage 
reduction program, a change in the cost-share on this for 
structural flood control projects, and also to strengthen our 
floodplain management requirements in section 402 of the Water 
Resources Act of 1986 to require the non-Federal interest to 
take measures to preserve the levels of flood protection that 
projects provide.
    This is a recurring theme, where we build a project 
designed for a certain level of flood protection, local 
development ensues, changes happen over time, and we find out 
that the project is no longer really providing the level of 
protection that was intended.
    We need to get some help from the local communities through 
some type of management plans that they are going to try to 
maintain and we're going to try to work with and to maintain 
the levels of flood protection originally intended and 
authorized by Congress.
    That's a brief summary, Mr. Chairman. Again, there are 
other aspects of this bill that you may want to touch, but I do 
appreciate the opportunity to testify before your committee 
again. I thank you for your efforts to address these issues and 
look forward to working with you in any fine details of working 
this bill through as you get to a markup.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you.
    Does Mr. Davis or General Van Winkle have any comment?
    General Van Winkle. No, I do not.
    Senator Voinovich. Senator Thomas has joined us.
    Senator Thomas, do you have any statement the you'd like to 
make?
    Senator Thomas. No, I don't, Mr. Chairman. Thank you. I'm 
just interested in hearing the testimony.
    Senator Voinovich. Great. We will move on to the questions, 
then.
    Dr. Westphal, Claudia Tornblom, Deputy Secretary of the 
Army for Management and Budget, testified when we had our 
hearing on the backlog of Army Corps projects, and what really 
puzzles me is I've heard you today, and you're saying, ``Well, 
you know, we've had our local share or more Federal share, 
brownfields, and so forth.'' The fact of the matter is there 
has been mission creep in the Corps of Engineers. You have been 
taking on more and more projects. This environmental 
restoration, a very worthy issue, has been added to the Corps' 
work. We had charts that were presented last week when we had 
the hearing to show that we were spending the equivalent of 
about $5 billion a year on WRDA type projects back in the 
1960's, and then it went down to about $4 billion in the 
1980's, and now, during the 1990's, we're down to about $1.5 
billion a year.
    It seems to me that, here you are this morning, and you're 
talking about a very ambitious program, and yet the 
Administration has come through with a paltry $1.6 billion in 
terms of their request for Congress to appropriate for these 
projects.
    It seems to me that this is a major issue, and I would like 
to know why it is. I mean, you're asking for more and very 
ambitious. Why hasn't the Administration asked for more money? 
The fact that we need another $1.5 billion in order to just 
stay even with these projects, why hasn't the Administration 
come forward and asked for additional dollars?
    Mr. Westphal. Well, Mr. Chairman, first of all, we didn't 
ask for additional dollars for authorities we do not have, so 
what we were constrained by in our budget recommendation were 
really the projects and the authorities that we have presently.
    What we believe is that, in fact one of the areas you 
mentioned in your opening statement, you talked about what we 
call--a rather ``catch-all'' term for what we call 
``environmental infrastructure.'' You mentioned sewage 
treatment plants and waste treatment plants and that type of 
thing. There is a growing demand around the country for us to 
participate in some of these activities. There are areas, 
particularly rural areas, for example, in Appalachia where 
there is a considerable amount of need locally to address water 
quality needs by cleaning up water.
    There is an increasing pressure, both from Congress and 
from local constituents, to get us into that picture, because 
the loan pay revolving fund you mentioned isn't adequate the 
meet the national needs, so a $1 billion or $2 billion fund--
whatever it is, I don't know the exact amount--to meet about 
probably a $200 billion need around the country.
    So we are facing the increasing interest on the part of 
Congress and on the part of mayors and local constituents and 
States to get into this area, but we are not--the 
Administration did not propose projects in this area, did not 
request continued funding for projects that had been funded in 
the past in this area.
    So I think our budget request was very responsible, given 
our constraints and our backlog.
    Now, we are asking----
    Senator Voinovich. I mean, if you look at the record, they 
are inadequate. I mean, the point is that you have expanded 
during this last Administration into a lot of areas--
environmental restoration, very expensive projects. We've got 
some other projects here that are in this budget that are very 
expensive.
    It seems to me that, consistent with the request, should 
have been the research for additional dollars and that there 
should have been some reallocation of resources to say, ``We 
have these unmet needs. We are asking for more money. We know 
that this is not adequate,'' and an effort should have been 
made in order to come up with some more money.
    You've got all these people are sitting here and they 
expect they're going to get these projects authorized and the 
money is going to be forthcoming, and the fact of the matter is 
there ain't no money.
    We've got the appropriations. I'm just saying that this 
is--you know, it doesn't make sense to me.
    Mr. Westphal. I'm not arguing with you, and I think you are 
right, to a great extent. We were limited, as your 
appropriators are limited, by the constraints of the budget 
agreements that were made earlier and by what were then, when 
we were putting together our budget, some pretty limited caps 
on our budget allocations. So the budget we submitted was based 
on a very constrained view of what was going to happen with 
what flexibility--what was going to happen with respect to----
    Senator Voinovich. Let me just say this: we've got a bill 
that just passed the House. It is called CORA. It is asking to 
use the offshore revenues from oil to come in with a new 
entitlement to pay for a lot of wonderful programs. Does the 
Administration support that legislation?
    Mr. Westphal. The Administration has supported aspects of 
that legislation. I can't tell you specifically whether the 
bill got full Administration support. I don't know.
    Senator Voinovich. Well, I'd look into it, because that 
money now is being used to reduce the national debt, but if I 
were in the Administration, I'd be arguing that, before we go 
off with the new program, a new entitlement program with the 
unmet needs that we have here with WRDA, that it doesn't make 
sense, and that if we've got this money and people want to 
spend it in this area, then let's use it to pay for these unmet 
needs in WRDA.
    I've run out of time. Senator Baucus?
    Senator Baucus. Mr. Chairman, Secretary, as you know, in 
the agricultural appropriations bill there is a rider which 
essentially prohibits the Secretary from restructuring, 
reorganizing, abolishing, transferring, etc., etc., and it is 
probably in response to forums that--and I use that word 
advisedly--that you proposed at the end of March. Could you 
comment please on that rider, the degree to which it would help 
you or hinder you in your efforts to perform perhaps more 
increased oversight and, perhaps as a result of some articles 
that have been in the ``Washington Post'' lately, but basically 
will that rider on that appropriations bill help you or hurt 
your efforts to make the Corps more efficient, organize it, and 
why.
    Mr. Westphal. Well, I believe the rider is a pretty severe 
constraint on the President's ability to manage government. I 
believe that if you--the last one that I read, the last version 
of it that I read--and I assume it's the final version that was 
in the legislation--did not specifically mention who was 
prohibited, other than that no moneys could be spent.
    The way I read that, it meant that no one--no chief of 
engineers, no Assistant Secretary of the Army, no Secretary of 
the Army, no Secretary of Defense, no President--no one could 
in any way, shape, or form do any reorganization or 
streamlining or correct any aspects of the way the Corps has 
managed or organized our structure.
    Now, typically, I mean, generally speaking, any major 
reorganization of the Corps of Engineers would require 
Congressional approval. The last time that happened was a few 
years ago, before I came on board, and it was quite a long and 
arduous process that eventually ended with Congressional 
approval of it. And Congress has been quite active in making 
sure that that reorganization continues to go on the path that 
Congress approved.
    What the Secretary tried to do here, in light of all that 
was going on, was simply to make a clarification--and I think 
the term ``reform'' was probably an exaggeration of what it 
is--is to make a clarification as to what the law passed by 
Congress, by the Senate and by the House, title ten, really 
specifies.
    For the most part, it states very clearly what the chain of 
command is, where the authorities lie, and they are all in law, 
and it was merely clarifying the law. It was merely stating 
what title 10 says. He was merely expounding on already 
existing, pre-existing general orders of the Secretary of the 
Army that have been around for years, and I think it just got 
exaggerated in terms of what that implied.
    I think that there were concerns that that meant that 
somehow the Secretary of the Army would be preventing the Corps 
from having a direct relationship with Congress or be able to--
would limit the ability of the Corps to provide information to 
Members of Congress, none of which was ever anticipated or 
planned or intended by the Office of the Secretary of the Army.
    Senator Baucus. So it is your belief that perhaps the 
sponsors of that rider are mistaken as to the intent of the 
Corps' court reforms?
    Mr. Westphal. Well, I understand their concerns and I 
understand there has been so much in the press and there are so 
many rumors and allegations and things flying around in the 
back circles of the House and the Senate and in Washington, in 
general, that I understand their concern. But I do think if we 
are given the opportunity to explain what the Secretary really 
was proposing to do here, then I think their concerns would 
be----
    Senator Baucus. So you think their concerns are being 
significant alleviated, but you are also saying, if I hear you, 
that the rider virtually prevents the Corps from making any 
kinds of----
    Mr. Westphal. Well, the Chief of Engineers, for example, is 
in the process of--the current chief is in the process of doing 
some reorganization of the Corps, pretty significant 
reorganization, particularly here at headquarters, and I 
believe that, under that authority, that language, he would 
have been prohibited from doing that, and we----
    Senator Baucus. Yes. I'll read the language. 
``Notwithstanding the provisions of 10 U.S.C. . . . . none of 
the funds made available in this or any other act may be used 
to restructure, organize, abolish, transfer, consolidate, or 
otherwise alter or modify the organizational or management 
oversight structure, existing delegations, or functions, or 
activities applicable to the Army Corps of Engineers.''
    That, to me, sounds like none of the funds could be spent 
to do much of anything within the internal administration of 
the Corps.
    Mr. Westphal. The Chief of Engineers, himself, has 
management responsibilities, and, to some extent, oversight 
responsibilities over his districts and divisions, and this is 
a very big organization, and we'll have a new Chief of 
Engineers coming on board very soon, I hope, pending 
confirmation by the Senate, and----
    Senator Baucus. I know my time has expired.
    One other question. As you know, Senator Daschle has 
introduced a bill to establish a commission to study the 
Agency's operations and recommend any potential reforms to the 
Congress within 2 years. What is the Administration's position 
on that bill?
    Mr. Westphal. Well, the Administration has been working on 
the bill. I believe the Administration supports the concepts of 
Senator Daschle's bill. I think that they are looking forward 
to working with Senator Daschle on the more-specific details of 
his proposal, but the concept is something the Administration 
supports.
    I spoke with Senator Daschle yesterday on this bill, and I 
think he is very willing to work with the Administration to 
fine tune it to the extent that we can----
    Senator Baucus. What are the options? At least one draft of 
the bill is for the commission to study whether it is a good 
idea to separate the civil works function from the Army. What 
is your view on that?
    Mr. Westphal. Well, I believe that--my personal feeling is, 
of course, that I believe the Army Corps of Engineers belongs 
in the Army, and I think that the traditions and the culture 
and the way in which the program is managed and the 
responsiveness of the Corps of Engineers is a great asset to 
the Nation, at least partly because it is an Army organization. 
I believe, personally, that it is in the right place.
    Senator Baucus. Thank you. My time has expired.
    Senator Voinovich. Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    Dr. Westphal, one of the questions that has already been 
touched on here that I would like to pursue for just a moment 
is the brownfields program and the assistance by the Corps of 
Engineers. The question raised is, well, why the Corps should 
be involved in yet another project. The fact of the matter is 
that we do ask so much of you, and I think the chairman kind of 
hit it on the head--more work, less money. It doesn't work 
well.
    What is the importance of the Corps' involvement with the 
brownfields project? You have very specific criteria, and I 
would like you to restate those.
    Mr. Westphal. Well, Senator, most important, I think, is 
the fact that the Corps of Engineers has the capacity, the 
capability, the talent, the skill, the people to do this kind 
of work, and there are very few others able to do it.
    We are, for the most part, the agency that carries out the 
technical work of the Superfund program, and we do it very well 
for brownfields. I don't know if General Van Winkle health as 
statistics on that.
    Senator Lautenberg. Wasn't the focus of your attention, the 
Corps' attention to this, the fact that it might be in an area 
that could contaminate tributaries, streams, etc., and that 
that then expands the risk that this site can produce 
additional pollution because it is not a wholly contained 
entity.
    Mr. Westphal. Right. I mean, many of the brownfield sites 
around the country are, of course, around and on the shores of 
our major rivers and streams, and that is an area where it is 
of real concern because of the movement of sediment, because of 
the dangers it poses to surrounding development. So, as you 
develop these inner harbor areas, as in the area that you 
represent, where there is increasing requirement and demand for 
development closer and closer to the water, this becomes even 
more and more critical.
    Senator Lautenberg. The focus of your interest and your 
recommending Corps involvement here is in those sites--are we 
specific--those sites that have some additional risk posed as a 
result of their nearness to a stream or a river?
    Mr. Westphal. Or where there are wetlands affected or 
waters of the United States. We are not asking for authority to 
go in and work in areas that are totally--say an area that is 
totally on upland. We would work through EPA on that.
    Senator Lautenberg. I just wanted to be sure on that. You 
know, we are kind of fixated on this dredging project. We have 
been kind of stalled in a bi-State dispute, and it is 
worrisome. But another question that has been raised that 
creates a lot of attention is, what do you do with the 
disposable material? We know that there is material that 
qualifies, under EPA standards, for ocean dumping because the 
contamination levels are not critical. What are the plans for 
disposal of other material that doesn't meet that yardstick?
    Mr. Westphal. Well, currently there are a number of areas 
for disposal of contaminated material that don't meet the 
standards for ocean disposal. Frankly, as you well know, in 
that particular part of the country where the need is great and 
increasing, we are probably going to have to work closer with 
the States of New Jersey and New York to find additional sites 
in the future. But we do have capacity, and certainly in your 
State there is a good deal of capacity to address the future 
needs and near-term needs of contaminated dredge material.
    The Corps, again, is doing, I think, a terrific job. I have 
been on those sites a number of times. They are doing a 
terrific job in New York and New Jersey Harbor, both in terms 
of the science and working with the local communities to find 
these sites and develop these sites, and I think it is a very 
difficult job but they're doing a great job.
    Senator Lautenberg. We're talking about land disposal.
    Mr. Westphal. Right.
    Senator Lautenberg. And it is your contention, as I just 
heard it, that in New Jersey there is adequate place for it. 
That would surprise a lot of people in New Jersey. We think 
that there is a lot of room in New York State for disposal.
    Mr. Westphal. Well, you know, I am cognizant of that issue, 
and I believe that the State of New York is making an effort to 
find its future sites, as well.
    Senator Lautenberg. I thank you.
    Mr. Westphal. We'll work with them to do that.
    Senator Lautenberg. Thank you.
    Thanks, The Chairman.
    Senator Voinovich. Senator Chafee?
    Senator Chafee. Thank you, Mr. Chairman.
    Mr. Secretary, in your prepared testimony you say that, 
``Pursuant to the Water Resources Development Act of 1986, the 
Army civil works program began to change in response to the 
many new water resources challenges facing this Nation.'' So it 
has been 14 years of a changing mission.
    My question would be: in the course of this change, your 
relationship with EPA, how has that been a cooperative 
partnership, and how do you see it continuing into the future?
    Mr. Westphal. Well, I think the relationship has improved 
dramatically over the years as the two agencies have had to 
work closer and closer together. I think there are areas in the 
country where it works very, very smoothly, and then there are 
other areas where, because the issues are so controversial and 
so difficult, sometimes the relationships are a little bit 
strained. I mean, that's the reality, to be perfectly honest. 
But overall I think the leadership of both agencies, both at my 
level, at the regional levels, are very, very good.
    To cite again New York and New Jersey, as an example, where 
there is so much controversy going on over so many issues, the 
regional administrator of EPA and our division commander and 
district engineer have a very, very good working relationship 
and very, very consistent and good dialog on all these issues.
    I believe that the future requires that. I think the States 
must be treated fairly, and for the States to be treated fairly 
these Federal agencies have to work together and have to have 
better relationships and better communications, and they have 
to have that communication, I believe, from the beginning for 
it to be really successful.
    Part of the problem we face at times is that sometimes the 
communication isn't as good at the very early stages of a 
project, and then suddenly toward the end we find that we've 
got problems. We've got to remedy that, and I think we are 
working to do that.
    The Council of Environmental Quality is very concerned 
about that, and I think working to try to bring regional folks 
together to work better at the early stages of a project.
    I don't know if that answers your question, but----
    Senator Chafee. Yes. Thank you very much. I'm sure that 
whenever the standards are high there is going to be tension.
    Mr. Westphal. That's right. Well, there is tension because, 
obviously, our agencies are driven by different missions. EPA 
is a regulatory agency, the Corps is a construction--it's a 
builder. The Corps' mission--you know, the Corps sees its 
mission, it has an authorization, it has an appropriation, it 
has a bill signed by the President. It wants to move forward. 
And then it must and has to comply with all Federal laws, and 
in doing that it has to interact with these other agencies 
that, to some extent, have either a check on the process or 
have a great deal to say that will impact future decisions or 
possibly send these cases to the courts.
    We spend a great deal of time, Senator, in trying to keep 
these projects outside of the courts. A lot of our motivation 
is to say, ``Let's work together to avoid future litigation, 
because that inevitably costs the taxpayer a significant amount 
of money, and we are trying to avoid that as much as we can.''
    Senator Chafee. Thank you.
    Senator Voinovich. Senator Thomas?
    Senator Thomas. Thank you, Mr. Chairman.
    I guess I would be derelict if I didn't remind you again 
that I asked some questions and submitted them three hearings 
ago and have not yet gotten a response.
    Mr. Westphal. Yes, Senator. I was told that. I wasn't at 
the hearing last week. I think you brought that up, and I was 
told that those questions have now been answered and I believe 
were delivered or should be delivered to your office today or 
yesterday. I apologize for that.
    Senator Thomas. I don't think they were yesterday. They may 
be today. Anyway, I appreciate that.
    I won't take long. I guess I have to pursue a little bit 
the same thing. You mentioned here you are involved with Indian 
lands on the transfer of lands from Indians or from a project. 
Why would Corps of Engineers do that? Why would you be involved 
in a study of economics, of culture, and so on? Just, you know, 
when we are seeking to identify the role and justify the 
financing for an agency, why would you be in that field?
    Mr. Westphal. Well, there are two different proposals in 
this WRDA bill. One is we continue to be asked quite a bit by 
tribes around the country to help in a variety of different 
ways, and we don't have a mechanism for directly working with 
the tribes on many of these issues that are water-related--that 
are environmental restoration types of projects. We don't have 
a way of doing that very easily.
    What we are asking is the authority to be able to work with 
a tribe in essentially doing the same kinds of projects that we 
would do in other parts of the country, but doing them through 
the Department of Interior and through the tribe, directly. 
That's one authority.
    The other area is that, as a result of the Pick Sloan 
project, we've got lands that obviously belonged to the tribes 
at one time that we believe can be transferred in the future to 
these tribes. They are surplus lands. They are lands that would 
certainly add some benefit to the tribes. We don't see a 
problem in terms of the operation of our projects, and we 
simply are looking for the authority to be able to do some 
assessment or study of how we would transfer those lands and 
the economics and the environmental requirements of doing so.
    Senator Thomas. There are other people who do that 
professionally, you know.
    In land management, you point out here the number of 
recreation areas and all those things. There are a number of 
land management agencies in the Federal Government. If we were 
to sit down and take a look at reorganizing for the purpose of 
being most efficient, would you be managing recreation areas, 
do you think?
    Mr. Westphal. Well, you know, all our recreational areas 
are attached to our projects----
    Senator Thomas. Yes, I know, attached to water. That's what 
you'll say about everything we ask.
    Mr. Westphal. Right.
    Senator Thomas. But there are a lot of things that are 
managed that are attached to water that aren't managed by the 
Corps of Engineers.
    Mr. Westphal. Right.
    Senator Thomas. They are recreation areas. They don't have 
anything to do really with the water except the water is there.
    Mr. Westphal. Right.
    Senator Thomas. I don't mean to be argumentative, but it 
seems like you are very defensive about not only doing 
everything that you've done since 1776, or whatever you put out 
here, but, indeed, wanting to expand it, when we ought to be 
looking at ways to make this government more efficient, combine 
agencies that do things, submit more things to the private 
sector than we do now, and you appear, Mr. Secretary, to be 
wanting to embrace everything you can get your hands on. Is 
that a fair analysis?
    Mr. Westphal. I don't think so, Senator. Let me tell you, 
on the recreation we would like to privatize a good deal of our 
recreation, but, frankly, won't get any takers because it is in 
such bad condition, and because of----
    Senator Thomas. You've been a great manager then, haven't 
you?
    Mr. Westphal. Well, funding is a problem.
    Senator Thomas. Of course it is a problem.
    Mr. Westphal. And our recreation--in order to make a 
transfer of a recreation to a private sector, they are required 
by Federal law to do feasibility studies, which are fairly 
costly, so if they are going to engage in taking over 
recreation facilities, they've got to put out a considerable 
amount of money.
    So what we're trying to do here on our recreation 
modernization, which is in our appropriations request we made 
this year, was to, candidly, bring some of these recreational 
areas to--we'd say ``modernize'' them, but we are talking about 
fixing them up so that they are reasonable and decent for 
people to use.
    We are not looking for more recreation. We're not looking 
to expand our recreation program. If anything, we would be 
delighted to be able to have more opportunities to lease some 
of these recreation areas or to privatize them.
    Senator Thomas. I bet you could, and I'll be happy to help 
you.
    Mr. Westphal. Good.
    Senator Thomas. You know, finally, more of a comment, you 
are talking about doing these things. We're finding this 
Administration expanding more and more without coming to the 
Congress. If you want some authorities or don't have 
authorities and so on, why don't you put together a package and 
bring it to the Congress? I mean, I think that is the system.
    The idea that you just reorganize and say, ``Well, we need 
the authority to do that,'' I don't agree with that. We're 
seeing that in the Forest Service. We're seeing it in BLM. 
We're seeing it in the land management agencies just kind of 
going around the Congress. I think you're going to find a lot 
of opposition to that idea. If you think you ought to change 
some things, you ought to put together your package and say, 
``Here's what we ought to be doing,'' and bring it in, rather 
than just going on. I just feel strongly about that.
    Mr. Westphal. I agree with you, Senator, but I think our 
agency is very responsible in that capacity. I mean, I think 
some of the things that are in this WRDA proposal that we are 
asking you to consider are things that we can, to some extent, 
if we stretch it the way you are saying, we could probably do 
some of these things.
    Senator Thomas. I'm not talking about what you do. I'm 
talking about how you organize and what your mission is. Now, 
if you are going to expand your mission by taking on different 
projects all the time, it just seems to me that, in a 
management standpoint, we ought to establish uniformly so that 
we all agree, ``here is the mission,'' so that then we can look 
at the things you recommend and say to ourselves, ``Is this 
working to accomplish the mission?'' But we don't do it that 
way. We kind of keep the mission a little bit secret and just 
keep adding projects to where, finally, when you get to a 
point, no one knows what the hell the mission is.
    I just sense a little of that. I understand the difficulty, 
but I wish you would think about it a little bit--defining 
where we want to go and where we want to be in 20 years so that 
we can measure and you can measure the steps we are taking to 
see if, indeed, we are going to accomplish that goal.
    Mr. Westphal. Senator, that is a good idea. And we are 
working on the development of our strategic plan, and I'll try 
to make a point of bringing that to you as we develop it and--
----
    Senator Thomas. I would appreciate it.
    Mr. Westphal [continuing]. Work with you on that, because I 
think that is a vehicle for doing what you are suggesting.
    Senator Thomas. Sure. And I appreciate that. Thank you, 
sir.
    Mr. Westphal. Yes, sir.
    Senator Voinovich. Dr. Westphal, I've got a couple more 
questions. One is a comment, and that is that the brownfields 
projects--and I can see the logic that it is close to the water 
and so forth--are being done, but I understand that it is being 
done on a reimbursable basis.
    Mr. Westphal. Yes, sir.
    Senator Voinovich. And now you want the Federal Government 
to come up with some money to take care of it, and I think one 
of the members of this committee wants even more money for 
brownfields. Again, with the backlog of projects and the other 
projects, to come in and say--it's, like, 25 now, and then it 
is 50, and before you know it, it gets back to what I think 
Senator Thomas was making, is that you've expanded the mission 
and the issue is you don't have the resources to do it, so you 
really ought to concentrate on the things that are fundamental 
to the core Corps responsibilities.
    In regard to cost sharing, the Administration's bill 
modifies authority in WRDA 1986 to authorize river basin and 
watershed planning studies to be cost shared on a 75 percent 
Federal/25 percent non-Federal. WRDA 1986 established study 
costs of 50/50. As already mentioned in my statement, where you 
have many jurisdictions involved, I think it is important that 
you have good cost sharing, because in the beginning on 
planning--it is much easier to get them together after the 
study is completed. Why the change? Why the recommendation for 
more money?
    Mr. Westphal. Primarily because I think these low-income 
tribal communities simply can't meet the requirements, and 
therefore they get left out of the picture.
    You know, part of what cost sharing--and I'm going to give 
you sort of my personal view here--what I've seen in my short 
tenure here is that, you know, we have got a law that we passed 
in 1986. Now it is the year 2000 and we need to look at what 
the impact is.
    We are having a lot of communities out there that have the 
resources, have the money, can raise funds, can raise taxes----
    Senator Voinovich. This is for river basin. I'm not talking 
about the tribes. I'm talking about river basin.
    Mr. Westphal. OK. On the river basin, the study proposed--
the study authority, that traditionally is 100 percent Federal, 
and on this one we are moving to bring more local share so they 
can have a buy-in to the whole idea of assessing the broad 
watershed, if that's what you're talking about, that's the 
provision you're talking about.
    Senator Voinovich. No. What I'm talking about is the 
rivershed basin and watershed planning studies to be cost 
shared on a 75 Federal/25, and in the past it is 50/50. You're 
just asking for more Federal money.
    Mr. Westphal. No. On the existing authority, section 29, I 
believe that's 100 percent Federal, and so we are moving that 
to a 75/25.
    General VanWinkle. Senator, if I could help out, I believe 
that certain of our studies--729 was on the books previously, 
and that was at 100 percent Federal--had not been used to a 
great deal. Our other larger studies had been cost shared at a 
50/50, so there really were two different types of projects 
involved in this, one under the previous authority, which had 
been 100 percent, but not much used. The normal sorts of 
studies that we do, which were typically cost shared at 50/50--
and so this would sort of meet at the middle. Larger watershed 
basins in the proposal is to cost share at 75/25 percent--to 
make sure we understand.
    Senator Voinovich. The only point I'm making, it's more 
Federal money.
    The Administration bill includes an authorization, short 
appropriation, of $5 million to participate in the CALFED Delta 
program, and we understand the program has been receiving a 
large Federal appropriation through the Bureau of Reclamation. 
Again, what is the justification for the Corps' participation, 
you know, $5 million in regard to a program that has been 
receiving quite a bit of money from the Bureau of Reclamation?
    Mr. Westphal. This is essentially for our ability to 
participate in this program as an equal partner with the other 
agencies. Again, because of our funding nature being project 
driven, as we are, we have no flexibility in our budget to 
fully participate in the CALFED initiatives.
    Now, we do have some fairly big projects that are ongoing 
that have been funded under separate authorizations by Congress 
that will inevitably be part of the overall CALFED solution, 
but what we want is the ability for our district and divisions 
there in California to be fully involved and engaged in the 
CALFED decision process, and that's why we are asking for this 
authority.
    Senator Voinovich. Senator Baucus, did you have any more 
questions?
    Senator Baucus. Yes, Mr. Chairman, just a couple of brief 
ones.
    The first one, Secretary, is with respect to deauthorizing 
Corps' projects. It is my understanding that there are about 
123 projects in backlog with an estimated cost of $4.5 billion 
that are eligible for deauthorization under current law, and I 
further understand and heard you say in your testimony that 
you'd like to tighten that up a little bit, including automatic 
deauthorization of projects not receiving construction funds 
during any consecutive 5-year period, and then you tighten it 
up a little more.
    Assuming we were to pass that recommendation of yours, how 
many more additional projects would be deauthorized? Do you 
have that data, that figure?
    Mr. Westphal. I don't. I think we'd have to get you that 
for the record. We'd have to look at it.
    We had some conversations, after the hearing last week, 
that we needed to actually look at those kinds of numbers, so 
why don't we put those together and try to get you those 
separately.
    Senator Baucus. So, just to clarify for everybody--I think 
the chairman is asking the same question--an authorized project 
must receive funds during seven full years immediately 
preceding the transmittal of the list to Congress to remain 
authorized?
    Mr. Westphal. That's generally--you know, that could be 
study money.
    Senator Baucus. Exactly right.
    Mr. Westphal. Right.
    Senator Baucus. That could be study money, that could be 
anything, and that's why you are suggesting automatic 
deauthorization for any project which construction is not 
initiated within 7 years of authorization.
    Mr. Westphal. Within 5 years.
    Senator Baucus. Pardon?
    Mr. Westphal. I'm sorry. Right.
    Senator Baucus. Seven years----
    Mr. Westphal. Right.
    Senator Baucus. And otherwise no funding construction funds 
during any consecutive 5-year period.
    Mr. Westphal. Right.
    Senator Baucus. Those are both additional limits that you 
are suggesting.
    Mr. Westphal. Right.
    Senator Baucus. I'd appreciate if you could get that 
information to us. That is how many more would be 
deauthorized----
    Mr. Westphal. We'll do that.
    Senator Baucus [continuing]. As a consequence.
    [The information referred to follows:]
    Senator Baucus. One other point on environmental 
restoration--and it is clear that some of the restoration 
projects are a consequence of adverse impacts from Corps 
projects, and for that reason many feel that there should be 
some environmental restoration.
    I'm just curious what the Corps is doing now to prevent 
degradation of the environment in Corps projects now.
    Mr. Westphal. Well, there has been clear guidance from 
Congress. I can actually quote it for you. In the 1990 water 
resources bill, section 306, it stated that the Secretary of 
the Army shall include environmental protection as one of the 
primary missions of the Corps of Engineers in planning, 
designing, constructing, operating, and maintaining water 
resource projects.
    Would that guidance to the field make that a requirement? 
The Corps must comply with all current existing Federal 
regulations dealing with the environment.
    Senator Baucus. What about projects, though, that were 
authorized before NEPA, before the Endangered Species Act? I 
mean, is there need for environmental restoration there?
    Mr. Westphal. Well, sometimes there is, and we are 
engaged--we have the 1135 authority that allows us and permits 
us to go back and review those projects and modify them as 
needed. Generally, we've got a lot of those projects going on 
around the country. It's pretty significant. I don't know what 
the number is off the top of my head, but----
    Senator Baucus. And I understand there is some concern 
about so-called ``mission creep,'' but, you know, my view is 
I'm less concerned about who gets the job done so long as the 
job gets done. I just urge us to kind of keep an open mind when 
we look at this question.
    Thank you.
    I thank the chairman.
    Senator Voinovich. Senator Lautenberg?
    Senator Lautenberg. Nothing more, Mr. Chairman.
    Senator Voinovich. Senator Chafee?
    Senator Chafee. I want to thank you very much. We look 
forward to continuing to work with you as we put the bill 
together.
    Thank you, Mr. Chairman.
    Senator Voinovich. Our next panel is going to consist of: 
Doug Sutherland, county executive for Pierce County, 
Washington, on the Puget Sound restoration project; Lillian 
Borrone, director of port commerce, Port Authority of New York 
and New Jersey on the Port of New York and New Jersey project; 
Barry Palmer, executive director of Dinamo on the Ohio River 
project; Mayor Dannel P. Malloy, City of Stamford, on 
brownfields; and Howard Marlowe, president of the American 
Coastal Coalition, on beach projects.
    I'd like to welcome all of you here this morning, and we'll 
begin with Mr. Sutherland.
    Senator Baucus. Mr. Chairman, I'd like to welcome Mr. 
Sutherland, who is from Montana.
    Mr. Sutherland. Hi. Thank you very much, Senator. I, 
indeed, was born in Helena, Montana, a number of years ago, and 
my family was long time and still many of them in that branch 
of the family are still there. I'm part of the black sheep of 
the family, and we migrated west.
    Senator Baucus. In any event, welcome.
    Mr. Sutherland. Thank you very much.

STATEMENT OF DOUG SUTHERLAND, COUNTY EXECUTIVE, PIERCE COUNTY, 
                           WASHINGTON

ACCOMPANIED BY:
        DENNIS KENTY, KING COUNTY ENDANGERED SPECIES POLICY OFFICE
    Mr. Sutherland. Good morning, Mr. Chairman and members of 
the committee. Let me say first of all that I am truly 
appreciative of your invitation allowing me to come testify 
before your committee on this issue, the Water Resources 
Development Act of 2000.
    My name is Doug Sutherland. I am the county executive of 
Pierce County, which is the second-largest county in the State 
of Washington. Joining me today is Dennis Kenty of King 
County's Endangered Species Policy Office, who will be here to 
help answer questions, if there are any.
    I would like to speak about habitat restoration in the 
Puget Sound basis, the subject of section 19 of the 
Administration's proposal for the Water Resources Development 
Act of 2000.
    The motivation for this initiative is a crisis that we are 
facing with salmon populations in the Puget Sound. The decline 
of Salmon populations has resulted in several Puget Sound 
salmon stocks, such as chinook, chum, as well as gold trout 
being listed under the Endangered Species Act in the last year, 
and more salmon stocks are likely to be listed in the next 2 
years.
    The loss of Puget Sound salmon is a major economic and 
cultural, as well as environmental issue. The region once 
boasted one of the strongest commercial and tribal fishing 
industries in the west coast. Today, the Puget Sound fishing 
industry is on its last legs, and tribal and commercial 
fishermen face rampant unemployment and a very uncertain 
future.
    Recreational fishing for salmon used to be big business in 
the Puget Sound area, as well, with hundreds of boat liveries, 
bait shops, and boat and motor dealers dependent upon the 
annual salmon runs. Many of these businesses today are gone.
    The endangered species listings are likely to spread the 
economic pain to all sectors of the Puget Sound economy. We are 
already seeing major delays in crucial public works projects, 
including roads, bridges, and flood protection projects.
    Private industry is also feeling the pinch as new 
construction is delayed and modified to address these 
endangered species issues.
    So far, our economy in the Pacific northwest has allowed us 
to absorb the impact of these listings, but the fist big wave 
of new regulations are likely to go into effect within the next 
6 months. The potential consequences of the Endangered Species 
Act on our economy are huge, with every sector facing major new 
costs.
    I have been working with local officials and leaders of the 
business, terminal, and environmental communities for the past 
2 years to define a strategy to address the environmental and 
economic consequences of declining salmon runs. Our alliance, 
called the ``Tri-County Group,'' is in the final stages of 
developing a proposal to rebuild salmon populations in the 
Puget Sound area. One of our cornerstones of our proposal is to 
restore salmon habitat on our rivers and streams. After a 
century of farming and timber harvest and urban development, 
the dams and navigation projects, some of our rivers are, 
indeed, in poor shape for salmon production.
    Now, mind you, this listing of the Endangered Species Act 
is the first time that you've seen an act applied to a species 
that is over a significantly large area in probably one of the 
most densely populated areas affected by this listing. 
Scientists tell us that we will need an aggressive program to 
repair habitat if we are to have any hope of bringing salmon 
back to our rivers.
    Local governments in the tri-county area have pursued an 
aggressive strategy to rebuild salmon habitat in our region. 
Pierce, King, and Snohomish Counties and our major cities have 
spent more than $15 million a year in local funds to purchase 
and restore habitat since 1998, and we have committed more than 
$100 million in our own local funding to habitat projects over 
the last decade. This is not a new program for us. We have had 
great successes working with the Corps of Engineers on habitat 
work.
    On the Puyallup River in Pierce County, for example, the 
Corps shared the assistance with levee setbacks and property 
purchases that allows us to restore hundreds of acres of 
floodplain habitat. Our neighbors to the north, King and 
Snohomish Counties have cosponsored several successful habitat 
projects and two major studies with the Corps. We have found 
the Corps to be a capable and an enthusiastic partner.
    We would like to expand this successful model to the 12 
counties in the Puget Sound as a whole. The authorization we 
are seeking would allow the Corps technical and financial help 
to be available to local governments and the Indian tribes 
throughout our basin.
    Focusing on Puget Sound as a whole will allow us to target 
funding for the most effective habitat projects. Using the base 
to my prospective and the restoration plans that are in the 
development of the 17 watersheds around the Sound, we intend to 
focus Federal and local funding on a highly effective and 
efficient strategy to rebuild salmon habitat.
    Thanks to the Washington Congressional delegation, and 
particularly Senators Gorton, Murray, and Representatives 
Inslee, Dicks, and Metcalf, legislation has been introduced in 
both houses of Congress to authorize new Corps habitat 
restoration program for Puget Sound. There are several key 
points in the Congressional bill that I would like to recommend 
be included in the Water Resources Development Act, and with 
your concurrence, Mr. Chair, let me quickly run through those.
    First, I respectfully request that the committee authorize 
the program at the $125 million level proposed by the 
Congressional bills. The Puget Sound basin is larger than the 
State of Maryland, and would require habitat restoration work 
in every one of its 17 major watersheds. Authorization at $125 
million will provide the funds needed to realize the full 
potential of the Federal and local partnership.
    Second, I strongly endorse involving State, local, and 
tribal interests in addition to the Federal fisheries agencies 
in selecting projects to be implemented under this authority. 
This will ensure that projects fulfill the local needs and 
complement other salmon recovery initiatives.
    Third, I request that the program have cost-sharing terms 
and encourage full participation by local government and tribal 
sponsors. Specifically, I strongly support a partial waiver of 
cost-sharing requirements for terminal sponsors and a 75/25 
formula--75 Federal and 25 local--for projects in the areas 
with prior Corps flood protection or navigation projects.
    Senators thank you so much for your consideration of this 
valuable program. We are committed to moving ahead to bring 
salmon back into the Puget Sound, and we look forward to a 
strong partnership, a continued partnership with the Federal 
Government through this initiative.
    Thank you so very much.
    Senator Voinovich. Thank you.
    [The prepared statement of Mr. Sutherland follows:]
    Senator Voinovich. We are now going to hear from Lillian 
Borrone, who is the director of Port Commerce.
    Ms. Borrone?

 STATEMENT OF LILLIAN BORRONE, DIRECTOR OF PORT COMMERCE, PORT 
                   OF NEW YORK AND NEW JERSEY

    Ms. Borrone. Thank you, Senator and members of the 
committee. I appreciate the opportunity to testify on behalf of 
the Federal navigation project and related matters of 
importance to the New York/New Jersey region and to the Nation.
    As I begin, I'd like to take a moment to recognize the 
invaluable work and untiring efforts of retiring Senators Frank 
Lautenberg and Daniel Patrick Moynihan. On behalf of the Port 
of New York and New Jersey and the citizens of our States, we 
will miss them. Their leadership has been tremendous and they 
will be sorely missed for reasons that go well beyond our port.
    Historically, the Port of New York and New Jersey has been 
the gateway for much of the Nation's imports and exports. 
Today, the Port of New York and New Jersey is the third-largest 
U.S. port and the busiest Atlantic gateway. We have the largest 
petroleum products and automobile trades in the country, and 
last year our container volume was 2.5 million 20-foot 
equivalent units, a growth of just over 67 percent in 4 years, 
and the cargo volumes at our port, like the rest of the Nation, 
are predicted to continue to grow. Trade growth nationwide is 
projected at 4 percent a year in the years ahead, and we have 
taken a conservative estimate of 3.7 percent for growth in our 
harbor. That means a doubling of cargo volume in our harbor 
during this decade.
    That realization in 1998 prompted us to undertake a major 
review of the impacts of that kind of growth to determine what 
new investments would be required in our marine terminal, our 
roadway, our railway, and our waterway infrastructure to meet 
that kind of future demand. The results of that review are 
contained in an investment options plan that identifies up to 
$7 billion in local investments to modernize and expand the 
major components of our port's infrastructure, including 
channels.
    Coupled with projections for strong growth in international 
trade area changing trends in the maritime industry. As Senator 
Lautenberg depicted in his earlier slide, in the summer of 1998 
the ``Regina Emeris'' called New York Harbor, making her first 
U.S. stop on her inaugural east coast tour. While the ``Regina 
Emeris'' has been the first of the large vessels to call at our 
harbor, she is not the only one we will see. In fact, as of the 
first quarter of this year, there are 101 deep draft or post-
Panamax vessels container ships sailing in the world's trade, 
carrying 14 percent of cargo traded throughout the world. In 
addition, another 130 vessels are on order. That will more than 
double the number of these giant vessels serving trade around 
the world.
    It is now clear that this is no longer a prediction; it is 
a trend. These larger vessels and their trade lanes are not the 
extraordinary occurrence for specialized cargo that was the 
view of the WRDA 1986 debate, but rather it is a fact. It is an 
industry standard, much as the corresponding channel depth will 
be the standard.
    The trend in the maritime industry is no different from 
technological developments in other transportation modes. In 
fact, we view this as the ocean equivalent of the wide-body jet 
or tandem trucks and double-stacked train units, all of which 
are now very familiar sites around the world.
    Given the long time that it takes to carry out--actually, 
to plan and then carry out major infrastructure investments, 
and the certain knowledge of the pressures that trade and 
technology will bring to our gateways, we don't believe the 
country can afford to put off project authorization and funding 
decisions until commerce is choking the channels of U.S. ports 
with modern ships that require modern depths.
    In recognition of this direction in ocean shipping and our 
inability to fully accommodate these new vessels in New York 
Harbor, our Congressional delegation, including Senators 
Lautenberg and Moynihan, helped authorize a Corps feasibility 
study, the New York/New Jersey Harbor Navigation Study, which 
was completed at the end of last year, and the chief's report 
on that project was signed earlier this month.
    In short, that report recommends the deepening to 50 feet 
of the major channels that lead to the major container 
terminals in the port.
    I have included in my formal testimony a map that shows the 
various channels included in the project recommendation.
    What's the value of this project to the Nation and why 
should the Nation invest in New York Harbor? Well, the Corps 
study found that the project would realize an annual benefit 
totaling $238.5 million in national transportation cost 
resulting from the larger vessels being able to call on the 
Port of New York and New Jersey directly rather than diverting 
to another port, only to have goods bound for the New York/New 
Jersey region trucked or railed back into the bi-State area.
    That scenario has national consequences in terms of wear 
and tear on the Nation's road and rail network, air quality, 
highway congestion, freight delivery time, and overall quality 
of life.
    As you know, a ship the size of the ``Regina'' carrying 
6,000 containers, a volume of that size would require 6,000 
trucks or 1,500 to 3,000 rail cars, depending on how many we 
accommodate on each of those cars.
    So, in our view, providing direct all-water service to the 
region is both a more economical as well as an environmentally 
preferred method of serving our market, but the national 
interest goes beyond those numbers, significant as they are. 
The Port of New York and New Jersey is in the heart of the 
Nation's largest and most affluent consumer market. There are 
18 million consumers that live and work in our immediate 
metropolitan region, and we reach over 80 million consumers 
within 1 day's truck drive from our docks, a ten-state region 
that stretches from Maine to Maryland, from Cape Cod to the 
Ohio River. Add to this broad market base the fact that the 
rail freight system allows our port to directly serve the 
southeast and midwest and beyond, including into eastern 
Canada.
    Most consumers of the inland coastal states probably don't 
think about seaports contributing greatly to their quality of 
life, but we at the Port of New York and New Jersey are not 
just a regional port.
    So, given the Nation's growing involvement in world trade 
activities, we believe that the Nation has a significant 
interest in maximizing the port's potential to serve the 
national consumer demand.
    Now, Mr. Chairman, ports among the east coast compete. We 
think that is healthy competition. But we compete because we 
are all willing to make investigations, both in our 
infrastructure as well as in our partnership with the private 
sector and with labor, who service us. We believe that that 
competition is healthy, but we also are prepared in the Port of 
New York and New Jersey to commit the approximately $1 billion 
for the non-Federal share of the channel project that we are 
seeking in the water resource legislation of 2000, in addition 
to the $5 to $6 billion that we, in conjunction with our 
private sector partners will invest in upland infrastructure.
    Mr. Chairman, I would like to submit more formal remarks 
for the record, and I would be happy to answer any questions 
the committee may have today.
    Thank you.
    Senator Voinovich. Thank you very much. Your remarks will 
be inserted in the record.
    Ms. Borrone. Thank you.
    [The prepared statement of Ms. Borrone follows:]
    Senator Voinovich. Now I'd like to welcome Barry Palmer, 
who is the director of the Association for the Development of 
Inland Navigation in America's Ohio Valley.
    Mr. Palmer, I would like to congratulate you and your 
membership for your willingness to take on your responsibility 
in paying $0.20 per gallon of diesel fuel so that you can see 
that the locks and dams on the Ohio River are in appropriate 
condition. Certainly, that is a core role of the Corps of 
Engineers and has been, and I apologize to you for the fact 
that the Federal Government hasn't kept up their part of the 
bargain with you and that we are 6 or 7 years behind what needs 
to be done in this area.
    I appreciate your being here and look forward to your 
testimony.

     STATEMENT OF BARRY PALMER, EXECUTIVE DIRECTOR, DINAMO

    Mr. Palmer. Thank you very much, sir. We've never had that 
kind of response from someone in your position before. We did 
agree to accept the additional $0.10 per gallon diesel fuel 
tax, making $0.20 per gallon. The moneys go into the trust fund 
to finance, pay for half the cost of these lock and dam 
modernization projects.
    Dinamo was organized 19 years ago with private sector 
leadership, State government leadership. Former Governor Rhodes 
was one of the charter members of getting Dinamo started and 
labor interest for the purpose of working with the Corps of 
Engineers to expedite the modernization of the lock and dam 
infrastructure on the Ohio River and its tributaries. You see a 
map of the region. In the last 19 years, 15 locks and dams, 
which represented an investment of nearly $5 billion, have been 
authorized by the Congress, the leadership support of this 
committee, and all 15 locks and dams are under construction or 
complete.
    You talked about the delays in scheduling. Yes, some of the 
projects have been delayed in their completion date by as much 
as 6 years. Particularly, there is a picture of the Olmsted 
locks and dams down at the end of the Ohio River before it goes 
into the Mississippi. This is a $1 billion project. That's a 
December photo. The locks are complete at this site. That 
project, from the beginning, when I got started on it, until 
when it is expected to be completed may be 27, 30 years. It 
needs massive amounts of money to get this project completed in 
an orderly way. And there are five other lock and dam projects 
that are not receiving as much funds as we think are necessary 
to get the job done.
    There are 275 million tons of commodities moving on the 
Ohio River navigation system that represents a value of $32.8 
billion. There are 1,000 manufacturing firms, power plants, 
terminals, and docks on the Ohio River navigation system, and 
it represents probably 650,000 jobs that are directly and 
indirectly affected by that waterborne commerce.
    We are here today--I wanted to say of the Olmsted project, 
for example, you talked about delays in this. The Corps did a 
study recently, and it was submitted to the Inland Waterway 
User Board. More than $1.34 billion in transportation savings 
have already been washed down the Ohio River because of 
construction schedule slippage. An additional $534 million is 
on the table. Those are potential future benefits. Those 
savings could be realized if we could get these projects funded 
on an orderly, efficient schedule.
    Now, we have been studying a lot of these projects under 
what is called an ``Ohio River Mainstem Study'' initiated 5 or 
6 years ago, which was intended to be an authorization document 
for short-term needs, as well as a long-range view of projects, 
and the preliminary findings are that there are eight more lock 
and dam projects that will need to be authorized in the next 
decade.
    The ones we are here to talk about today are Greenup and 
Myers. What you see in the yellow and what you see in the red 
are, in fact, costs that are born by the private sector as they 
operate on the system and go through those specific locks and 
dams, and the red particularly are closure costs that are 
reflected in future years over the 50-year economic design life 
of these projects. These are the two most important and two of 
the busiest locks on the Ohio River main stem.
    John T. Myers Lock and Dam is one of these projects that is 
located on the Indiana/Kentucky border near Uniontown--Mount 
Vernon, Indiana and Uniontown, Kentucky. The other is Greenup, 
which is on the Ohio/Kentucky border.
    Now, Myers was shut, for example, closed down for major 
maintenance back in 1989 for 45 days, and the additional cost 
to tow boat operators and shippers because of the closure of 
that lock was $15 million. So when you look at these closure 
costs out into the future, they are significant.
    Now, what we are asking this committee and urging them to 
consider and to act on, in fact, is to provide construction 
authorization for what are six-foot extensions to the auxiliary 
chambers at both the Greenup and Myer facilities. They probably 
require a contingent authorization. The division engineer is 
going to release his report tomorrow. They don't want me to 
tell you that. They want to tell you that first, but you will 
get it some time this week. And the final report of the chief 
should be available certainly before the end of the calendar 
year.
    We are looking at--the reasons for asking for tangentient 
authorization are two reasons. One, it takes a long time to get 
these projects under construction and built, but we would like 
to see this project, these two locks and dams and these 
extensions, completed by 2008. We have a window of opportunity. 
If we can build extensions on the auxiliary chambers so that we 
have twin 1,200-foot locks, we can avoid having to build a 
third lock at some point in the future, so this is a more cost-
effective way of doing business.
    You can see the engineer's notice. Come this month, the 
first cost at J.T. Myers is $182 million. At Greenup, it is 
$176 million. They both have very favorable benefit/cost 
relationships. What we want to do is we've got about 75 million 
tons of commodities going through Myers, for example, so we 
want to get these projects on track before the traffic 
overwhelms us, and then use the auxiliary lock as well as the 
main lock, and then forcing the Corps to build a third lock. 
That would be cost prohibitive.
    There is money for these projects, as you can see, in this 
year's budget, so there is support for this stuff, and what we 
are trying to do is to get down the river to, like we had with 
the Robert C. Bird Locks and Dams, one of our early champions 
along with Senator Heinz and Senator Ford, helped get this 
thing started.
    This is the old Gallipolis Lock and Dam down near 
Gallipolis, Ohio, and now Robert C. Bird Locks and Dams, and 
that's the way we like to see them all--completed and 
operational, fully operational.
    Thank you for the opportunity to be here this morning and 
to present our ideas about support for this project.
    Senator Voinovich. Thank you very much.
    [The prepared statement of Mr. Palmer follows:]
    Senator Voinovich. Mayor Dannel Malloy, the city of 
Stamford.

 STATEMENT OF HON. DANNEL P. MALLOY, MAYOR, CITY OF STAMFORD, 
                          CONNECTICUT

    Mayor Malloy. Good morning, Chairman Voinovich and members 
of the subcommittee. I am Dannel Malloy, the mayor of Stamford, 
Connecticut, and I am pleased to testify today on behalf of the 
National Association of Local Government Environmental 
Professionals about the critical role the Army Corps of 
Engineers has in revitalizing America's brownfields.
    Today, I will describe why the Corps of Engineers mission 
in brownfields is so important to local communities. Second, I 
will describe the need for the Corps' brownfield assistance in 
the efforts of places like Stamford and several other 
communities across America. Third, I wish to commend both the 
Administration and Senator Chafee for proposing to enhance the 
Corps' in brownfields revitalization.
    By way of background, NALGEP represents local government 
officials responsible for making local environmental policy and 
ensuring environmental compliance. NALGEP's membership consists 
of more than 130 local governments throughout the United 
States, including many communities in the States represented by 
the membership of this committee.
    The city of Stamford has a diverse population of 110,000 
people and is located on Long Island Sound just 35 miles from 
New York City. While Stamford is an old industrial city, 
settled in 1641, most of the historic manufacturing companies 
have left Stamford, leaving behind their contaminated 
industrial sites, or brownfields.
    Stamford has launched two major revitalization initiatives 
along our waterways, both with the assistance of the Corps of 
Engineers. Along Stamford's harborfront in the south end of the 
city, we are cleaning up long-abandoned brownfields and 
creating new manufacturing, housing, and recreational areas. 
The Corps' help is necessary to deal with further environmental 
assessments, ecosystem restoration, harbor dredging, and other 
activities which the Corps is well situated for.
    Stamford has also launched a major initiative to revitalize 
the Mill River corridor in a vital mixed-use district 
surrounding a new linear park along the river which runs 
through the center of the city. The Mill River initiative is a 
centerpiece of Stamford's plans to create a vibrant urban 
center with a high quality of life where citizens will want to 
live, work, and play. At Mill River, Stamford needs assistance 
in hydraulics study in order to remedy recurring siltation 
problems, improve water flow, and reconfigure the flood storage 
area. The Corps could also play a valuable role in dredging, 
identifying, and cleaning any environmental contamination and 
helping to restore the aquatic ecosystem.
    My written testimony provides other examples of how the 
Corps of Engineers is successfully partnering with local 
communities to clean up and revitalize waterfront brownfields. 
Specifically mentioned are projects in Ohio, New York, Rhode 
Island, Missouri, Kansas, Iowa, and California. In fact, we 
understand that the Corps of Engineers is assisting more than 
50 local governments to deal with environmental contamination 
in the projects along their waterways, and there are a great 
number of other communities that still need this help. These 
local examples show how valuable the Corps of Engineers can be 
in community brownfields revitalization.
    I want to stress three reasons that the Corps' brownfields 
mission is so important. First, there is a great local need for 
brownfields assistance along our waterways. There are as many 
as 500,000 brownfields that are draining older localities of 
vitality, threatening the public health and environment, and 
thwarting the expansion of local economies, jobs, and tax base. 
The need for brownfields resource is real and it is large.
    Waterway brownfield redevelopment also poses a unique set 
of challenges for communities. The difficult issues of water 
quality improvement, ecosystem protection, and restoration, 
flooding and runoff, toxic contamination, and hydraulic 
engineering make the Corps' expertise in cleanup along the 
Nation's waterways particularly important.
    Second, brownfields revitalization along waterways is 
consistent with the Corps' existing environmental mission, 
activities, and competencies. As I have testified, the Corps 
has creatively used its existing authorities to support as many 
as 50 local brownfields projects. This successful track record 
makes further Corps efforts and a clear legal authority for 
them appropriate and valuable.
    Third, the investment of the Corps' resources in 
brownfields will yield a high return for American local 
communities, its citizens, and the environment. Removing the 
barrier of contamination from our waterfront brownfields can 
help create jobs, leverage private sector resources, expand the 
tax base, reverse urban deterioration, protect health and 
public safety, slow the sprawling of metropolitan regions, and 
keep our communities livable.
    In conclusion, local communities urge this Congress to 
support a brownfields mission for the Corps of Engineers. 
NALGEP commends the Administration and Senator Lincoln Chafee 
for their leadership in proposing legislation that would 
establish this important environmental mission for the Corps.
    Riverfronts, harborfronts, and lakefronts, and many local 
communities hold the legacy of our industrial heritage, and the 
contamination left behind by these activities is there and need 
to be dealt with.
    The revitalization of our waterways with commercial, 
residential, and greenspace development represents the key to 
the future revitalization of these American communities. 
Congress should make the Corps part of the team of local, 
State, and private sector leaders who are revitalizing our 
Nation's waterfront brownfields.
    Thank you.
    Senator Voinovich. Thank you very much.
    [The prepared statement of Mayor Malloy follows:]
    Senator Voinovich. Mr. Marlowe is president of the American 
Coastal Coalition, on beach projects.
    Mr. Marlowe?

   STATEMENT OF HOWARD MARLOWE, PRESIDENT, AMERICAN COASTAL 
                           COALITION

    Mr. Marlowe. Thank you very much, Mr. Chairman. I 
appreciate the invitation to testify extended by you and 
Senator Baucus.
    The American Coastal Coalition is a nationwide advocacy 
organization for coastal communities whose sole mission is to 
achieve policies that will promote the economic and 
environmental interest of those communities. Since our 
establishment in 1996, our major focus has been on Federal 
policies that affect beach restoration.
    As you know, the Administration in 1995 announced that it 
would support no new shore protection starts. This committee, 
in WRDA 1996, adopted section 227, which we refer to as the 
``National Shore Protection Act,'' and Senator Lautenberg was 
the chief sponsor of the National Shore Protection Act as a 
stand-alone piece of legislation, and, when incorporated into 
WRDA, it simply required the Administration to recommend shore 
protection projects for authorization and for funding.
    To this day, the Corps has not implemented section 227 
because of strong opposition from the White House Office of 
Management and Budget.
    In the last couple of years, Members of Congress and 
private interest groups spent a good deal of time negotiating 
with OMB, trying to reverse the Administration's position. The 
result of those talks was the adoption in WRDA 1999 of a major 
change in cost-sharing, which increased the share of cost born 
by non-Federal sponsors in short protection projects.
    At the time the Senate Environment and Public Works 
Committee was considering that change, Dr. Westphal testified 
before you and responded to your questions that the cost-
sharing formula considered by the committee would result in a 
change in the Administration's no new shore protection 
projects. Apparently, he was not speaking for the 
Administration.
    The Administration's shore protection policy, if it can be 
called that, is bad policy. It is bad for the national economy. 
It is bad for the national environment. Furthermore, we think 
OMB's dealing with Congress on this subject have been 
characterized by bad faith.
    I want to emphasize a couple of points in our prepared 
testimony. Beaches are a major component of our national 
economic and environmental infrastructure. Their impact will be 
quantified and highlighted when the national shoreline study 
authorized by WRDA 1999 is completed. The study will provide 
not only the first physical catalog in 30 years of the beaches 
of the United States that are eroding, but it will also show 
the economic and environmental costs of erosion to the Nation.
    Obviously, American Coastal Coalition fully supports the 
funding of the shoreline study; however, we regret that the 
Administration apparently is using the fact that the study has 
yet to be undertaken and completed as an excuse not to 
recommend reauthorization or funding of any new beach 
restoration projects. It is especially hard to take this excuse 
with any degree of seriousness, given the fact that the 
Administration has recommended a paltry $300,000 appropriation 
for this study. We are delighted by the fact that Senator 
Lautenberg and other Members of Congress have requested very 
adequate funding for this project.
    Since it is likely that Congress will provide some level of 
funding, we do hope that this committee will urge the Army 
Corps of Engineers to begin working with other agencies now to 
develop a study scope and methodology that will produce useful 
and credible information for Congress and the public.
    I want to focus on something very briefly that has been 
raised by other witnesses and by members of the committee, 
section 16, the automatic deauthorization provision.
    In theory, it ought to be able to be possible to get from 
authorization to construction within 7 years. The fact of the 
matter is that most of the beach nourishment projects that are 
up for actual construction funds in fiscal year 2001 or likely 
to be up for fiscal year 2002 were actually authorized in the 
1980's. Many beach nourishment projects authorized in the WRDA 
bills of 1992 and 1996 are not likely to get construction funds 
until fiscal year 2003 or later.
    Corps procedures and the Administration's refusal to budget 
for nourishment projects have been significant factors in 
slowing them down in terms of getting under construction.
    Every authorized Federal beach nourishment project has an 
economic life up to 50 years. Over that life, the authorization 
provides for periodic renourishment. Well, those that perform 
well, the period between initial construction and their first, 
second, or subsequent periodic renourishment is going to be 
longer. It may, indeed, be longer than 5 years.
    Now, that good performance will be rewarded with an 
automatic deauthorization under section 16 of the 
Administration's proposal. That's one single approval that we 
don't need from the Feds. Obviously, we hope that you will 
strike section 16, or not include that provision in your 
committee bill.
    In our prepared testimony, we have discussed several WRDA 
2000 policy changes that we recommend. There is one, again, I 
would like to highlight, and it is appropriate, given the fact 
we've had other discussion on the word ``recreation.''
    Recreation is not a four-letter word and, in the case of 
shore protection, it is not an extension of the Corps' mandate. 
The fact of the matter is, it is an integral part of the Corps 
protection mandate.
    Basically, in a very summary fashion, we would like to have 
the legislation enacted. We proposed in our testimony 
legislative language which would require that the Corps 
consider recreational benefits equally with storm damage 
reduction and environmental restoration benefits to determine 
the benefit/cost ratio of shore protection projects.
    Finally, our testimony has listed several shore protection 
projects, studies, or construction authorizations. We hope that 
you will include these within WRDA 2000.
    Thank you very much for the opportunity to testify. We look 
forward to any questions that you may have.
    Senator Voinovich. Thank you very much.
    [The prepared statement of Mr. Marlowe follows:]
    Senator Voinovich. I've asked Senator Chafee to take over 
presiding this hearing for a few minutes. I will be back.
    Senator Lautenberg. Thanks very much, Mr. Chairman. I'll 
try to be brief, which is unusual. I hope that the witnesses' 
response, which is unusual, will also be brief.
    I'll start with Ms. Borrone.
    I thank all of you for your testimony. It is a very 
appealing litany, if I may call it that way, to actually get 
involved to do the things that we have to to help our 
communities move along, to get the ground cleaned up, get the 
water cleaned up in places where it can make a huge difference. 
The crowding of our country is forcing us to seek ever-more 
land use opportunities in a sensible, environmentally sound 
way.
    Ms. Borrone, we're looking at trying to deepen our 
channels, and, very frankly, it was something that Mr. Marlowe 
said about beach replenishment--you know, all of these projects 
are fundamentally designed to try and help the economies of 
those communities, and we don't stand by when there is a flood 
or a natural disaster, earthquake, volcano, what have you. We 
don't stand by and say, ``OK, that's a local thing.'' And 
therefore we can't stand by, in my view, and say to those ports 
that are naturally deeper, ``OK, you come take the business 
because the standards for building ships have changed 
substantially and they're deeper and harder to get ships in.'' 
So, as a consequence, I think, just as we talked to Mr. Palmer 
about what you're trying to do in the Ohio Valley there, the 
same thing, beach replenishment to me is akin to helping 
farmers in the moment of disaster.
    If our economy is built around the use of beaches and clean 
water, clean ocean water, then we have to appeal to our Federal 
Government to give us a hand there to try to adjust things so 
that we can all share in the business.
    So when we look at, Ms. Borrone, at the New York Harbor--
and I'm glad to see that Mayor Malloy's colleague in activities 
has joined us.
    Senator Lieberman. I was close. Thank you.
    Senator Lautenberg. Well, I know how devoted you are, 
Senator Lieberman, to making sure that every resource in this 
committee goes to Connecticut.
    [Laughter.]
    Senator Lieberman. Whatever is left over after New Jersey.
    Senator Lautenberg. The fact is that we have had--we're 
looking now at depths of 55 feet because newer ships have been 
build more efficient. Is this a cycle that is going to 
continue? Are we going to be looking at 60-, 65-foot vessels? I 
see some of the passenger vessels that they are building are so 
enormous, they're five, six stories high. Is that what we are 
in for in the future, because it makes a difference in how we 
do our planning.
    Ms. Borrone. It certainly does, Senator. Well, as we 
undertook this analysis, with the help and commitment of the 
Army Corps of Engineers, we asked that question. I think our 
answer is, barring some dramatic change in technology, that it 
is not going to continue to look to deeper and deeper channels. 
What we are saying is that we are going to perhaps have the 
opportunity to max out with existing depths and existing beams 
on vessels well before we have to start looking at new 
capability and ship design.
    We believe, based on what the industry designers are 
telling us--naval architects and marine engineers--that we 
could see ships with current depth requirements and beams that 
would handle 14,000 or 15,000 containers on a vessel. The 
technology problem is going to be the engine capability and the 
cost of operating those vessels.
    If we start seeing broadening beams, we are going to have 
problems not just in New York Harbor but in many other harbors, 
because we haven't designed our channels to handle two vessels 
of very large beams passing each other. And it's not just this 
country, it's other countries, as well.
    So what we think and the way we looked at this analysis, 
the channel depths that we are talking about, that 50 foot, 
which, as you say, is really more than 50 feet to assure safe 
overdraft and to assure that we--because we will be blasting 
into rock, have the appropriate rock capability in place--we're 
talking about approximately 54 feet. We should be able to 
handle the ships that want to call our harbor.
    Also, remember that the largest, the behemoth vessels, are 
only going to be on certain trade lines because of the volume 
of cargo flowing between Asia and the U.S. or between Asia and 
other countries.
    So we don't think it is an ever-increasing cycle of deeper 
and deeper drafts.
    Senator Lautenberg. Because at some point I think we have 
to say, ``Well, how much can we afford to do, and what is the 
reasonable navigation opportunity there?'' You know, some of 
these are fairly narrow channels, and if you keep extending the 
draft then there is a tendency to increase the length, there is 
a tendency to increase the beam. Before you know it, you'd have 
to put wheels on this thing and drive it over land.
    Then the next question that arises is the share of sharing, 
the relationship between Federal funding and non-Federal 
funding, and the current cost-sharing relationship for channel-
deepening projects, the nexus at 45 feet is 50/50.
    Now, in your testimony you say that the Port Authority or 
local support, regional support, is willing to go to $1 
billion, if I read correctly. The forecast is for 
$1,800,000,000. What is the position of the Port Authority on 
accommodating these newer ship standards and modifying the cost 
share to allow for 65/35 for projects up to 55 feet?
    On one hand, I hear what I think is a serious offer to take 
even more than half locally. On the other hand, it is being 
suggested that maybe the Federal Government ought to step up to 
65 percent.
    Ms. Borrone. Well, Senator, the current Federal share is 
really 60/40, meaning 60 percent on the local and 40 percent on 
the Federal level, because the 50/50 we start with, but we also 
have another 10 percent responsibility at the end of the 
project where we reimburse the Federal Government that 
additional amount. So the Government's position in current law 
is that we step up and spend 60 percent of our funds.
    That's what I said we are prepared to do because it is so 
urgent that we get this program moving. But we do, as the Port 
Authority, strongly support the cost-sharing policy change 
which is under consideration, we hope, by this committee, 
because we do believe, as I said in my testimony, that the 
depth we are talking about will be standard depth, which was 
the circumstance when we were dealing with 45 feet as an 
industry standard a decade-and-a-half ago.
    So we would hope that the committee would seriously 
consider the opportunity to adjust the cost-sharing formula in 
this legislative round.
    Senator Lautenberg. To 60----
    Ms. Borrone. To 65/35.
    Senator Lautenberg. To 65/35?
    Ms. Borrone. Right.
    Senator Lautenberg. So 65 percent----
    Ms. Borrone. Federal.
    Senator Lautenberg [continuing]. Being from----
    Ms. Borrone. The Federal Government.
    Senator Lautenberg. Federal Government. I just wanted to be 
sure, because let there not be any confusion that we want to 
make it easier for the Federal Government.
    I thank you.
    Ms. Borrone. Thank you, sir.
    Senator Lautenberg. I thank the Senator from Rhode Island 
for his interest, I must say, to carry on in the Chafee 
tradition, legacy of interest in such matters as the very good, 
positive contribution to the things that we are doing. We're 
glad to see you.
    Senator Chafee [assuming Chair]. Thank you very much.
    Senator Lieberman?

        OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks, Senator Chafee, and thanks to 
everyone on the panel.
    I'd offer a special welcome to my home town mayor. I left, 
but I didn't go far, and my mother is still there, and she is a 
fervent supporter of Mayor Malloy.
    I regret that I was at an Armed Services Committee meeting 
that kept me from being here.
    I don't want to delay the hearing. I have a statement that 
I would ask, Mr. Chairman, be entered into the record.
    Senator Chafee. Without objection.
    [The prepared statement of Senator Lieberman follows:]
    Senator Lieberman. I took a look at Mayor Malloy's 
testimony and I have been informed by my staff that he 
testified well to it.
    We have had experience in Stamford now with the very 
constructive and unique role, a great advantage, sort of value-
added over what might have come from a private engineering 
firm. First, the city 2 or 3 years ago was designated as one of 
the lead cities in brownfields initiative. I think 16 were 
chosen around the country. But then there are two major 
projects that I know, because of all the time I go to Stamford 
to visit my mother. You understand this.
    Mayor Malloy. I do.
    Senator Lieberman. Yes. And I know, from talking and 
working on it with Mayor Malloy, the critical role the Corps is 
playing in both of those projects.
    I'm sure he said it better than I could. I want to just 
welcome him, thank him for taking the time to come down and 
testify and thank him for his leadership of a city that is 
really doing very well now.
    Mayor Malloy. Thank you, Senator. I just want to thank you 
for being here. If I had known you were going to be here, I 
would have spoken slower.
    [Laughter.]
    Senator Lieberman. Thank you.
    Thanks, The Chairman.
    Senator Chafee. I don't have any questions. The only 
comment I would make is that these are worthy projects, from 
the days when you could walk across the backs of salmon to 
seeing very few in a whole day along the river--80 million 
people, according to your testimony, are served within 100 
miles of the port.
    One interesting fact--New Jersey is more densely populated 
than India.
    Senator Lieberman. Really?
    Senator Chafee. Look it up.
    Senator Lieberman. I'm going to do that.
    I'll give you the other side of this. I was at a meeting 
with Senator Burns of Montana, and he was talking about how 
little populated Montana is, and he said, in true Brensian 
fashion, ``In Montana, there's a lot of dirt between light 
bulbs.''
    [Laughter.]
    Senator Lieberman. It only makes sense that we provide all 
those people with adequate transportation for their goods. Of 
course, the Ohio River and all the produce that travels on that 
waterway, and the good work that is being done at Stamford, 
what an opportunity to realize a city's potential, a city that 
has seen the faces of history come and go and now great 
potential.
    And the beaches--my only comment on that would be the power 
of the ocean just can't be under-estimated. I know in Rhode 
Island we restore some beaches, and just the power of the ocean 
can undo so quickly what the Corps or anybody else can do, so I 
do have some reservations on putting money into beach 
restoration.
    Mr. Marlowe. I'd be happy to talk with you about that one, 
Senator.
    Senator Chafee. Thank you very much.
    In the absence of Senator Voinovich, I conclude the 
hearing. Thank you.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
Statement of Hon. Daniel Patrick Moynihan, U.S. Senator from the State 
                              of New York
    Mr. Chairman, I appreciate your holding this hearing to discuss the 
Administration's proposal for the Water Resources Development Act of 
2000. I am particularly interested in discussing the New York/New 
Jersey Harbor Navigation Study, which was completed and signed by 
Lieutenant General Joseph N. Ballard on May 2, 2000. I am pleased that 
the project has been included in today's hearing and particularly look 
forward to receiving the testimony of Lillian Barrone, Director of Port 
Commerce for the Port Authority of New York and New Jersey.
    The Chief's Report for the New York/New Jersey Harbor Navigation 
Study recommends deepening the entrance channel to 53 feet, and all 
other major channels in the Port to a depth of 50 feet. This report 
represents 3 years of comprehensive study, authorized in WRDA 96, on 
the navigation needs of the Port of New York and New Jersey. I support 
the report in its entirety.
    In 1791, Alexander Hamilton wrote of the efficiencies to be gained 
by the involvement of the Federal Government in the development of 
waterways for commerce in his ``Report on Manufactures.'' Throughout 
the 1800's, support for Federal involvement in navigation and commerce 
solidified. In 1899, Congress passed the River and Harbor Act, giving 
regulatory authority to the Army Corps of Engineers for any 
construction within navigable waters of the United States. Mr. 
Chairman, the New York/ New Jersey Harbor project represents the 
essence of this mission.
    The Port of New York and New Jersey is the third largest port in 
North America and the top export port in the country. It is a vital 
economic engine. As trade continues to expand, we must be prepared to 
make serious investments in our nation's infrastructure to ensure our 
ability to be competitive internationally. Authorization of the New 
York/ New Jersey Harbor project in its entirety is paramount to the 
continued economic vitality of the Port, the states of New York and New 
Jersey, the entire northeast region, and indeed, the nation. I look 
forward to working with my colleagues in developing the Water Resources 
Development Act of 2000.
                               __________
 Statement of Dr. Joseph W. Westphal, Assistant Secretary of the Army 
                 (Civil Works), Department of the Army
Introduction
    Mr. Chairman and Members of the Subcommittee, I am Joseph Westphal, 
Assistant Secretary of the Army for Civil Works. Accompanying me today 
is Mr. Michael Davis, the Army's Deputy Assistant Secretary for Policy 
and Legislation, and MG Hans A. Van Winkle, the Army Corps of 
Engineers' Deputy Commander for Civil Works. It is an honor to be here 
today, and to provide you with information on the Army's proposal for a 
Water Resources Development Act (WRDA) of 2000. We appreciate the 
opportunity to work with your Subcommittee and the Congress on this 
important legislative initiative.
    For over two centuries, the U.S. Army Corps of Engineers has been a 
great asset to our Nation. Since its founding in 1775, the Corps of 
Engineers has provided engineering support to the military, developed 
our nation's water resources, and restored and protected our 
environment. The Corps has improved the quality of our life by 
contributing to making America more prosperous, safe, and secure. As we 
begin the new century, the Corps must be flexible and evolve if it is 
to continue to make important contributions to the Nation and respond 
to today's problems. We envision that the Corps will continue in its 
longstanding and exemplary role as a great problem solver for the 
Nation.
    Historically, the Nation's rich and abundant water and related land 
resources provided the foundation for our successful development and 
rapid achievement of preeminence within the international community. 
Our Nation's waters and waterways have been focal points for economic 
and social development, and the Army's Civil Works program has made 
significant contributions to this development.
    Under this Administration, there has been intense interest in 
finding sustainable ways to strengthen our Nation's economy while 
protecting and restoring our unique water and related land resources 
for the benefit of future generations. I believe the Army's Civil Works 
program has a significant role to play in meeting these objectives. 
There is no question that our natural resources have been affected, 
often in unintended ways, by our country's tremendous growth, 
unparalleled prosperity, and urban and rural development. Pursuant to 
the Water Resources Development Act of 1986, the Army Civil Works 
program began to change in response to the many new water resources 
challenges facing this Nation. The programs and policies that I will 
talk about today are designed to enable the Army Corps Civil Works 
program to continue the tradition of contributing to our economic 
growth, our National security, and the restoration and protection of 
our Nation's environment.
Importance of Water Resources Development
    The Administration's Army Civil Works program reflects its 
commitment to justified and environmentally acceptable water resources 
development. Our program provides a sound investment in our Nation's 
security, economic future, and environmental stability. Communities 
across the country rely on water resources projects to reduce flood 
damages, compete more efficiently in world trade, provide needed water 
and power, and protect and restore our rich environmental resources.
    As you are well aware, there are many pressing needs for water 
resources development in this country. We must work together to define 
an appropriate Federal role in addressing these problems in the full 
light of our fiscal capabilities and constraints, and economic and 
environmental requirements. I suggest that we utilize the following 
principles as we formulate a Water Resources Development Act for 2000:
    <bullet>  Technically Sound Projects. Water resources investment 
decisions must be made based on the best technical and policy 
evaluations that consider all economic and environmental consequences. 
In light of constrained Federal dollars we must ensure, before a 
project is authorized for construction, that it has completed a sound 
planning process, has passed a full Agency and Administration review, 
and is fully in accord with the Federal laws and policies established 
to protect the environment.
    <bullet>  Central Importance of Cost Sharing. At the heart of the 
Water Resources Development Act of 1986 were landmark beneficiary pay 
reforms, which included cost sharing. As a result of this change in the 
way the Corps does business, local sponsors, through funding and use of 
their expertise, have become active participants in the formulation, 
evaluation, and financing of projects. The willingness of non-Federal 
interests to participate in cost-share studies and projects often also 
serves as a critical market test of a project's merits. Overall, we 
have found it an eminently successful policy.
    <bullet>  Fiscal Responsibility. The Nation's water resources 
infrastructure must be planned, constructed, operated, maintained, and 
improved to meet future needs. However, this must be done in consonance 
with other national priorities and a balanced budget. We should never 
create false hope by authorizing projects that we cannot reasonably 
expect to fund or complete within a reasonable period of time. In light 
of the large backlog of ongoing Corps construction projects, and other 
authorized projects awaiting construction, we must limit the 
authorization of new studies, projects and programs and give priority 
to completion of ongoing construction projects. This will allow us to 
move toward a more sustainable long-term construction program and more 
timely project delivery to non-Federal sponsors.
Army Civil Works Legislative Program for 2000
    The centerpiece for the Administration's legislative program for 
2000 is the authorization of the Comprehensive Everglades Restoration 
Plan to restore America's Everglades. We have previously provided 
detailed testimony and briefings on this high priority project and will 
not elaborate further in this statement. Instead, I will focus on the 
non-Everglades provisions in our WRDA 2000 proposal.
    Our WRDA 2000 proposal includes several provisions which, if 
enacted, will aid in the restoration of our natural environment. There 
are provisions aimed at more effectively meeting the needs of tribal 
and low-income communities. Finally, there are a number of provisions 
that will assist us in the management of existing Corps programs. I 
will discuss each of these areas in more detail below.
Provisions to Assist in Environmental Restoration and Planning
    <bullet>  Puget Sound and Adjacent Waters. Puget Sound and adjacent 
waters encompass more than 15,000 square miles in northwest Washington, 
including all waters in the Puget Sound drainage basin. Significant 
amounts of wetland, estuary, and river and stream habitats have been 
degraded or destroyed as a result of Federal, State, and local actions, 
including Federal navigation projects, agricultural and forest 
activities, and urbanization. Improving the health of this resource 
area is critical to Tribes, the State, and the Nation at large because 
of its abundant fisheries, and habitats used by migrating waterfowl. 
Because of this great need, we have proposed legislation that will 
authorize the Army Corps of Engineers to undertake critical 
environmental restoration projects in the Puget Sound watershed. 
Projects would be implemented by the Corps with 65 percent Federal and 
35 percent non-Federal cost sharing. The maximum Corps funding of any 
one project would be limited to $2.5 million, with a total Corps 
program limit of $10 million. Projects would be selected with the 
concurrence of the Secretaries of the Interior and Commerce and in 
consultation with appropriate Federal, Tribal, State, and local 
agencies, and would provide immediate and substantial restoration, 
preservation, and ecosystem protection benefits.
    <bullet>  CALFED Bay Delta Program Assistance. One lesson we have 
learned from our work in the Everglades is how important it is to be 
able to look at an entire ecosystem or watershed and evaluate 
comprehensively a broader array of water and related land resources 
problems and opportunities. The CALFED Bay Delta Program, initiated in 
1995, represents an important collaboration among Federal and 
California State agencies and leading urban, agricultural, and 
environmental interests to address and resolve environmental and water 
management problems associated with the Bay-Delta system in central 
California. The Bay-Delta system is formed where the two foremost 
rivers of California's Central Valley meet. These rivers--the 
Sacramento and the San Joaquin--provide drinking water for 22 million 
people, and supply irrigation water for more than 4 million acres of 
some of the world's most productive farmland. It is the largest wetland 
habitat and estuary in the American West, and is a critical part of the 
Pacific flyway for migrating birds. The CALFED mission is to develop a 
long-term comprehensive plan that will improve the ecological health of 
the Bay-Delta system and improve water management for beneficial uses.
    We have proposed that the Secretary be authorized to participate in 
all CALFED planning and management activities, consistent with Public 
Law 102-575, and to integrate its activities in the San Joaquin and 
Sacramento River basins with the long-term goals of the CALFED Bay 
Delta Program. Currently, Army Corps of Engineers participation can be 
limited because the Corps in many instances must rely on project-
specific authorizations that do not include participation in inter-
agency, bay-wide planning and management activities. Our proposal will 
provide the authority for the Secretary to request funds for the Corps 
to participate in the CALFED Bay Delta Program, and to use funds 
provided by others to carry out ecosystem restoration projects and 
activities associated with the CALFED Bay Delta Program. The 
authorization would be to authorize the appropriation of $5 million in 
funds over a 4-year period starting in fiscal year 2002.
    <bullet>  Brownfields Revitalization Program. For several years, 
the Corps has been assisting, predominantly on a reimbursable basis, 
the Nation's efforts to restore abandoned, idled, or under-used 
industrial and commercial facilities where expansion or redevelopment 
is complicated by environmental contamination (i.e., Brownfields). We 
propose that the Army Corps of Engineers be authorized to establish and 
carry out a program to provide assistance to non-Federal interests in 
the clean-up and restoration of Brownfields where such clean-up and 
restoration will directly contribute to improving the quality, 
conservation, and sustainable use of waterways and watersheds. The 
Corps would use this authority to perform site characterizations, 
planning, design, and construction of projects to improve the quality, 
conservation, and sustainable use of streams, rivers, lakes, wetlands, 
and floodplains. Such activities in combination with the Corps' 
existing environmental restoration and protection authorities will 
enable the corps to participate more extensively in the overall Federal 
effort to revitalize Brownfield areas. The provision requires 
consultation with the Environmental Protection Agency and other 
appropriate agencies to ensure that Army Civil Works activities are 
integrated fully with the activities of others. Our proposal also 
includes language in Section 5(d) to clarify that this new authority 
would not modify existing law or agency authorities over Brownfields. 
Studies conducted under this authority would be in accord with normal 
study cost sharing, and the non-Federal share of projects would be 50 
percent. Non-Federal interest would provide the lands, easements, 
rights-of-way, and relocations; hold and save the Federal Government 
from claims and damages; and operate and maintain any project 
implemented under this authority. The legislation would authorize the 
Army Corps of Engineers to engage in these activities over a 4-year 
period beginning in fiscal year 2002, with a programmatic appropriation 
limit of $25,000,000 annually, for such studies and projects 
nationwide. There would be a $5,000,000 one-time Army Civil Works 
funding limit at any single site. In addition, the legislation calls 
for a report to be prepared evaluating the Corps' performance under 
this Brownfields Restoration Program, and for that report to be 
submitted to the Congress on findings and recommendations on the 
program by December 31, 2005.
    <bullet>  Watershed and River Basin Assessments. At a conceptual 
level, addressing water resources issues on a watershed scale is 
generally embraced as the most appropriate approach. In practice, 
however, agencies too often continue to focus on their parochial 
interests and address problems on a project-by-project basis. In many 
cases, this has resulted in ineffective solutions and inefficiencies. 
In this regard, we have included a provision in our WRDA 2000 to amend 
Section 729 of the Water Resources Development Act of 1986. This 
provision will enhance the ability of the Army Corps of Engineers to 
help address complex water resource problems that include large 
geographic areas across multiple governmental jurisdictions. It would 
also enhance the ability of the Corps to work efficiently and 
effectively in a watershed environment. Such assessments would be 
conducted in cooperation with other Federal, Tribal, State, interstate, 
and local governmental entities.
    The legislation would increase the total authorized appropriations 
limit for such assessments from the current $5,000,000 to $15,000,000, 
and add a non-Federal cost sharing requirement. The non-Federal share 
of the cost of such assessments would be 25 percent. The assessments 
would consider a broad variety of water resources needs tailored to the 
specific situation in a river basin or watershed. To the extent 
practicable, the assessments will consider and enhance those 
assessments already conducted by other Federal, State, and interstate 
agencies.
Provisions for Tribal and Low-Income Communities
    <bullet>  Tribal Partnership Program. The proposed Tribal 
Partnership Program would enhance our ability to work with federally 
recognized Tribal governments, including Alaskan Natives, to determine 
the feasibility of potential projects for flood damage reduction, 
environmental restoration and protection, and cultural and natural 
resource management. The legislation acknowledges the unique 
relationship with Tribal governments, and authorizes the Secretary to 
consider traditional cultural knowledge and values when formulating and 
recommending projects to Congress for authorization, and unique Tribal 
capabilities during project development. We would coordinate with 
tribes and with the Department of the Interior and other Federal 
agencies to identify potential projects and to design and conduct 
feasibility studies, and would seek to avoid duplications of effort and 
to explore ways to integrate our resources with the activities of the 
affected agencies. The legislation would authorize the Army Corps of 
Engineers to engage in these activities over a 5-year period beginning 
in fiscal year 2002, with a programmatic appropriation limit of 
$5,000,000 annually for such studies and projects.
    In addition, there will be a $1,000,000 one-time Army Civil Works 
funding limit for any one tribe. In addition, we have included a 
provision for the Secretary to develop ability-to-pay procedures to 
assist low income and economically disadvantaged communities in funding 
studies and projects conducted under this authority.
    <bullet>  Ability to Pay. We are proposing that the ability to pay 
provisions of Section 103(m) of the Water Resources Development Act of 
1986 be further amended so that it would apply to the construction of 
environmental protection and restoration projects, and to feasibility 
studies for flood damage reduction and environmental restoration 
projects. We also believe that additional criteria beyond those 
provided under current law must be considered. For example, we have 
included language in our proposal to account for the non-Federal 
sponsor's financial ability to carry out its cost-sharing 
responsibilities, and to account for the additional financial 
assistance that may be available from other Federal agencies or from 
the State or States in which the project is located.
    <bullet>  Transfer of Project Lands. Our WRDA 2000 includes a 
proposal to authorize the Army Corps of Engineers to conduct a 
feasibility study for the transfer to Indian Tribes, from whom they 
were taken, lands that the Army Corps of Engineers acquired under the 
Pick-Sloan Missouri River Basin Program. The study to transfer such 
lands would be conducted in cooperation with the Secretary of the 
Interior and with the States of South Dakota, North Dakota, Nebraska 
and other affected interests, and affected Indian Tribes. The Corps of 
Engineers would conduct economic, environmental, cultural resource, 
hazardous waste, and other surveys and evaluations, and comply with 
applicable environmental and historic preservation laws.
Provisions To Assist in the Management of Existing Programs
    <bullet>  Recreation Programs. In my Fiscal Year 2001 budget 
request for the Army Civil Works program, I announced a new initiative 
to modernize facilities at key recreation areas currently operated and 
maintained by the Army Corps of Engineers. The Corps manages 537 
Federal lakes (4,340 recreation areas) and administers approximately 
11.7 million acres of land and water in 43 States. These projects host 
377 million visitors annually. In support of the recreation 
modernization initiative, I have developed two legislative provisions. 
First, I am asking for the authority to implement a program to reduce 
vandalism and destruction of property at water resources projects under 
the jurisdiction of the Army. Second, I am asking that the Army be 
given explicit statutory authority to participate in, and help fund, 
the state-of-the-art National Recreation Reservation Service (NRRS) 
developed by the U.S. Forest Service. The NRRS has been very successful 
in providing the public with a one-stop-shop reservation service for 
recreation opportunities. More than 600,000 Internet reservations were 
made during the 1999 recreation season.
    <bullet>  Project Deauthorizations. The Army Corps of Engineers has 
many authorized projects that have not been completed, and many that 
will never be constructed, all of which are contributing to the growing 
backlog of Civil Works projects. Currently, there is a construction 
backlog of about $46 billion. This includes all authorized projects, 
whether or not they have received funding. The size of the construction 
backlog does not include the many known projects still in the study or 
review stage that are awaiting authorization. Sufficient funding is 
simply not available to implement all of these projects in a timely 
way. To take a small, but important step, to remedy this situation, we 
propose to modify the current criteria for deauthorizing projects. The 
proposal identifies a reasonable time period after which a project 
should be under construction. Where this does not occur, and Congress 
has been given ample notice but not reauthorized the project, we 
believe that the project should be ``taken off the books'' 
automatically by deauthorization.
    <bullet>  Flood Damage Reduction Program. There are two provisions 
aimed at improving the flood damage reduction program. First, there is 
a measure to change the cost sharing for structural flood damage 
reduction projects to 50 percent Federal and 50 percent non-Federal. 
The cost sharing for non-structural project would remain at 65 percent 
Federal and 35 percent non-Federal. We believe that this increase in 
the local cost-share is needed to provide a truer ``market test'' for 
our structural flood damage reduction projects. Within the Corps' 
budget, this change would free up Federal funds for other projects and 
programs and would provide a stronger incentive to communities and to 
the Corps to consider non-structural flood damage reduction 
alternatives. Our recommended revisions to Section 103(m) of the Water 
Resources Development Act 1986 (Ability-to-Pay), discussed above, would 
complement this proposal. Together, these two proposals would ensure 
that needed flood damage reduction projects can go forward in all 
communities, regardless of their current level of prosperity.
    Second, we propose to strengthen the flood plain management 
requirements of Section 402 of the Water Resources Development Act of 
1986, to require non-Federal interests to take measures to preserve the 
level of flood protection that the projects are intended to provide 
when they are constructed.
Provisions for Project Authorizations
    Since the last Water Resources Development Act, the Army Corps of 
Engineers has submitted only one project to me for authorization. On 
May 15, 2000, I received the Chief of Engineers recommendation on the 
New York and New Jersey Harbor Navigation Project. My office will now 
review this proposal, and the Administration will now be able to 
consider the project for authorization. I expect to be able to submit 
my recommendation on this important project in time for Congress to 
consider it for authorization in WRDA 2000. In addition, the Army Corps 
of Engineers has certain other projects that are in the final stages of 
its planning process. As these projects are submitted to me, we will 
review them and forward them to the Congress with the Administration's 
recommendation.
    In regard to potential project authorizations in WRDA 2000, I 
strongly urge the Committee to authorize only those projects that have 
completed executive branch review. We believe this will improve our 
ability to construct projects that will benefit the Nation.
    Roughly three-quarters of the significant new project in last 
year's WRDA 1999, and many of its project modifications, were still in 
the planning stage or undergoing review when Congress authorized them. 
Many of these projects have not yet completed the review required for 
proposed Federal water resources projects under Executive Order 12322. 
Until they have done so, neither the Executive branch nor the Congress 
is likely to know which of these project will raise significant 
concerns regarding their scope, economic and technical feasibility, 
environmental acceptability, or the ability of local sponsors to 
provide the required cost-share.
Harbor Services Fund and User Fee
    Last year, the Administration transmitted to Congress its Harbor 
Services Fund and User Fee proposal to establish a new mechanism for 
financing development, operation and maintenance of the Nation's ports 
and harbors. The new Fund and user fee would replace the Harbor 
Maintenance Trust Fund, and the Harbor Maintenance Tax, a portion of 
which was found unconstitutional and has been the subject to questions 
raised by U.S. trading partners regarding claims that it violates the 
General Agreement on Tariffs and Trade. This fee would collect about 
the same total amount of revenue as would have been collected under the 
Harbor Maintenance Tax prior to the Supreme Count's decision. Enactment 
of the proposed new fund and user fee would provide a much needed, 
stable, long-term source of financing to enable commercial harbor and 
channel work to proceed on optimal schedules. I urge prompt 
congressional action on this important proposal.
Conclusion
    Mr. Chairman, this concludes my testimony. I stand ready to work 
with you and your Subcommittee in developing this important 
legislation. We would be pleased to answer any questions you or the 
Subcommittee may have..
                                 ______
                                 
 Responses by Dr. Joseph Westphal to Additional Questions from Senator 
                                 Smith
    Question 1. Why do you believe that the new deauthorization process 
will be an improvement upon the way projects currently are authorized?
    Response. The proposed changes should expedite the deauthorization 
of authorized projects and separable elements of projects that have not 
been and are not likely to be funded for construction. The proposal 
introduces new criteria and schedules that should reduce the backlog of 
inactive and deferred construction projects over a shorter period of 
time.

    Question 2. Your deauthorization provision, as written, would not 
apply until 3 years after the date of enactment. Why do you propose 
deferring the implementation of this new process?
    Response. The proposal establishes two separate timetables for 
deauthorization. Section 16(a) applies to ``projects never under 
construction'' and section 16(b) to ``projects where construction has 
been suspended.'' Under section 16(a) projects meeting the 
deauthorization criteria would be identified after 4 years and 
deauthorized after seven. Under section 16(b), the timing is 2 years 
and 5 years. Projects identified for deauthorization under both 
timetables are reported to Congress annually. Note the 3-year wedge 
between identification and deauthorization. To initiate this wedge upon 
enactment would require a 3-year deferral on Reauthorizations.

    Question 3. As Senator Baucus mentioned at the hearing, the Corps 
provided the Committee with a list of how many active, inactive, and 
deferred projects are in the $46 billion backlog. $8 billion of these 
projects are listed as inactive or deferred. Are there additional 
projects in the active category that would be eligible for 
Reauthorization in this cycle if the Administration's proposal were 
enacted?
    Response. Under the Administration's proposal, there could be 
projects in the active category that are Reauthorized. The proposal 
establishes new criteria and timetables for the Reauthorization of all 
authorized projects, notwithstanding their classification as active, 
inactive or deferred. If an ``active'' project were to meet the 
criteria, then it would be identified and Reauthorized. For example, an 
``active'' project in the design or land-acquisition phase could still 
be Reauthorized because, in most cases, construction funds for 
``physical work'' must be obligated to prevent Reauthorization.

    Question 4. Would projects in the Puget Sound area still be 
eligible for Section 206 authority if Section 19 were enacted?
    Response. Yes.

    Question 5. What would Section 19 accomplish that is beyond the 
scope of Section 206 authority?
    Response. Section 19 would allow for a regional prioritization of 
environmental restoration projects, using criteria that are unique to 
the Puget Sound area. The needs for environmental restoration in the 
Puget Sound Watershed far exceeds the parameters of the 206 program, 
which also must serve the needs of the rest of the nation. Section 19 
will permit a comprehensive approach in addressing ecosystem and 
habitat problems throughout the Puget Sound basin. It allows for a 
program to address critical ecosystem restoration needs for 
environmental resources that have national importance, such as Pacific 
Northwest salmon. Project prioritization will occur at a local level, 
to ensure ecosystem restoration needs of the region are best being met. 
The new authority will provide additional Federal funding to match 
state, local, tribal, and private sources, allowing more high priority 
projects to be completed.

    Question 6. How do you expect to fund these regional programmatic 
authorities? these authorities compete with the already existing 
national authorities for funding?
    Response. This authority will be funded using the annual budget 
request process and will be consistent with the project authorization. 
It is envisioned that the budget requests will be made based on the 
merits of the restoration projects being considered for construction.

    Question 7. Describe the historic involvement of the Army Corps in 
the Puget Sound region.
    Response. The Corps of Engineers has been constructing civil works 
projects in the Puget Sound region since the early 1900's. Authorized 
projects in the Puget Sound region include multiple flood control, 
shoreline and riverbank erosion control, debris clearing and snagging 
operation, irrigation, and navigation projects. In recent years, the 
focus of Corps activities has been upon environmental restoration. 
Since the late 1980's, Seattle District has undertaken several 
Continuing Authority Projects, constructing seven Section 1135 
projects, with another five to be completed within the next few years. 
There are five Section 206 projects underway, with a backlog of six 
additional projects awaiting funding to be initiated. In addition, 
Seattle District has five General Investigation Ecosystem Restoration 
projects underway, with two ready for WRDA 2000 authorization.

    Question 8. Over the last five fiscal years, how much of the 
Section 206 funding has been directed to the Puget Sound region?
    Response. Since the 206 program was authorized in 1996, the Seattle 
District has expended $900,000 in studies, which will lead to 
approximately $4,800,000 in restoration construction.

    Question 9. How would the S.729 watershed assessments differ from 
the traditional reconnaissance and feasibility studies?
    Response. Traditional reconnaissance and feasibility studies have 
typically focused on narrower problems and solutions. The 729 
assessments would better enable the Corps to address complex water 
resource problems that include large geographic areas, with multiple 
governmental jurisdictions, having multiple potential sponsors and 
involving significant interest by other Federal agencies.

    Question 10. In the Administration's fiscal year 2001 budget 
proposal, four such watershed assessments are requested. Have other 
assessments been conducted under Section 729 authority and if so, what 
were the results and what was done with this information?
    Response. The fiscal year 2001 Budget identifies four comprehensive 
river basin planning studies. Two of these studies, the Rio Grande 
River Basin and the White River Basin, Arkansas would utilize the 
authority of Section 729. The total Federal share of each of these 
studies is $2 million. Previously, Section 729 authority was used to 
accomplish the National Study of Water Management During Drought, 
completed in 1995. This study concluded that more skillful and 
integrated water management is needed and developed a new concept for 
Drought Preparedness Studies.

    Question 11. What was the impetus behind requesting a costshare 
change for Section 729 assessments?
    Response. The request for a change in the costshare recognizes the 
importance of leveraging Corps dollars and achieves a level of 
comparability with other Corps programs that address similar types of 
problems.

    Question 12. In what ways is the New York-New Jersey Harbor 
Deepening project of national significance?
    Response. The New York & New Jersey Harbor Deepening project serves 
the Port of New York and New Jersey, which is the third largest 
container port in the nation and the largest on the East Coast. In 
1997, the Port handled over 2.3 million TEU's (20-foot equivalents) of 
containerized cargo. This increased to approximately 2.4 million in 
1999. The Corps's economic project in the feasibility report expects a 
further increase to 19 million in the year 2060. Approximately 70 
percent of this cargo was either destined for or originated in the 31 
county metropolitan tri-state area that contains 40 percent of the 
nation's population. The remaining cargo is either destined for or 
originated in a 17 state area that extends from New York to Missouri 
and from Maryland to Maine.
    In addition, the New York & New Jersey Harbor Deepening Project is 
of national significance because of its contribution of more than $238 
million in annual national economic development benefits. These 
benefits are in the form of reduced costs for the waterborne 
transportation of containerized cargo. Reducing waterborne 
transportation cost results in the consumer paying less for the 
products that they demand, and producers paying less for imported 
inputs, which increases the demand for U.S. labor. Both of these 
effects contribute to the overall economic welfare of the Nation.

    Question 13. If the New York-New Jersey Harbor Deepening Project 
were authorized, what would be the breakdown, annually, of the Federal 
appropriations over the life of the project (e.g. how much in fiscal 
years 2002, 2003, 2004, etc.)?
    Response. Based on the construction schedule presented in the 
feasibility report, construction of the project would begin in fiscal 
year 2003 and continue until fiscal year 2016. The schedule of Federal 
appropriations for the construction of the project is below. The funds 
identified in fiscal year 2017 through 2021 are for the completion of 
environmental monitoring of the project effects. The difference between 
the recommended authorized amount and the amount shown is the cost of 
completing the Preconstruction Engineering and Design Phase (Gl 
funded). It is further noted that the local non-Federal sponsor, the 
Port Authority of New York and New Jersey, has expressed a desire to 
have the channels leading to its Newark Bay Facilities be completed by 
2009 in order to meet its commitment to Maersk-SeaLand. The District 
continues to examine the schedule and will determine during the 
Preconstruction Engineering and Design Phase whether this requirement 
is viable.


------------------------------------------------------------------------
                        Year                             Federal Funds
------------------------------------------------------------------------
2003................................................  $66,000,000
2004................................................  $70,000,000
2005................................................  $73,000,000
2006................................................  $69,000,000
2007................................................  $70,000,000
2008................................................  $68,000,000
2009................................................  $59,000,000
2010................................................  $61,000,000
2011................................................  $57,000,000
2012................................................  $58,000,000
2013................................................  $31,000,000
2014................................................  $11,000,000
2015................................................  $18,000,000
2016................................................  $12,000,000
2017................................................  $177,000
2018................................................  $101,000
2019................................................  $101,000
2020................................................  $101,000
2021................................................  $101,000
Total...............................................  $723,581,000
------------------------------------------------------------------------


    Question 14. Are there currently harbor-deepening authorizations 
that have not been executed for channels that comprise the New York-New 
Jersey Harbor Deepening project. If so, and if this project were 
authorized, would these authorizations be obsolete, so to speak, could 
they be Reauthorized? What would be the impact on the backlog?
    Response. Congress authorized the Arthur Kill Channel-Howland Hook 
Marine Terminal (to 41 feet below mean low water) and the New York and 
New Jersey Channels-Port Jersey Channel (to 41 feet below mean low 
water). Both of these projects are for high priority deep draft 
navigation purposes with strong benefit-to-cost ratios. As demonstrated 
in the their Limited Reevaluation and Chiefs of Engineers Reports, 
there continues to be a need for theses two channels to be constructed 
now, which has resulted in them being included in the President's 
Budget for fiscal year 2001. In recognition of the future overlapping 
of these three projects, the District Engineer recommended that 
construction of these two projects be initiated and that, upon 
authorization of the New York & New Jersey Harbor project, the 
authorities and appropriations be combined and construction all the 
recommended channel projects to 50 feet directly can proceed. The Chief 
of Engineers concurred with these findings. Initiating these two 
projects now will ensure that the overall deepening to 50-feet is 
completed as soon as possible. As such, the Corps does not recommend 
Reauthorization for these channels at this time.
    Response by Dr. Joseph Westphal to Additional Question from Senator 
Voinovich

    Question. The Administration is proposing a programmatic authority 
for critical restoration projects in the Puget Sound region with a 
Federal share of up to $2.5 million. There are Corps national 
programmatic authorities for environmental restoration under Section 
1135 of WRDA 86 and Section 206 of WRDA 96. The Puget Sound restoration 
projects would be potentially eligible for implementation under these 
national environmental restoration authorities. What is the 
justification for creating a special authority for the Puget Sound 
Region? Won't every region of the country want their own special pot of 
money? Wouldn't it be better to increase the appropriation limits on 
the national authorities which are available to all regions of the 
country?
    Response. The National Marine Fisheries Service recently added 
several State of Washington populations of salmon and steelhead in 
Washington to the endangered species list, marking the first time 
Federal protection has been extended to salmon found in streams in 
heavily populated areas of the Pacific Northwest, including the Seattle 
metropolitan area. The salmon is a species of national significance, 
and its demise would have untold social, economic, and environmental 
impacts. Whereas the existing authorities have been quite effective for 
implementing restoration projects on a case by case basis, the needs 
for restoration work in the Puget Sound Basin far exceeds the 
parameters of the Section 206 program, both in terms of 
comprehensiveness and in funding availability. This new authority will 
address the specific need to restore resources of national importance 
by ensuring an ecosystem approach to the evaluation of habitat problems 
in the entire basin, bringing wide-scale comprehensive restoration 
throughout the Puget Sound. The new authority will provide additional 
Federal funding to match state, local, tribal, and private sources, 
allowing more high priority projects to be completed.
                                 ______
                                 
 Responses by Dr. Joseph Westphal to Additional Questions from Senator 
                                 Baucus
    Question 1. Please provide specific information on the amount 
(e.g., number of acres) of mitigation the Corps has been legally 
required (e.g., under Record of Decisions, Final Environmental Impact 
Statements, Memoranda of Understandings, or Project Cooperation 
Agreements) to perform over the last 10 years.
    Response. To respond to this question, a survey was made of all our 
field offices. The results of this survey revealed that 440,217 acres 
of mitigation have been required.

    Question 2. What amount (e.g., number of acres) of this mitigation 
has been implemented over this Period. What amount has been completed?
    Response. The survey indicates that of the 440,217 acres required, 
263,478 acres have been acquired to the present time. The problem with 
compiling this information was that there are numerous ongoing projects 
where required mitigation acres are still being acquired, projects 
where mitigation was accomplished on a combination of Federal and non-
Federal previously owned lands, lands purchased for other purposes were 
used to satisfy mitigation requirements, etc. In short, there is no 
direct correlation between the summary of acres required and acres 
acquired that can be used for determining amount of mitigation that has 
been completed. In many cases one would have to look at the individual 
project mitigation plan and execution of that plan to determine amount 
completed. Similarly the cost to acquire the mitigation acres 
corresponds only to the acres acquired and does not reflect the total 
cost of mitigation accomplished.

    Question 3. What amount of mitigation completed over the past 10 
years has been demonstrated through monitoring to provide the benefits 
(including habitat value and structure) predicted in Record of 
Decisions, Final Environmental Impact Statements, Memoranda of 
Understandings, or Project Cooperation Agreements?
    Response. The amount of mitigation completed over the past 10 years 
that has been demonstrated through monitoring to provide predicted 
benefits also varied from project to project based upon whether or not 
monitoring was included in the mitigation plan. The decision to include 
or not include monitoring is dependent upon the magnitude of the 
project and the degree of risk and uncertainty with the probable 
success of the mitigation. Therefore, no attempt has been made to 
summarize the relative degree of success each project mitigation plan 
achieved.
                                 ______
                                 
  Affadavits of Staff of the U.S. Army Corps of Engineers Provided to 
    Senator Voinovich, Chairman, Subcommittee on Transportation and 
                             Infrastruture
                            document request
    1. Letters of April 17, 1998, from MG Anderson to BG Van Winkle.
    2. All internal Corps communications in whatever form dealing with 
the substantive and procedural status of the UMRS between January 1, 
1998, and April 1, 2000.
    3. Principles and Guidelines for federal water resources agencies.
    4. National Academy of Sciences study of Corps' planning process.
    5. Instructions given to Dudley Hanson for the persons conducting 
the in process reviews, if extant in writing.
    6. Statement made on September 23, 1998, to review group, if extant 
in writing.
    7. All communications received from interest groups between January 
1, 1998, and December 31, 1998, concerning the merits of economic 
models and assumptions in the UMRS.
    8. All responses sent by the Corps to such groups during the same 
period.
    9. All written comments received by the Corps from the Department 
of Agriculture during the same period.
    10. All responses sent to the Department of Agriculture by the 
Corps during the same period.
    11. The results of the in progress reviews with respect to the 
relative merits of the economic models employed for the UMRS.
    12. Guidance from MG Fuhrman relative to the in progress reviews, 
in whatever form extant.
    13. Any notes taken by Dudley Hanson with respect to such guidance, 
either concurrently or later.
    14. Preliminary economic analyses for reliability studies.
    15. Draft reports of June 1998 and April 1999.
    16. Engineering work group comments on April 1999 report.
    17. Interim Revised Lock Extension Design Concept Report of March 
1998.
    18. Additional preliminary economic analysis of that Report, and 
reevaluation done in response thereto.
    19. Document containing August 1997 comment regarding 
contingencies.
    20. Any internal communications regarding suitability of particular 
economic and engineering models and assumptions with respect to 
results.
    21. Any preliminary and final papers prepared in response to 
requests from Congress or in connection with preparing a report to 
Congress.
    22. E-mail message of February 4, 2000, or thereabouts from Harry 
Kitch to Dr. Jim Johnson regarding meeting with MG Van Winkle.
    23. Affidavit of Don Sweeney.
    24. Jeffrey Marmorstein's notes of conversation with Mike Grunwald, 
February 3, 2000.
    25. All economic elasticity studies for grain in the UMRS.
    26. Actual figures for grain shipments since 1989 on the waterways 
in question, with elasticity figures for the same.
    27. Projections for grain shipments on these waterways through 
2015, with elasticity figures based on the same.
    28. Memorandum summarizing December 1999 meeting in Vicksburg, 
Mississippi, quoted in Lenard Ross affidavit.
    29. Memorandum of February 4, 2000, quoted in David Sanford 
affidavit.
    30. Transcripts, minutes, or notes from video teleconference of 
January 28, 2000, and meeting of February 4, 2000.
    31. Communications from interest groups supporting statement in 
paragraph 9 of Hans Van Winkle affidavit.
                           list of affidavits
    TAB A. MG Phillip R. Anderson
    TAB B. Mr. Thomas F. Caver
    TAB C. MG Russell L. Fuhrman
    TAB D. Mr. Dudley Hanson
    TAB E. Mr. Bobby R. Hughey
    TAB F. Mr. Harry E. Kitch
    TAB G. Mr. Jeffrey Marmorstein
    TAB H. Colonel James V. Mudd
    TAB I. Mr. Lenard H. Ross
    TAB J. Mr. David B. Sanford, Jr.
    TAB K. Mr. Paul D. Soyke
    TAB L. MG Hans Van Winkle
                                  Department of the Army,  
                              U.S. Army Corps of Engineers,
                            Washington, DC 20314-1000, 03 MAR 2000.

Honorable George V. Voinovich, Chairman,
United States Senate,
Committee on Environment and Public Works,
Washington, DC 20510-4175

Dear Senator Voinovich: This letter and the attached statements and 
affidavits respond to the Committee on Environment and Public Works' 
February 28, 2000 inquiry regarding the Upper Mississippi and Ilinois 
Rivers Navigation Project. Many of the questions were directed to 
individuals who will later, in all likelihood, provide information to 
other federal investigators, examining the same allegations. Therefore, 
their responses to the Committee's questions are being provided to you 
and your Committee by means of sworn affidavits.
    We welcome this opportunity to provide the Committee with 
information it feels is essential to oversight of Corps Programs. This 
is the Corps' first opportunity to respond to the allegations. We trust 
the information provided presents a more balanced view of the issues 
surrounding the Upper Mississippi and Illinois Rivers Navigation 
Project Study than has emerged to date in press reports. As I testified 
before the Committee on February 24, 2000, I welcome, and will fully 
support, all independent outside investigations of the allegations and 
Congressional oversight of our process. I believe in the 
professionalism and dedication of the United States Army Corps of 
Engineers and its leadership. I am confident, as I stated before, that 
your trust in the integrity of the Corps will be intact after a review 
of our responses.
    We stand ready to answer any further questions you or your 
Committee members have about the study.
            Sincerely,

        Joe N. Ballard, Lieutenant General, USA Commanding.
                                 ______
                                 
                         QUESTIONS AND ANSWERS

    Question 1. The Washington Post in a story dated February 24, 2000 
states that a February 4, 2000 memo by Corps planner Harry Kitch stated 
that General Van Winkle said ``we are the navigation proponent and we 
can't have a limp-wristed recommendation saying to build something out 
in 2025.'' What did General Van Winkle and Mr. Kitch mean by this 
statement?
    Answer: See the attached affidavits of MG Hans Van Winkle (TAB L) 
and Mr. Harry E. Kitch (TAB F).

    Question 2. The Washington Post, in a story dated February 24, 2000 
states that a February 4, 2000 memo by Corps planner Harry Kitch stated 
that at one point during the meeting ``concern was expressed that if we 
don't provide for the industry, navigation program might get moved to'' 
the Department of Transportation. What did the participants in the 
meeting interpret this to mean?
    Answer: See the attached affidavits of MG Hans Van Winkle (TAB L), 
Mr. Thomas F. Caver (TAB B), Mr. Harry E. Kitch (TAB F), and Mr. David 
B. Sanford, Jr. (TAB J).

    Question 3. The Washington Post, in a story dated February 24, 2000 
states that a slide show presentation cites certain ``impediments to 
growth'' including the laws governing the agency's conduct and the 
departure of some powerful friends on Capitol Hill-and calls for a 
``specifically targeted communications plan'' to bring Congress and the 
Clinton administration on board. What did the people who put together 
this slide show mean by this statement?
    Answer: See the attached affidavit of Mr. Thomas F. Caver (TAB B), 
and the slide show presentations (Exhibits 1 and 2).

    Question 4. The Washington Post, in a story dated February 15, 2000 
states that assistant Army Secretary in charge of the Corps' $4 billion 
civil works program, met with (Secretary) Caldera yesterday to discuss 
the situation. Six environmental groups wrote to him in 1998 to ask him 
to review the Upper Mississippi study; he never responded to their 
letter. Yesterday, though he said he took Sweeney's allegations ``very 
seriously''. Why did Assistant Secretary Westphal fail to respond to 
the 1998 request from the six environmental groups to review the Upper 
Mississippi study?
    Answer: Assistant Secretary Joseph Westphal will provide his 
response under separate cover.

    Question 5. The Washington Post in a story dated February 13, 2000 
states that top officials ordered the study team ``to support a 
defensible set of . . . projects,'' and eventually rearranged the 
numbers so that they supported a case for construction. One memo 
candidly declared that if the economics did not ``capture the need for 
navigation improvements, then we have to find some other way to do 
it.'' Who are the top officials that ordered the study team to support 
a defensible set of projects? What did these top officials mean by 
``other ways'' to capture the need for navigation improvements.
    Answer: The statements were contained in an email from Dudley M. 
Hanson dated September 25, 1998. (Exhibit 3). In responding to this 
email a short time later, Mr. Harry E. Kitch disagreed with some of the 
statements Mr. Hanson had made. (Exhibit 3). Included among those 
disagreements were Mr. Hanson's impressions regarding ``supporting a 
defensible set of projects'', and ``other ways to capture the need for 
navigation improvements.'' In his affidavit, Mr. Hanson has explained 
what he meant by those two subjects in a manner that is consistent with 
Mr. Kitch's understanding as well as what MG Russell Fuhrman has stated 
in his affidavit (TAB C).

    Question 6. The Washington Post in a story dated February 13, 2000 
states that Corps research analyst Jeffrey Marmorstein said ``It's very 
sad that this study is becoming another embarrassment''. The story also 
states the Mr. Marmorstein said that ``Unfortunately, the management of 
the Corps has lost all respect for unbiased analysis.'' What did Mr. 
Marmorstein mean when he said that study was becoming an embarrassment 
and the management of the Corps has lost all respect for unbiased 
analysis?
    Answer: See the affidavit of Jeffrey Marmorstein (TAB G).

    Question 7. The Washington Post in a story dated February 13, 2000 
states that a memo summarizing a December meeting in Vicksburg states 
that ``To grow the civil works program [headquarters] aud the Division 
have agreed to get creative,'' and ``They will be looking for ways to 
get [studies] to `yes' as fast as possible. We have been encouraged to 
have our study managers not take `no' for an answer. The push to grow 
the program is coming from the top down. ``What did the writer of the 
memo mean by ``getting to yes as soon as possible'' and that study 
managers not take `no' for an answer?
    Answer: See the affidavit of Lenard H. Ross (TAB I).

    Question 8. The Washington Post in a story dated February 13, 2000 
states that in June (1998), just three months before the study's due 
date, General Anderson transferred all economics questions to a new 
panel, demoting Sweeney to a mere ``advisor'' to the panel. Why did 
General Anderson transfer all duties to a new panel and why did he 
demote Mr. Sweeney to an advisor?
    Answer: See the affidavit of MG Phillip R. Anderson (TAB A).

    Question 9. The Washington Post in a story dated February 13, 2000 
states that on September 3 (1998) an official laid out the panel's new 
mission in an e-mail: ``The team should determine an alternative . . . 
that appears to be the most likely to justify large-scale alternatives 
in the near-term.'' Who was the official and what did he or she mean by 
an alternative that was likely to justify near term large scale 
alternatives in the near future?
    Answer: See the affidavit of Paul D. Soyke (TAB K).

    Question 10. The Washington Post in a story dated February 13, 2000 
states that project manager Dudley Hanson wrote a memo relaying (Major 
General) Fuhrman's instructions to the panel ``If the demand curves, 
traffic growth projects (sic) and associated variables . . . do not 
capture the need for navigation improvements, then we have to figure 
out some other way to do it . . . We need to develop a rationale for 
making this relatively more subjective approach to our analytical 
process.'' The story also indicates that the memo's ``Guidance'' 
section was even more explicit about Fuhrman's call for preordained 
results: He directs that we develop evidence or data to support a 
defensible set of capacity enhancement projects. . . The rationale 
should ere on the high side.'' Is the memo an accurate account of Major 
General Fuhrman's instructions to the panel? If so, what did Major 
General Fuhrman mean by figuring, out a way to capture the needs for 
navigation improvements and a ``more subjective approach to our 
analytical process'' and what did he mean by ``evidence or data to 
support a defensible set of capacity enhancement projects'' and that 
the ``rational should err on the high side''.
    Answer: See the affidavit of MG Russell L. Fuhrman (TAB C).

    Question 11. The Washington Post in a story dated February 13, 2000 
states that project manager Dudley Hanson wrote in another e-mail 
``This overt advocacy role, to me, is a new departure. We'll have to 
work in a story line. . . We will need corporate solidarity when we go 
back to our publics with this more aggressive advocacy position.'' What 
did Mr. Hanson mean by an overt advocacy role?
    Answer: See affidavit of Mr. Dudley Hanson (TAB D).

    Question 12. The Washington Post in a story dated February 13, 2000 
in discussing an economic equation states that Sweeney computed the 
main n value a 2. Burton later concurred. Under pressure from above, 
Richard Manguno, the new economics team leader, reluctantly reduced n 
to 1.5. But that was still too high to justify lock expansion, and he 
refused to go lower without a command. Later in the story it is stated 
that three weeks later (Colonel) Mudd called (Mr.) Manguno. N he 
declared was now 1.2. Did officials of the Corps pressure Mr. Manguno 
to lower the N value? If so, who were these officials and on what basis 
was the value lowered? Did Colonel Mudd lower the N value to 1.2? If 
so, on what basis was the value lowered?
    Answer: See the affidavit of Colonel James V. Mudd (TAB H).

    Question 13. The Washington Post in a story dated February 13, 2000 
states that a Corps ``study update'' announced a sudden new benefit: 
Lock expansion would preempt the need for renovations in 2015--even 
though an earlier Corps analysis had found there would be no need for 
renovations until at least 2033. The same update also included a sudden 
new cutback in costs: The estimate for overruns was chopped from 35 
percent to 25 percent. Earlier, Corps officials had inflated the 
benefits of lock expansion by assuming the tows would no longer use 
much self-help, Sweeney argued. Did the study update change the date of 
renovations from 2033 to 2015 and, if so, on what basis? Did the study 
update cut the contingency factor from 35 percent to 25 percent, and if 
so, on what basis? Was the assumption on the use of self-help reduced 
and, if so, on what basis?
    Answer: See the affidavit of Mr. Bobby R. Hughey (TAB E).

    Question 14. The Washington Post in a story dated February 13, 2000 
states that on July 4, (1999) (Colonel) Mudd disbanded the (economics) 
panel. Why did Colonel Mudd disband the panel when the study was not 
yet complete?
    Answer: See the affidavits of MG Phillip R. Anderson (TAB A) and 
Colonel James V. Mudd (TAB H).
                                 ______
                                 
                                 TAB A
  before the united states senate committee on environment and public 
         works, affidavit of major general phillip r. anderson
    Pursuant to 28 U.S.C. Sec. 1746, the undersigned hereby executes 
the following sworn statement under penalty of perjury.
    1. I, Phillip R. Anderson do hereby declare that I am a Major 
General in the United States Army currently serving, since July, 1997 
as the Division Commander and Division Engineer of the U.S. Army Corps 
of Engineers, Mississippi Valley Division (CEMVD). I also am the 
President of the Mississippi River Commission.
    2. This affidavit is being prepared in response to written 
questions in a letter from Senator George V. Voinovich dated February 
28, 2000, on behalf of the Senate Committee on Environment and Public 
Works. Senator Voinovich's letter and the attached questions relate to 
the U. S. Army Corps of Engineers' (USAGE) Upper Mississippi River and 
the Illinois Waterway System Study (UMRS). With regard to the assertion 
contained in Question 8 of the Senator Voinovich letter to the effect 
that I allegedly ``demoted'' Dr. Sweeney, I am able to state without 
qualification that Dr. Sweeney is and remains a GS-13 senior regional 
economist with the St. Louis District. He has neither been demoted or 
reduced in grade by an adverse personnel action.
    3. The UMRS is a comprehensive and complex effort. Over seventy 
(70) employees of the U.S. Army Corps of Engineers (USAGE) have been 
involved in a variety of capacities in the study. These personnel come 
from a number of USACE organizational elements. Throughout the study, 
work and leadership responsibilities have changed. Due to the magnitude 
of the study and the complexities involved, there should be no 
expectation by any staff member that they will have the same exact 
responsibilities during the entire duration of the study.
    4. Changes in work responsibilities have been made for a variety of 
reasons. On April 16, 1998, I cancelled a meeting scheduled for April 
23, 1998 in St. Louis with the Governors' Liaison Committee (GLC), 
since schedule deadlines had not been met; economic and environmental 
data were missing; there was 3 need to examine differences between 
economic models being used on the Ohio River and those on the 
Mississippi River; cost quantification of measures that could be used 
to avoid and minimize environmental impacts had to be done; and there 
was a need to perform hazard analyses of industry self help measures. 
(See Attachment 1). In a letter dated April 16, 1998 to the GLC, I 
described in more detail what USACE had to do before we could have a 
GLC meeting. (Attachment 2). I specifically advised the GLC that a 
number of study components were behind schedule. In spite of the 
schedule slippages however, I advised the GLC that we were reevaluating 
the schedule and making sure that there were no short-cuts of any of 
the planned coordination. A number of products had to be completed 
before we had a meeting with the GLC. These included the following: 
``Technical review of economic products including modal-shift analysis, 
the equilibrium model and the optimization model;'' and ``Outputs of 
economic models (traffic projections) for various alternatives needed 
for input to environmental models.'' (Attachment 2).
    5. As the above listing shows, schedule slippages in this very 
important study were becoming serious. Generally, the responsibility 
for maintaining study schedules rests with the District Commander. The 
UMRS was an unusual comprehensive effort in that four of the CEMVD 
Districts were directly involved in the study analysis or in the 
independent technical reviews. Since the UMRS involved resources in 
more than one district, I had a greater role and responsibility for 
ensuring that the UMRS was a quality product.
    6. In order to get the UMRS back on track and to assure better 
adherence to the schedule I had to make some changes to the management 
structure of the UMRS. I identified actions that I determined, based on 
staff recommendations, were necessary to correct study management 
schedule and product deficiencies, in letters dated June 17, 1998 to 
Major General Hans Van Winkle, who during the June 1998 timeframe 
General Van Winkle was of the rank of Brigadier General and was the 
Division Commander and Division Engineer of the Great Lakes and Ohio 
River Division (CELRD), and the three District engineers in the New 
Orleans District, the St. Louis District and the Rock Island District. 
(Attachments 3 and 4). I had a concern that higher level management was 
needed to restore the schedule and obtain quality products. I 
designated Dudley Hanson, who was the top ranking civilian of the Rock 
Island District at the time, as the full-time project manager of the 
UMRS to achieve those objectives. In order to have better leadership of 
the economic work products, I created an economics panel that consisted 
of the functional economic branch chiefs of the St. Louis, Rock Island 
and New Orleans Districts. Consistent with selecting a higher graded 
project manager, I also selected a higher graded economist, the GS-14 
Chief of Economics Branch in New Orleans, Rich Manguno, to chair the 
panel. Ms. Diane Karnish, GS-13 Chief of Economics Branch in St. Louis 
(Dr. Sweeney's supervisor) was also a panel member. Additionally, Mr. 
Paul Soyke, GS-13 Chief of Economics Branch in Rock Island was a panel 
member. Mr. Wes Walker of USAGE's Lakes and River Division's (CELRD) 
Huntington District was also a panel member. CELRD has been considered 
a center of expertise for economic evaluations of inland navigation 
projects. I coordinated with General Van Winkle to obtain help from Mr. 
Wes Walker. As such, the designation of a full-time senior project 
manager and an economic panel compromised of District Chiefs of 
Economics brought more leadership resources and economics expertise to 
the study and thus a broader perspective of the study was anticipated. 
My goal in effecting these measures was to achieve the production of a 
quality study within a schedule designed to achieve the deadline of 
issuing a final feasibility report and environmental impact statement 
to USACE headquarters by December 2000.
    7. I maintained the importance of Dr. Sweeney's contributions to 
the study by retaining him as an advisor to the economics panel. At no 
time did I direct a demotion or reduction of grade of Dr. Sweeney, and 
he has not been demoted. He is and remains a GS-13 senior regional 
economist with the St. Louis District.
    8. With regard to question 14 of Senator Voinovich's letter, 
Colonel Mudd did not disband the June 1998 ad hoc economics panel. I 
determined that since the ad hoc economics panel had completed its 
function in July of 1999, it was time to release the members so that 
they could return full time to their normal duties as District-level 
economic staff chiefs. I still retained a high graded economist, the 
GS-14 New Orleans District Chief of Economics Branch, Rich Manguno, to 
lead the remaining efforts of the economic work group.
    9. All of my actions described above were for the purposes of 
meeting schedule deadlines and ensuring that sound analyses, data and 
modeling were being produced so that we would have the best draft 
feasibility UMRS report and environmental impact statement for release 
for public review and comment in June 2000.

    Phillip R. Anderson, Major General, U.S. Army Division 
                                                  Engineer.

            Subscribed and sworn to before me in the District of 
            Columbia on this 2nd day of March, 2000.

                                          Barbara J. Davis,
                                Notary Public District of Columbia,
                               My Commission Expires June 14, 2001.
                                 ______
                                 
                              attachment 1
                                                Arnold, William MVD
From: Phillip Anderson
Sent: Thursday, April 16, 1998 8:41 AM
To: X400, Russell--Fuhrman, CECW-ZA
Cc: HERNDOND; RHODESG; CALDWELL; X400.Hans--Vanwinkle--CELRD-DE
Subject: Upper Ms Nav Study
    Russ, Met with subject study team yesterday as we discussed. 
Directed that scheduled 23 Apr meeting with the Governor's Liaison 
Committee in St. Louis be postponed and rescheduled at a time to be 
determined. This is a public meeting so we're working hard to get the 
word out to other likely participants.
    Canceled this GLC meeting for the following reasons:
    --HQS USACE has not yet been briefed on the prelim results. Thatch 
now scheduled for Thursday afternoon next week at FLW. Will fly in the 
SMEs using the MVD G1 and fly them out afterwards. Brian Sullivan, I'm 
told is working on a meeting location for us.
    --Major differences between the special equilibrium-model we're 
using and the one being used by LRD for their lock and dam 
improvements. Our model generates significantly less benefits. This 
could have significant Corps wide implications and we need to speak 
with one voice.
    --Significant economic and environmental data missing which are 
necessary for decision making.
    --Have not quantified the costs associated with avoiding and 
minimizing adverse environmental impacts.
    --Need to do a hazard analysis of some of the suggested industry 
self-help small scale improvements. This analysis might warrant 
construction of guide wall extensions and other safety measures.
    During my brief yesterday, there were probably 25 Corps employees 
present and no one advocated that we continue with the GLC as scheduled 
so confident that we're doing the right thing. Will be signing a letter 
today which factually explains this situation and we will get you a 
copy. See you next week. Essayons, Phil.
                                 ______
                                 
                              attachment 2
                                           Executive Office
                                                     April 16, 1998
DEAR GOVERNORS' LIAISON COMMITTEE MEMBER:
    For reasons outlined below, I think that it is best to postpone the 
meeting of the Governors' Liaison Committee (GLC) scheduled for April 
23, 1998, in St. Louis. The next meeting will be the regularly 
scheduled meeting on May 12, 1998, in St. Paul. I apologize for the 
short notice, but I believe, after a thorough briefing by my District 
Engineers and their staffs, that this is the best decision considering 
study progress to date. We are giving this cancellation the widest 
possible dissemination including sending a notice to our newsletter 
mailing list, posting it on our web site, and adding it to our toll 
free number. I also ask that you help us in informing others in your 
state who may have planned to come to the meeting.
    A significant number of study components are behind schedule. This 
will likely affect our schedule for public meetings this summer, the 
schedule for future GLC meetings, as well as possibly the overall study 
completion date. However, I want to assure you that you and your staffs 
will be given ample opportunity to fully review study products and 
provide input to the plan formulation process as we have previously 
planned. In fact, one reason we are reevaluating the schedule is to not 
short-cut any of the planned coordination.
    For clarification, most of the following key study elements are 
nearing completion but are behind schedule and are critical to the 
development of the preliminary National Economic Development(NED) plan 
and future plan formulation activities:
    --Technical review of engineering studies that quantify cost and 
performance data for large and small-scale measures.
    --Technical review of economic products including modal-shift 
analysis, the equilibrium model, and the optimization model.
    --Outputs of economic models (traffic projections) for various 
alternatives needed for input to environmental models.
    --Completion and technical review of several of the environmental 
models needed for quantification of system environmental effects, data 
from which will be used to develop mitigation or avoid and minimize 
measures.
    As we have stated on numerous occasions, the original schedule was 
optimistic and envisioned a concurrent quality control process that 
allowed for a smooth transition between model development and model 
application However, development of these system tools, many which are 
state-of-the-art, and the applicable quality control have been more 
difficult and time consuming than originally anticipated.
    It is my responsibility to assure that the Corps produces 
creditable, professional analyses to support our planning effort. Some 
schedule change is necessary to complete our technical review which 
will assure adequacy of all data prior to alternative evaluation. 
Therefore, after carefully reviewing all these considerations, I think 
that it is better to allow additional time in the schedule to more 
fully develop data, assure its accuracy, and allow adequate time for 
public and agency input than to adhere to the original plan of action.
    As discussed, we will hold the GLC meeting scheduled on May 12, 
1998, at the St. Paul Radisson Hotel as planned. The meeting is 
scheduled to begin at 1:00 p.m. and will be used to provide you a 
status report and discuss the overall study schedule. Although we will 
not be prepared at that meeting to present the NED plan, we have made 
progress in several areas of the study on which we will provide you a 
report. This will be very useful information as we move into the plan 
formulation process later this year.
    My point of contact for this action is Mr. George H. Rhodes, Jr., 
(601) 634-5762.
            Sincerely,

     Phillip R. Anderson Major General, U.S. Army Division 
                                                  Engineer.
                                 ______
                                 
                              attachment 3
                                                 CEMVD-ET-P
                                                       17 June 1998
MEMORANDUM FOR

    Commander, Rock Island District
    Commander, St. Louis District
    Commander, New Orlean District

SUBJECT: Upper Mississippi Navigation Study

    1. I have become concerned with the rate of progress in key areas 
of the subject study during the past several months. This study is a 
high priority for the Mississippi Valley Division, the Corps of 
Engineers, and I believe, for the nation. One of the very key elements 
of the study I have continued to focus on is the economic analyisis--
both the conceptual framework and the analytical tools that execute the 
concept into Quantified outputs. Because of my concerns regarding the 
progress of the study and the need for revolutionary changes in our 
management of this study and after consultations with the Director of 
Civil Works, I have made the following decisions:
    a. Mr. Dudley Hanson, Rock Island District, will be appointed the 
project manager For the subject study as his sole responsibility to the 
exclusion of his normal activities. This level of management attention 
is warranted until at least the development of the draft plan and 
possibly through the subsequent public review.
    b. I am creating a panel comprised of the Chiefs of Economics in 
the Rock Island, St. Louis, and New Orleane Districts and an 
appropriate representative from the Navigation Studies Center in LRD. 
The purpose of this panel is to provide economic analysis products 
required for further progress on the subject study. Dr. Don Sweeney, 
St. Louis District, will serve in an advisory capacity to the group. 
The panel will report directly to Mr. Hanson who may appoint other 
personnel to provide administrative and support assistance as prudent 
and necessary.
    c. The panel will be responsible for identification of the NED plan 
and For producing economic analysis tools sufficient to analyze 
additional alternatives, all to be completed within 90 days of 
beginning of work. A detailed plan for the 90-day effort, which will 
include an in-progress review on or about day 70 to be attended by the 
EQ, will be provided to this office not later than clove of business 22 
June 1999.
    2. Each respective District Commander is to ensure that the panel 
leader and members are assigned to this purpose as their highest 
priority activity and are available throughout the duration of the 90-
day effort. I will separately transmit a request to the LRD Division 
Commander seeking the assignment of an appropriate member to the panel 
from LAX-NC. Funds will be reprogrammed from existing project funds by 
the Rock Island District and provided to the panel members for their 
costs associated with this purpose.
    3. My point of contact for this action is Mr. Dusty Rhodes, (601) 
634-5762.

         Phillip R. Anderson Major General, USA Commanding.

            CF: MG Russell Furman, HQUSACE (CECW-ZA)
                                 ______
                                 
                              attachment 4
                                                 CEMVD-ET-P
                                                       17 June 1998

MEMORANDUM FOR

    BG Hans A. van Winkle, Commander, U.S. Army Engineer Division, 
Great Lakes and Ohio River, P.O. Box 1159, Cincinnati, OH 45201-1159

SUBJECT: Upper Mississippi Navigation Study

    1. I have become concerned with the rate of progress in key areas 
of the subject study during the past several months. This study is a 
high priority for the Mississippi Valley Division, the Corps of 
Engineers, and I believe, for the nation. One of the very key elements 
of the study I have continued to focus on is the economic analysis--
both the conceptual framework and the analytical tool'' that execute 
the concept into quantified outputs. Because of my concerns regarding 
the progress of the tudy and the need for revolutionary changes in our 
management of this study and after consultations with the Director of 
Civil Works, I have made the following decisions:

    a. Mr Dudley Hanson, Rock Island District, will be appointed the 
project manager for the subject study as his sole responsibility to the 
exclusion of his normal activities. This level of management attention 
is warranted until at least the development of the draft plan and 
possibly through the subsequent public review.
    b. I am creating a panel comprised of the Chiefs of Economics in 
the Rock Island, St. Louis, and Hew Orleans Districts and would like to 
include an appropriate representative from the Navigation Studies 
Center in LED. The purpose of this panel is to provide economic 
analysis products required for further progress on the subject study 
Dr. Don Sweeney, St Louis District, will serve in an advisory capacity 
to the group. The panel will report directly to Mr. Hanson who may 
appoint other personnel to provide administrative and support 
assistance as prudent and necessary.
    c. The panel will be responsible for identification of the NED plan 
and for producing economic analysis tools sufficient to analyze 
additional alternatives, all to be completed within so days of 
beginning of work. A detailed plan for the 90-day effort, which will 
include an in-progress review on or about day 70 to he attended by the 
EQ, will be provided to this office not later than close of business 22 
June 1998.
    2. I am directing my appropriate District Commanders to ensure that 
the panel leader and members are assigned to this purpose as their 
highest priority activity and are available throughout the duration of 
the So-day effort. I am hereby requesting the assignment of an 
appropriate member to the panel from LRH-NC, with the Same terms of 
highest priority availability. I believe that if we work together on 
this project we may avoid the perception of incompatibility with our 
respective navigation system studies. Specifically, I request that Mr. 
Wes Walker be assigned to this role. We will, of course, reimburse the 
Huntington District for any expenses incurred by your designee.
    3. I appreciate your personal involvement with this matter, and I 
am certainly available to discuss this with you if you need more 
information.
    4. My point of contact for this action is Mr. Dusty Rhodes, (501) 
634-5762.

          Philip R. Anderson Major General, USA Commanding.
                               __________
                                 TAB B
  before the united states senate committee on environment and public 
                works affidavit of thomas f. caver, jr.
    Pursuant to 28 U.S.C. 1746, the undersigned hereby executes the 
following sworn statement under penalty of perjury.
    1. I, Thomas F. Caver, Jr. do hereby declare that I am an employee 
of the U.S. Army Corps of Engineers, and currently serve as the Chief, 
Programs Management Division in the Directorate of Civil Works, 
Headquarters, U.S. Army Corps of Engineers.
    The Committee's question 2 which relates to a February 4, 2000 memo 
which contains the statement ``concern was expressed that if we don't 
provide for the industry, navigation program might get moved to'' 
Department of Transportation. During the meeting in which this 
statement was made, there was a discussion of the Corps' mission 
responsibility to broadly assess the long-term navigation needs of the 
Nation, applying a visionary approach to the assessments and subsequent 
recommendations, to include the concerns of all interested 
stakeholders. I interpreted this statement as one of self-criticism 
that the Corps has a tendency to formulate projects in a narrow sense, 
and if we were unable to fulfill the broad mission responsibility, the 
Nation would find others, with DoT used as an example, to fill that 
need.
    3. With respect to question 3 concerning a ``slide show 
presentation,'' the slide show referred to by the Washington Post 
consists of thirteen briefing charts used to engage the Chief of 
Engineers, the eight Division Commanders and other members of the Corps 
Board of Directors in a discussion of water resource problems across 
the Nation and how the Corps could better fulfill its mission of 
assessing and meeting the demands. At the Corps of Engineers Senior 
Leadership Conference in San Francisco in August 1999, the Assistant 
Secretary of the Army for Civil Works made remarks that focused on the 
unmet needs in water resources in this nation and challenged the Corps 
to take a longer term view. The Secretary's remarks stimulated 
reflection by the Corps on the magnitude of water resources needs 
facing the Nation. Work was initiated to quantify the needs and assess 
the ability of the Corps to satisfy the needs. This discussion 
represented an inprogress review on the effort for the purpose of 
determining whether it was proceeding in an effective manner and to 
receive guidance from the Chief and the BOD in proceeding from that 
point. The presentation outlined the initial findings on ``needs''. 
Some of the needs identified were:


------------------------------------------------------------------------

------------------------------------------------------------------------
Backlog of Maintenance.......  $1.6 Billion
Average Annual Flood Damages.  $4.0 Billion
Navigation Tonnages..........  Double by 2020
Lock Chambers................  9% over 50 years old
Wetlands Loss................  53% of acreage in Lower 48 States--an
                                area larger than the State of
                                California--117 Million acres
Water Supply.................  Many Areas of droughts and competing uses
Existing Infrastructure......  Value of Corps maintained Infrastructure
                                declined $25 Billion since 1981 to
                                present value of $125 Billion.
------------------------------------------------------------------------

    4. The presentation also included a graph that depicted the Civil 
Works Capital Investment over the period 1929 to 2000 in constant 1999 
dollars. The graph showed that capital investment had increased (with 
dips during WWII and Korea) to a high of $5 Billion per year in 1966 
and started to drop precipitously about 1980 to the present level of 
less than $2 billion per year. The presentation went on to discuss the 
ability of today's Corps of Engineers to respond to the challenge of 
satisfying the identified needs.
    5. The ``impediments to growth'' summarized on the briefing slide 
referred specifically to the Corps' inability in its current condition 
to be responsive to these national water resources challenges and to 
challenge the organization to think broadly outside of its day-to-day 
business. Seven specific areas of concern were identified as follows:
    <bullet> Principles and Guidelines (P&G)--this refers to the 
guidance that all Federal water resources agencies follow in 
formulating solutions to water resources problems. In a review of the 
Corps' planning process recently completed by the National Academy of 
Sciences (NAS), the NAS commented that these guidelines are outdated 
and do not reflect today's principles and practices and values. For 
example, the P&G don't give sufficient weight to environmental and 
social benefits and don't allow proper consideration of non-structural 
flood control solutions. The NAS report suggested that P&G should be 
updated.
    <bullet> Cost Sharing--while general cost sharing as legislated in 
the Water Resources Development Act of 1986 and elsewhere has brought 
tremendous discipline arid structure to individual project development, 
it has also had the unintended consequence of severely narrowing the 
scope of water resource problem solving, especially during the planning 
process. Water resources issues involve many different stakeholders and 
cross political boundaries. If the Corps is to be effective in dealing 
with these issues, it needs a way to address the matters in a 
comprehensive, basin-wide approach. This suggests that, to a limited 
degree, study cost sharing should be reconsidered.
    <bullet> Loss of Congressional relationships--a fact of life is 
that the Congress faces a broader array of issues and challenges these 
days than in the past and has more competing constituencies; therefore, 
it's more difficult to raise issues associated with water resources to 
the fore. In general, the Corps has not awakened to this fact. The 
discussion point was intended to make the organization aware of this.
    <bullet> Changes in Committee Control--as has been widely discussed 
of late, the manner in which the Congress conducts its business is also 
changing. Again, the intent was to make leaders in the Corps aware of 
this.
    <bullet> Civil Works Business Process--the Corps' process has grown 
to become bureaucratic and cumbersome. The assertion here is that the 
organization must become more flexible and responsive to be of service 
in the future. The House of Representatives recognized this in its 
report on fiscal year 2000 appropriations and required the Corps to 
report to the Congress on ways of streamlining its business process.
    <bullet> Loss of capability to build within the Corps--because of 
internal organizational culture and outside direction, the Corps has 
chosen over the past twenty or so years not to stimulate any 
significant National discussion of broad water resources problems. As a 
result, the organization doesn't even know how to do this at a time 
when national needs are great and long-term impacts are potentially 
significant. The intent here was to highlight this fact as a first step 
in dealing with it. Relationship within the Executive Branch--
similarly, the Corps hasn't been effective Ln championing national 
water resources needs within the Administration. Among other reasons, 
this has led to less emphasis on water resources in Administration 
initiatives and priorities.
    6. The ``specifically targeted communications plan'' actually 
appeared on a slide following the ``impediments'' slide in the 
presentation and referred to the need to inform the complete array of 
interested stakeholders of the national problems and challenges. 
Further, the message was that the Corps isn't very good at 
communications and that effective communications must be tailored to 
the audience so the message is understandable. The Corps has a tendency 
to incorrectly assume its mostly ``technical'' messages ( and the 
implications from them) are readily understood by all.
    7. The slide show, and the discussion it was designed to generate, 
was an early part of the process of developing an annual and outyear 
program and budget for the Civil Works program. This is done initially 
as an exercise internal to the Corps of Engineers and is a preliminary 
deliberative process of proposing and examining options ultimately 
leading to specific recommendations to the Assistant Secretary of the 
Army for Civil Works. Corps recommendations are then subjected to a 
series of reviews at the Army and Of lice of Management and Budget 
levels before decisions are finally reached on specific program and 
budget provisions to be included in the President's budget for 
submission to the Congress. I declare under penalty of perjury under 
the laws of the United States of America that the foregoing statement 
is true and correct to the best of my knowledge.

                                       Thomas F. Caver, Jr.

            Subscribed and Sworn to Before me in the District of 
            Columbia, on this 3rd Day of March, 2000.


                                          Barbara J. Davis,
                                                     Notary Public,
                              My Commission Expires: June 14, 2001.
                                 ______
                                 
                                 TAB C
  before the united states senate committee on environment and public 
                 works affidavit of russell l. fuhrman
    Pursuant to 28 U.S.C. 1746, the undersigned hereby executes the 
following sworn statement under penalty of perjury.
    1. I, Russell L. Fuhrman do hereby declare that I am a Major 
General in the U.S. Army and am currently serving as the Deputy 
Commander, U.S. Army Corps of Engineers.
    2. I want to state from the outset that I did not, at any time, 
direct anyone to skew or falsify data or the economic analysis in the 
Upper Mississippi River Study. In fact, as stated, below, the purpose 
of my involvement was, and is, to insure that appropriate and adequate 
models, data, and assumptions are used in the economic analysis which 
supports the Study. I never called for preordained results; just the 
opposite, I insisted that we bring in the best experts from around the 
Corps to address all issues associated with the Upper Mississippi River 
Study so that the Study could withstand the scrutiny of all interest 
groups, the Administration and Congress. The product we had 18 months 
ago would not have withstood that scrutiny.
    3. Before I elaborate upon my involvement in the Upper Mississippi 
River Study, I want to respond directly to the Committee on Environment 
and Public Works' question Number 10 concerning the Washington Post's 
story quoting a 25 September email from Mr. Dudley M. Hanson relaying 
his (Mr. Hanson's) perception of my instructions to a ``panel.'' To 
clarify the record there was no panel. Two meetings, approximately one 
month apart, were conducted as ``in progress reviews'' (IPRs) of the 
Study. They involved a significant amount of interchange between 
technical experts from my Headquarters, the Division and District 
Staffs which is not reflected in Mr. Hanson's email, but which I will 
address in more detail below. Moreover, until recently I was unaware of 
the Hanson email. I would point out, however, that a contemporaneously 
executed email of 25 September 1998 from Harry Kitch of my staff to Mr. 
Hanson informed him that the quotations, referred to in question 10, 
and perceptions described in his (Mr. Hanson's) email were inaccurate. 
The Kitch email is enclosed for your review. It presents a position 
consistent with my recollection of what took place during the IPR.
    4. With regard to question 11 on advocacy, I do not know what Mr. 
Hanson means by advocacy, but my view of advocacy is as follows. The 
Corps of Engineers is the advocate for water resource development and 
conservation activities to include flood control, hydropower, 
navigation, environment, recreation and the like. In my view, the 
Corps' role is similar to the advocacy role the Department of 
Transportation plays for air and surface transportation and the 
advocacy role Department of Agriculture plays for agricultural 
interests. As water resource advocates it is our mission to assess the 
nations needs/requirements and present those to the Administration and 
Congress for their decision on setting national priorities and resource 
allocations.
    5. Getting back to the Study, in late August or early September of 
1998 my staff received several calls from agricultural interests and 
navigation interests on the Upper Mississippi challenging the 
preliminary data the District was about to release to the Governors 
oversight group on the Upper Mississippi River Study. In the same time 
frame, Brian Burke (Deputy Assistant Secretary of the Army for Civil 
Works Office) and I were at a meeting with Mike Dunn (Department of 
Agriculture) when he raised Department of Agriculture's concern with 
the preliminary data coming out of the Upper Mississippi River Study. 
He wanted to ensure our data adequately reflected the potential for 
grain export in the region and the importance of ensuring we have the 
required capacity on our inland waterways system so the farmers could 
be competitive in the world market in the 21st century. I was informed 
by Major General Phillip R. Anderson (Commander, Mississippi Valley 
Division) that he had also been receiving a number of calls from 
interests groups on the same subject. Concerns raised by the interests 
groups were: (1) Why was the Corps using a different (new) model which 
was supposedly untested? Why were we not using the Huntington model 
which had been used on our previous lock and dam studies? What was the 
difference between the two models? (2) Demand curves for commodities--
The interest groups contended we were using the wrong demand curves and 
we were using different demand curves on the Ohio than on the Upper 
Mississippi. (3) Projections--The interest groups contended the 
Districts traffic projections and Agriculture production projections 
did not agree with theirs. They contended they had an independent group 
study the issues and were coming up with much larger projections. (4) 
Assumptions--The interest groups contended the District was using 
inaccurate assumptions and different assumptions than we were using on 
the Ohio River in our Studies.
    6. This was the first time that I became aware that we had 
developed a new model for this Study and were not using the standard 
model we had used on the Ohio River for years. asked my staff why there 
were two models and no one had an answer, nor could any one on my or 
the Division staff explain, at the time, the differences between the 
two models or how they would react to the same or different inputs. In 
addition the concerns raised by the Department of Agriculture and the 
interests groups needed to be addressed. The recommendation of my staff 
and MG Anderson' staff was we conduct an ``in progress review'' (IPR) 
to determine exactly where we were and how confident we were in our 
preliminary data before we allowed the District to release any 
information to the Governors. At that time, we were still in the early 
study phase leading to a draft report with multiple agency and public 
reviews to follow, but to me it was absolutely key that we resolve any 
differences in the models, demand curves, projections, and assumptions 
raised by the interests groups. I wanted the technical experts on the 
Division staff and my staff to be comfortable that the District's work 
was ready for public review from all interest groups. MG Anderson 
agreed with me and he brought his staff to Washington on 23 September 
1998 for the first of two IPR meetings.
    7. Since the meetings occurred 17 months ago, I can't recall all of 
the details, but I do remember the important facts. I started our 
meeting telling the group this was an important study. The Nation had 
invested $50 million dollars in the study and the purpose of the study 
was to determine what navigation capacity was needed in the Upper 
Mississippi in the next 20- 50 years. The Corps needs to use its best 
experts and the best models and information available throughout the 
Corps and the Nation. Our work had to withstand the scrutiny of all 
interest groups. In the end, the economic well being of the region 20-
30 years from now could well be dependent on the results of our study. 
I use the term ``advocacy'' to describe this role. We are the agency 
responsible for insuring water resource issues are appropriately 
represented to the Administration and Congress just as the Department 
of Transportation insures surface and air transportation issues are 
appropriately represented to the Administration and Congress. After my 
introduction, the District briefed where they were in the study and 
tried to address the issues outlined above. We had lots of discussion 
between technical experts on my staff, the Division and District 
staffs. The bottomline to come out of this first meeting was the 
District did not know the differences between the models nor did it 
know the sensitivity of either model to assumptions, projections, 
demand curves, etc. The District was unable to answer the challenges 
put forth by the interested groups cited above. In addition the 
District had not done a good job of taking into account environmental 
mitigation costs. I directed that they include these in the overall 
costs. Part of the problem was that the experts capable of addressing 
the issues needed time to sort through the issues. It was determined it 
would take the Division about a month to sort through the issues and 
determine which ones needed further study and which ones the District 
already had enough information. We also decided that we needed to bring 
in our best experts from around the Corps to assist the District and 
Division so we had the best study the Corps could produce, not the best 
study the District could produce. The first order of business was to 
set up a taskforce to look at the two models and determine the 
differences between the two, if any. At the same time the Division 
needed to address the other issues raised by the interest groups to 
insure we could adequately answer them. About a month later the 
Division came back and laid out a plan to address the issues described 
above and requested a dollar and time extension which I approved. This 
was essentially my last contact with the Study. A few months later I 
left as the Director of Civil Works to become Deputy Commanding General 
of the United States Army Corps of Engineers.
    I declare under penalty of perjury under the laws of the United 
States of America that the foregoing statement is true and correct to 
the best of my knowledge.

       Russell L. Fuhrman, Major General, U.S. Army Deputy 
                                                Commander,.

            Subscribed and Sworn To Before me in the District of 
            Columbia, on this 3rd Day of March, 2000.


                                          Barbara J. Davis,
                                                     Notary Public,
                              My Commission Expires: June 14, 2001.
                                 ______
                                 
                                 TAB D
          affidavit, state of illinois, county of rock island
    I, Dudley M. Hanson, was Deputy for Programs and Project Management 
of the Rock Island District of the U.S. Army Corps of Engineers until 
October of 1999. I also was Project Manager for the Upper Mississippi 
River-Illinois Waterway System Navigation Study from April 1998 to 
December 1998. Relative to Questions No. 5 and 11 in the February 28, 
2000 letter from Senator Voinovich to LTG Ballard, I hereby depose and 
say:
    In reference to Question No. 5, I was the Project Manager for the 
study in September 1998 and used the term ``other ways'' in relating 
guidance from MG Fuhrman. The reference to ``other ways'' relates to 
identifying other considerations, some of which may not be 
quantifiable, which are relevant to the navigation study in addition to 
the traditional National Economic Development (NED) account benefits 
that a Corps analysis must include. These considerations were 
documented and discussed at the November 18, 1998 Governor's Liaison 
Committee meeting. The other items include the Congressionally 
recognized National significance of the Upper Mississippi River 
ecosystem and commercial navigation system, critical economic role of 
the river in the national economy, national interest in maintaining a 
competitive posture in agricultural exports and balance of trade, and 
the importance of providing adequate transportation infrastructure for 
the 21st Century. In addition, uncertainties related to some items were 
identified for presentation and potential discussion in the project 
report, including factors such as future demand, potential for changes 
in policy (e.g. ethanol subsidies), future rail rates, crop yields, and 
environmental considerations. In accordance with the Corps Principles 
and Guidelines, factors such as those listed above are to be considered 
in developing a recommended plan. It is noted that several of these 
concerns were included in Sec 139 of WRDA 99, which directed the Corps 
to proceed with preliminary engineering and design of 1,200 foot locks.
    With regard to Question No. 11, the term ``overt advocacy role'' 
was in reference to MG Fuhrman's public statements that the Corps is 
viewed by many as the advocate for inland navigation, similar to how 
the US Dept of Transportation is the advocate for highways. As such, 
the Corps has the responsibility to look to the future and determine 
the needs for the inland waterway system. The Corps owes to the 
decision-makers in Congress the full range of alternatives and 
sensitivity analyses so that the best decisions can be made. 
Considerations regarding the national economy, competitive posture in 
agricultural exports and balance of trade and the impact on the 
environment must be taken into account as the Corps recommends measures 
that will provide adequate transportation infrastructure for the 21st 
Century.
    As used in the referenced memo, the term ``story line'' is 
synonymous with ``scenario''. It was used specifically to ensure that 
the planning team, particularly the economics team, had not failed to 
consider any possible futures that would result in greater demand for 
waterborne commerce. Some of the building blocks of such possible 
futures could be such things as these:

    1. Elimination of the ethanol subsidy to corn, which could free up 
hundreds of millions of bushels of corn for export;
    2. Decommissioning of nuclear power plants, which could greatly 
increase the demand for waterborne coal for fossil-fueled power plants;
    3. Transition from internal combustion engines to electric vehicles 
for surface transportation, which could increase electrical generation 
demand, and increased waterborne shipment of coal;

    In witness whereof, I have set my hand this 2nd day of March 2000.

                                          Dudley M. Hanson,

            Subscribed and sworn to the undersigned, a notary public, 
            in and for the State of Illinois, County of Rock Island, 
            this 2nd day of March 2000.

                                         Robert F. Lazenby,
                                  Notary Public, State of Illinois,
                                   My Commission Expires 4-17-2002.
                                 ______
                                 
                                 TAB E
    I, Bobby R. Hughey, being duly sworn under oath and of legal age, 
and under no legal disability, do hereby state that the following is a 
true statement of facts according to my best recollection and 
knowledge.
    In response to the question ``Did the study update change the date 
of renovations from 2033 to 2015, and if so, on what basis?''
    Yes. The preliminary results of the economic analysis for the 
reliability studies were discussed at an Economic Coordinating 
Committee on 11-12 May 1998. This discussion included a summary of the 
methodology being used and the preliminary results of the analysis, 
which showed no major rehabilitation needed until 35-40 years out in 
the future. This preliminary work was documented in a draft report 
dated June 1998. This preliminary analysis was a work in progress and 
had not been reviewed by the study team or ready for an Independent 
Technical Review. Subsequent reviews by the study team indicated some 
problems with the analysis. A second draft report was completed and 
distributed to the study team for review in April 1999. The results of 
this second report indicated that no rehabilitation would be justified 
in the next 50 years. The analysis indicated that failures will occur 
and repairs needed, however they would not be justified under current 
definitions and methodologies. The engineering work group seriously 
questioned the results of this report. This report is under going 
internal review by the study team and is not yet ready for an 
Independent Technical Review.
    In the fall of 1997, an additional effort was undertaken to reduce 
the cost of construction for the lock extension alternative. This work 
was documented in the, the Interim Revised Lock Extension Design 
Concept Report published in March 1998. In the spring of 1999, in 
response to an additional preliminary economic analysis, the costs 
presented in this report were reevaluated. It was identified at this 
time that some components listed were items that would be replaced or 
repaired as part of any future without rehabilitation. An analysis was 
undertaken at that time to determine whether double counting was 
occurring for these components. The estimate contained in the 
referenced report included costs for miter gates, guidewall, some lock 
chamber concrete and metals, and operating machinery, culvert valves 
and operating machinery, power and lighting systems, mob/demote and 
preparatory work, care and diversion of chamber water. Significant 
portions of these cost factors were also contained in the cost 
estimates for the scheduled rehabilitation in the without project 
condition.
    Schedules for major rehabilitation in the future were developed 
utilizing a 25-year expected extended life parameter. The site-specific 
future schedule for rehabilitations was established by adding 25 years 
from the last completed rehabilitation. For example lock 22 was last 
rehabilitated in 1990. The next rehabilitation is projected to occur in 
2015. It was determined that if a lock extension project occurred close 
in time to the completion of a rehabilitation project, that the 
scheduled rehabilitation would not take place and these scheduled 
investments could be avoided. This results in the delaying or avoidance 
of a cycle of major rehabilitation in the 2015-2020 period and 
associated costs. This information was used in subsequent evaluations 
of the economic analysis.
    It should be understood that development of the Future Without 
Project Investment is still a work in progress and many significant 
portions of the analysis need to be completed and reviewed.

    In response to the question ``Did the study update cut the 
contingency factor from 35 percent to 25 percent, and if so, on what 
basis?
    Yes. The Upper Mississippi River-Illinois Waterway System 
Navigation Study has explored cost reductions for lock construction 
since completion of the Reconnaissance Report in 1991. The initial 
estimates in this report were produced with minimal site-specific 
engineering. Cost estimates were prepared utilizing traditional 
construction practices and totaled approximately $380 million per site.
    In 1996, the Lock Concept Design Report was produced as a sub-
product of the Engineering Appendix to the systems feasibility study. 
This report utilized preliminary site specific engineering for 2 
representative sites (Locks 22 and 25) on the UMR. Innovative lock 
design and construction techniques were used to reduce cost estimates 
reported in the reconnaissance report. For the representative site at 
Lock 25, the least cost alternative for new lock construction involved 
extending the existing lock by 600 ft. at a cost of $160 million. The 
estimates contained in this report included 25% contingency. ER 1110-2-
1302 provides guidance that suggests contingency values of 20% for 
feasibility level projects in excess of $10 million. An additional 5% 
was added because only preliminary site-specific engineering has been 
completed. During the ITR conducted in Aug 97 a comment was received 
that stated:
    ``Contingencies at this level of detail, especially considering 
innovative techniques, should possibly have a higher contingency than 
25% to reflect the uncertainties involved. At this conceptual stage, 
25% would appear more normal for conventional type construction and a 
minimum of 35% for innovative. ``
    This comment was accepted and 35% adopted as a contingency factor 
due to the risks and uncertainties associated with innovative lock 
design and construction.
    In Jan. 1998, an additional effort was undertaken to reduce the 
cost of construction for a lock extension. The Interim Revised Lock 
Extension Design Concept Report was published in March 1998, and 
focused on reducing delays to navigation during construction and 
reusing more of the existing structure. The cost estimate for extending 
Lock 25 was reduced to $135 million with 35% contingencies. This 
document is scheduled to be included in the final Engineering Appendix.
    In the spring of 1999, in response to an additional preliminary 
economic analysis, the contingencies were reevaluated for the lock 
extension costs. This along with other factors helped reduced the lock 
extension construction cost for Lock 25 to $120 million. The 
contingency factor was reduced to 25% for the following reasons:
    a. A review of the Interim Revised Lock Extension Design Concept 
Report indicated that the majority of construction for the lock 
extension concept included traditional construction techniques. The 
innovative construction techniques were essentially limited to the 
float-in gate bay monolith and filling and emptying system. Reducing 
contingencies to match the factor of 20% recommended in ER 1 1 10-2-
1302 was discussed, but rejected since only preliminary site-specific 
engineering had been completed for these sites.
    b. The Corps has continued to push the state-of-the-art in 
innovative lock design and construction techniques. Since this was 
first evaluated in the 1996 Lock Concept Design Report, the Corps has 
completed additional research as part of the Innovative Navigation 
Program. In addition, some of these techniques are currently being 
utilized in the design and construction of projects on the Ohio River 
system. Actual contractor unit bid costs have been used to validate the 
unit costs applied to the UMR study for similar type designs and 
construction.
    c. All construction costs have been reviewed on a continuous basis 
to ensure that they reflect the latest in contractor unit costs 
obtained from other corps navigation projects. The latest review was 
accomplished in the Nov/Dec 1999 period.

    In response to the question ``Was the assumption on the use of 
self-help reduced, and if so, on what basis?
    Yes. History of Investigations: The universe of potential small-
scale measures was identified in the General Assessment of Small-Scale 
Measures report (June 1995). Sixteen of the measures, including 
industry self help (ISH), were carried forward for more detailed 
examination and quantification of benefits as part of the Detailed 
Assessment of Small Scale Measures Report (December 1998). Industry 
self help is the practice where industry tows assist each other by 
extracting unpowered cuts from the lock without the assistance of lock 
personnel or equipment. The primary time savings results from allowing 
tow remake outside the lock, which makes it available for a quicker 
turnaround. This measure is currently utilized for approximately 1-1.5% 
of all lockages at the busiest locks on the system.
    Additional coordination with the navigation industry, U.S. Maritime 
Administration, and U.S. Coast Guard in 1998 indicated that regular use 
of ISH is not practical due to the variability in conditions where it 
can be implemented safely. The general industry comment was that ISH is 
a stop gap measure that is used to minimize the impacts of a breakdown 
on the system, not a routine, long term measure to address increasing 
system traffic and delay. In addition environmental and social impacts 
were identified related to bankline damage and sensitive shoreline 
areas. It was determined that additional facilities would be required 
to minimize environmental impacts of increased use of ISH. In July 
1998, a lockmaster expert panel was convened, to gather data on current 
use and their expectations for future usage. Through lock data 
collection and the meeting, it was verified that currently industry 
self help is only used on a very limited basis. In addition, due to a 
number of site-specific factors, this usage is not likely to increase 
significantly unless additional facilities are provided (guidewall 
extensions or remote remake). It was also determined that current use 
is limited to periods where queues grow to approximately 10-12 boats 
waiting at the lock, creating sufficient delays to warrant the risk of 
these operations.
    The ISH measure can be placed in the without or with project 
condition depending on whether or not a Federal action is taken 
(additional facilities provided). The with-project condition for this 
system study was defined to include all small-scale measures 
potentially implemented on a system basis by a Federal action for 
system efficiency reasons. This resulted in the only measures falling 
in the without project being measures which do not provide significant 
system efficiencies or require Federal actions.
    In January 1999, the study team decided that without project 
economic model runs should limit the use of ISH to no more than 5 
percent of the total commercial lockages. This was in addition to the 
previous limitation to only apply self help in situations were large 
queues of 10-12 boats were present. The rationale for this decision is 
as follows.

    <bullet>  Lock statistics from 1992-1998 showed actual usage of 
selihelp was limited to 1-1.5 percent, and only Locks 24 and 25 had 
achieved significant time savings historically. At these sites the 
highest usage was in 1992 at Lock 25 at 3.6 percent. The 5 percent rule 
allows some increase over current usage, while remaining close to 
observed rates.
    <bullet>  Despite the presence of considerable delay at times, ISH 
has not been used as a regular operation to lock tows at multiple sites 
for system efficiency reasons. Current usage is typically limited to 
clearing a bottleneck following a lock closure or delay at a single 
site. Even in these events its use is driven by economics of the 
situation and willingness of the tow boat operators to assume risk 
(e.g. large queues of 10-20 boats, grouping of tows N-up/N-down, safe 
operating conditions, etc.).
    <bullet>  ISH requires competing tow companies to pull each other's 
barges with uncertainty regarding assumption of risk and liability.
    <bullet>  Increased use of ISH in the without project raises 
concerns over impacts to environmental and social resources around 
remake areas.
    <bullet>  High use of ISH in the without project condition, without 
the addition of Federal facilities to reduce environmental and social 
impacts is not likely and foreseeable.

    As a result of environmental and social concerns, unlimited use of 
ISH without Federal protective actions being taken is not likely and 
foreseeable. Instead if use were to grow significantly, facilities 
(guidewall extensions or remote remake areas) would have to be provided 
to mitigate impacts at remake or waiting areas. This would then trigger 
a Federal Action to address the resource concerns (construction of 
remote remake facilities or guidewall extensions), and under the 
study's definition would be considered a with project action. Corps 
operations and engineering staff had previously determined that ISH 
with remote remake facilities would not be provided as a federal action 
for regular use due to risk, safety, high variability in achieving time 
savings, implementability, dependability/reliability, increased 
maintenance needs, and river congestion issues. In addition, ISH with 
guidewall extensions was screened out based the fact that it is out 
preformed at a similar cost by powered Levels with guidewall 
extensions. On the surface, ISH appears to provide significant benefits 
to reduce congestion. However, considering the variables involved, the 
successful implementation of ISH as a standard operating procedure is 
not viable as a long term solution.

      Bobby R. Hughey, P.E. Chief Design Branch, St. Louis 
                                                  District.


            Subscribed and sworn to before me this 29 day of February, 
            2000.

                                         William P. Levins,
               Notary Public, State of Missouri, City of St. Louis.
                                  My Commission Expires May 2, 2003
                                 ______
                                 
                                 TAB F
  before the united states senate committee on environment and public 
                   works affidavit of harry e. kitch
    Pursuant to 28 U.S.C. 1746, the undersigned hereby executes the 
following sworn statement under penalty of perjury.
    1. I, Harry E. Kitch do hereby declare that I have been employed by 
the U.S. Army Corps of Engineers for over 28 years, and currently serve 
as the Chief, Formulation and Evaluation Branch, Planning Division in 
the Directorate of Civil Works, Headquarters, U.S. Army Corps of 
Engineers.
    2. Although I have not been actively involved in the Upper 
Mississippi River Navigation System study for over a year, on February 
4, 2000 I attended a meeting with MG Van Winkle, Dave Sanford, and Fred 
Caver because my supervisor, Dr. Jim Johnson was TDY in Oxnard, 
California and I was taking notes on his behalf. I prepared an 
electronic mail message to Dr. Johnson summarizing that meeting so that 
he would be prepared for any meetings which might occur the following 
week. The statement in my message that ``We are the navigation 
proponent and we can't have a limpwristed recommendation saying to 
build something out in 2025'' is my best recollection of what was said 
by MG Van Winkle during that meeting. MG Van Winkle would have to say 
what he meant by that statement, I was merely taking notes of what was 
said so that I could accurately reflect, for the benefit of my 
supervisor, the results of that meeting. The statement in my message 
that ``Concern was expressed that if we don't provide for the industry, 
navigation program might get moved to DOT'' is my best recollection of 
what was said by either Mr. Sanford or Mr. Caver during the meeting. I 
interpreted this statement as merely restating something that I had 
heard several times over the past couple of years that the navigation 
program could be moved to the Department of Transportation.
    I declare under penalty of perjury under the laws of the United 
States of America that the foregoing statement is true and correct to 
the best of my knowledge.

                                             Harry E. Kitch

            Subscribed and Sworn To Before me in the District of 
            ColumbiA, on this 3rd Day of March, 2000.

                                           Barbara J. Davis
                                                     Notary Public,
                              My Commission Expires: June 14, 2001.
                                 ______
                                 
                                 TAB G
    I Jeffrey Marmorstein, being of legal age and under no legal 
disability, hereby state that the following is a true statement of 
facts to the best of my recollection and knowledge.
    On the evening of February 3, 2000 I was called at home by Mike 
Grunwald a reporter from the Washington Post. I gave him some 
information regarding my position with the Corps of Engineers and work 
history. I informed him that I was speaking entirely as a private 
citizen and in no way represented the Corps of Engineers. Further I 
informed him that I would not discuss the technical aspects nor offer 
an opinion on the results of the Navigation Study.
    He asked me if I had seen an affidavit prepared by Don Sweeney. I 
told him that I had. He further asked me if it ``really happened''. I 
answered that, as far as I knew, it was an accurate statement. When he 
asked me about Don Sweeney I made several complimentary remarks 
including that ``Don was the most talented public employee I had ever 
met'' and that while he was Technical Manager for the Economics on the 
Navigation Study his only motivation was to provide the most objective 
and accurate analysis possible.
    Mr. Grunwald asked my opinion about management changes that have 
taken place in the Corps. I gave him my honest opinion that, I believe, 
included the quoted statement ``unfortunately Corps' management has 
lost all respect for unbiased analysis''.
    Further I told him, according to my own notes, that ``It is very 
sad that this, largely successful study effort, is in danger of 
becoming just another Corps of Engineers embarrassment'' and ``It is 
regrettable that Corps' management has so effectively shut down all 
avenues of dissent that these issues, which should and could be 
resolved within the agency, must be made public''.
    The quoted statement ``It's very sad that this study is becoming 
another embarrassment'' was in reference to the apparent publicity that 
the story was going to receive and the public questioning of the Corps' 
integrity.

           Jeffrey Marmorstein, Operations Research Analyst


            Subscribed and sworn to before me on this 29 day of 
            February, 2000.

                                         William P. Levins,
               Notary Public, State of Missouri, City of St. Louis,
                                  My Commission Expires May 2, 2003
                                 ______
                                 
                                 TAB H
  before the united states senate committee on environment and public 
                works affidavit of colonel james v. mudd
    Pursuant to 28 U.S.C. 1746, the undersigned hereby executes the 
following sworn statement under penalty of perjury.
    1. I, James V. Mudd, am an officer on active duty with the U. S. 
Army and currently hold the rank of Colonel. I presently serve as the 
District Commander and District Engineer of the Rock Island District 
Corps of Engineers. I have served in this post since July 1997. 
Relative to the Upper Mississippi River-Illinois Waterway navigation 
system study, I hereby depose and say:
    2. As District Commander, I have general oversight and leadership 
responsibilities with regard to every study being conducted within the 
Rock Island District, including the Upper Mississippi River-Illinois 
Waterway navigation system study (UMRS). In this position, I receive 
information and assistance from individuals in the Corps' various 
disciplines, including engineering, planning, economics, and the 
environmental sciences. In the case of the UMRS, individuals in these 
fields from both inside and outside the Corps have been extensively 
involved in all aspects of the study process.
    3. With respect to the elasticity of demand for waterborne 
commercial transportation, over the course of the UMRS, the study team 
has expended considerable effort to determine the most appropriate 
value (the ``N'' value) to use in regard to grain.
    The UMRS team has evaluated information representing a wide range 
of values generated by numerous sources, including Corps economists, 
contractors, navigation users and shippers, and academic researchers. 
The N value of 1.2 for grain incorporated into the preliminary economic 
evaluations presented to the public at various workshops during the 
summer of 1999 was a weighted average using information from the August 
1998 expert elicitation panel and the 1994 Iowa Grain Flow Survey. The 
expert elicitation panel was composed of experts and economists from 
the Iowa Department of Agriculture, the University of Minnesota, Texas 
A&M University, North Dakota State University, and industry. The panel 
concluded that the N value for grain ranged between 1.0 and 2.0 in the 
Upper Mississippi region. Accordingly, the UMRS study team used this as 
a basis to define limit values.
    4. Using a methodology developed in discussions among myself and 
other members of the staff, the information from the expert elicitation 
panel was used to identify each end of the range of possible N values, 
while information from the Iowa Grain Flow Survey data was used to 
develop the distribution curve of grain moving to and on the 
Mississippi River. Subsequently, New Orleans District economist Richard 
Manguno, at my direction, calculated the N value for grain for the 
above methodology. I did not set a predetermined N value of 1.2; nor 
did I ask anyone to skew or falsify any economic data or assumptions. 
He assigned the limit N value of 1.0 (the relatively more inelastic N 
value) to the eastern region, which is the region closest to the river, 
and the limit N value of 2.0 (the relatively more elastic N value) to 
the western region, which is the region farthest from the river. He 
assigned the mid-point of the N value range, i.e., 1.5, to the central 
region.
    5. Data from the 1994 Iowa Grain Flow Survey, which described the 
proportion of each region's corn production that moved to the river, 
was then used by Mr. Manguno to assign weights to the crop reporting 
regions. He converted these proportions to weights (proportions of 
total river originating from each region--0.69, 0.21, and 0.10, 
respectively, for the eastern, central, and western regions) and 
assigned them to the appropriate region. With assigned N values and 
weights for each region, Mr. Manguno then calculated the overall 
weighted average. The weighted average that resulted from the 
calculation was applied to all grain movements shipped from all 
origins.
    6. As noted above, the N value of 1.2 was used by the Corps' study 
team in preliminary economic evaluations presented to the public during 
the summer of 1999. It was the result of information provided by Corps 
economists, Corps contractors, navigation users and shippers, and 
academic researchers and is based on a reasoned methodology. Prior uses 
of elasticity values for grain used in the study model, on the other 
hand, were strictly theoretically based (not based on empirical data). 
Finally, in regard to any contention that the value is too low (i.e., 
inelastic), it should be noted that at least one authority, Dr. Robert 
J. Hauser, Professor and Head of the Department of Agriculture and 
Consumer Economics at the University of Illinois, Urbana-Champaign, has 
provided an expert opinion supporting lower elasticity factors than 
currently reflected in the analysis. His opinion and the study 
underlying it (see attached) are still being analyzed.
    7. In regard to the allegation of disbanding of the economic panel, 
the panel was originally established for a 90-day period with 
responsibility for the identification of the NED Plan and the producing 
of the economic tools sufficient to analyze additional alternatives 
(July 1998-September 1998). The results of the panel's work would be 
used to brief the Director of Civil Works in Washington, D. C. At the 
conclusion of that period, MVD Commander MG Philip Anderson asked that 
the panel continue under the direction of New Orleans District 
economist Richard Manguno. During the subsequent months there was 
significant input from HQ USACE, CELRD, the five states in the study 
area, industry, and the expert elicitation panel. In June 1999 the 
panel was asked to provide input and commentary on the economic 
conclusions that had been completed to date. The decision to release 
the economic panel members to return to their regular duties was made 
by MG Anderson in July 1999. My understanding is that this decision was 
based on MG Anderson's determination that it was no longer necessary to 
continue the panel since it had completed its function. I understand 
that he determined that the production of future economic products 
would be the responsibility of the study team with Mr. Manguno leading 
the economic work group.
    I declare under penalty of perjury under the laws of the United 
States of America that the foregoing statement is true and correct to 
the best of my knowledge.

   James V. Mudd, COL, EN, Commander, Rock Island District.

            Subscribed and Sworn To Before me in the District of 
            Columbia, on this 2nd Day of March, 2000.

                                          Barbara J. Davis,
                                                     Notary Public,
                              My Commission Expires: June 14, 2001.
                                 ______
                                 
                              attachment 1
  Statement on Barge Demand Elasticities for Grain, Robert J. Hauser 
 Professor and Head Department of Agricultural and Consigner Economics 
                University of Illinois, Urbana-Champaign
                             July 22, 1999
    This statement concerns the estimate for the barge-rate elasticity 
of demand for grain shipments on the Upper Mississippi and Illinois 
Rivers used by the Corps of Engineers in its evaluation of various 
navigation-related projects. My understanding is that the most recent 
estimate of elasticity used by the Corps is approximately three. 
(Demand elasticities referred to in this statement will be in absolute 
(positive) terms.)
    Since farm products account for the majority of the traffic on the 
Upper Mississippi and Illinois Rivers, assessments of navigation 
benefits and costs rely heavily on the underlying barge demand 
elasticities for corn and soybean shipments. In analyses conducted by 
the Corps, if the estimated demand elasticity is too high, waterway 
navigation benefits will be understated; if too low, the resulting 
benefits will be overstated. Thus it is important that ( 1) the general 
level of the elasticity be considered carefully, (2) differences in 
elasticities between river segments be considered, (3) a reasonable 
range of potential elasticities be considered, and (4) the sensitivity 
of the project-evaluation results to changes in the elasticity be 
measured. I will address points 1 through 3, based on a study conducted 
during the 1980's by Hauser, Beaulieu, and Baumel (HBB) \1\.
---------------------------------------------------------------------------
    \1\ Hauser, Robert J., Jeffrey Beaulieu, and C. Phillip Baumel. 
``Impacts of Waterway User Fees on Grain Transportation and Implied 
Barge Rare Elasticines,'' Logistics and Transportation Review, 
21(1985), pp 37-55. Funded by U.S. Dept of Transportation, Contract 
DTRS-57-8C-00133.

    NOTE: The article from Logistics and Transportation Review 
referenced in Footnote 1 was attached to the affadavit at this point. 
It is retained in committee files.
---------------------------------------------------------------------------
    HBB measured impacts of alternative waterway user fees. The 1980 
transportation rate structure for rail, barge and truck was used to 
estimate user-fee impacts given forecasts of 1985 supply/demand 
conditions for grain. The EBB grain-flow projections were found with an 
optimization model containing over 11,000 alternatives for shipments of 
corn, soybeans, and wheat in the U.S., expressed In over 3,000 
equations. A base line solution (in terms of grain flows and attendant 
transportation costs) was found under the 1980 rate structure. The 
impacts of user fees were then assessed by measuring changes in grain 
flows and costs caused by imposing user fees (i.e., changing barge 
rates.) An important output of the analysis are estimates of own-price 
elasticities for grain barge shipments since the change in barge rate 
causes a measurable change in barge shipments, enabling the calculation 
of elasticity estimates. Resulting estimates are presented in Table 1.

                                Table 1.
          Estimated Barge Demand Elasticities for Grains (HBB)
------------------------------------------------------------------------
                                                 Barge Demand Elasticity
                                               -------------------------
                                                  Fuel Tax   Segment Tax
------------------------------------------------------------------------
Upper Mississippi River.......................         2.09         2.10
Illinois River................................         1.07         0.92
All River Segments............................         1.62         1.48
------------------------------------------------------------------------

    As indicated in Table 1, the barge demand elasticities for grain 
(corn, soybeans and wheat) found by HBB for the Illinois River, the 
Upper Mississippi River, and the entire system are well below the 
demand elasticity of 3.0 currently implied by the Corps' shipment 
demand function for grains. Moreover, the degree of difference depends 
on the river segment. Because of its location relative to other rivers 
and to production, the Illinois River's elasticity is approximately 
half that for the Upper Mississippi River. Consequently, the HBB 
analysis suggests that using a single transportation demand elasticity 
for all waterways is not appropriate.
    HBB note that their analysis is a ``snapshot'' of demand 
characteristics chat change from year to year, if not from day to day. 
In general, the barge rates used in the HBB analysis are higher than 
those which have existed since the study was conducted, implying that, 
under a stationary and linear demand, elasticities have fallen since 
the early 1980's and that the HBB estimates are probably biased 
upwards, indicating further that the Corps estimate is relatively high.
    Given the HBB analysis, the Corps' elasticity estimate should be 
considered, at best, an upper bound for analysis. Lower bounds could 
reasonably be defined well below one. Given this type of range, an 
important question becomes: how sensitive are the Corps' findings to 
changes in elasticity estimates from, say, 0.5 to 3.0? Consideration of 
this question by river segment is critical to providing a sound 
assessment of the benefits and costs associated with new projects on 
the inland waterway system.
    Your consideration of this statement is appreciated.
                                 ______
                                 
                                 TAB I
    I Lenard H. Ross, being duly sworn under oath, being of legal age 
and under no legal disability, do hereby state that the following is a 
true statement of facts according to my recollection and knowledge:
    In response to question No. 7
    In writing ``getting to yes as soon as possible'' I was referring 
to actions to reduce the normal ten plus years it takes to get a 
project from the study phase to the construction phase. Such actions 
include working issues in parallel rather than in series, anticipating 
funding needs and working harder, faster and smarter.
    In writing ``study managers not take no for an answer'' I was 
referring to the roadblocks and delays encountered by study managers. 
Many of which are internal Corps policies and procedures. Study 
managers are encouraged to look for ways to work around a problem not 
give up.

    Lenard H. Ross Chief, Construction Branch Construction-
                            Operations, Readiness Division.


            Subscribed and Sworn to before me this 29th day of 
            February, 2000.

                                         William P. Levins,
               Notary Public, State of Missouri, City of St. Louis.
                                 My Commission Expires May 2, 2003.
                                 ______
                                 
                                 TAB J
  before the united states senate committee on environment and public 
                works affidavit of david b. sanford, jr
    Pursuant to 28 U.S.C. 1746, the undersigned hereby executes the 
following sworn statement under penalty of perjury.
    1. I, David B. Sanford, Jr. do hereby declare that I am an employee 
of the U.S. Army Corps of Engineers, and currently serve as the Chief, 
Policy Division in the Directorate of Civil Works, Headquarters, U.S. 
Army Corps of Engineers.
    2. Question 2 relates to a February 4, 2000 memo which contains the 
statement ``concern was expressed that if we don't provide for the 
industry, navigation program might get moved to'' Department of 
Transportation. I interpreted this statement as meaning that if the 
Corps could not produce a study, with recommendations (whether or not 
the recommendations supported lock expansion), then the navigation 
industry group (MARC2000) might seek assistance from the Department of 
Transportation. I declare under penalty of perjury under the laws of 
the United States of America that the foregoing statement is true and 
correct to the best of my knowledge.

                                      David B. Sanford, Jr.

            Subscribed and Sworn To Before me in the District of 
            Columbia, on this 3rd Day of March, 2000.

                                          Barbara J. Davis,
                                                     Notary Public,
                               My Commission Expires June 14, 2001.
                                 ______
                                 
                                 TAB K
          affidavit, state of illinois, county of rock island
    I, Paul D . Soyke, am employed by the Rock Island District of the 
United States Army Corps of Engineers as the Chief, Economic Analysis 
Branch in the Program & Project Management Division. I also was a 
member of the Economics Panel for the Upper Mississippi River-Illinois 
Waterway System Navigation Study. Relative to Question No. 9 in the 
February 28, 2000 letter fro m Senator Voinovich to LTG Ballard, I 
hereby depose and say:
    The quote, ``The team should determine an alternative . . . that 
appears to be the most likely to justify large-scale alternatives in 
the near-term'' was made by me, a member of the Economic Panel on 
September 3, 1998. The statement was made in reference to the testing 
of the economic model and its sensitivity to various parameters. The 
reference was to only one of a number of alternatives that should 
eventually be tested. I sent an e-mail (attached) later the same day to 
all the recipients clarifying the intent after receiving comments. This 
later e-mail states, ``If my message was interpreted to indicate that 
`our recommended alternative will be determined based on assumptions 
that appears most likely to justify large scale alternatives in the 
near term', I apologize. I think we owe it to the decision-makers, our 
partners, and ourselves to know `what it takes to justify a project'. 
That is a part of sensitivity analysis.'' This was not a decision or 
command to manipulate the model or study results, but instead was part 
of an effort to better assess the model and its sensitivity to many 
parameters that were not known with certainty.
    In witness whereof, I have set my hand this 1st day of March 2000.

                                             Paul D. Soyke,

            Subscribed and sworn to the undersigned, a notary public, 
            in and for the State of Illinois, County of Rock Island, 
            this 1st day of March 2000.

                                        Aimee D. Vermeulen,
                                  Notary Public, State of Illinois,
                                    My Commission Expires 01/15/03.
                                 ______
                                 
                              attachment 1
                           Soyke, Paul D MVR

From: Hanson, Dudley M MVR
Sent: Friday, September 04, 1998 7:41 AM
                                              To: Soyke, Paul D MVR
Subject: RE: Alternative scenarios

    Paul, Please don't feel any need or pressure to respond to HO. MVD 
will do that as needed, or task us to do it.
                        ----Original Message----
From: Soyke, Paul D MVR
Sent: Thursday, September 03, 1998 2:21 PM
To: Conner, Ronald R HQ02, Karnish, Diane MVS; Hanson, Dudley M MVR; 
    Hammond, Mark R LRH01; Manguno, Richard J MVN01; Walker, Wesley W 
    LRH01; Arnold, William E MVD01; Sweeney, Donald C II MVS; Carr, 
    John P MVR; Mcdonald, Jesse K MVD01
Cc: Daniel, Robert M HQ02; Kitch, Harry E HQ02
Subject: RE: Alternative scenarios

    I'm sorry that I was not clear. Don is working on the ``without'' 
condition and a preliminary NED with as given set of assumptions. As I 
understand, there are alternate assumptions that can be made. In order 
to provide as much information as possible, MVD has asked that we look 
at what the output of these alternative assumptions might be. The 
primary goal is the preliminary NED. If my message was interpreted to 
indicate that ``our recommended alternative will be determined based on 
assumptions that appears most likely to justify large scale 
alternatives in the near term'', I apologize. I think we owe it to the 
decision-makers, our partners, and ourselves to know ``what it takes to 
justify a project''. That is a part of sensitivity analysis.
                       -----Original Message----
From: Conner, Ronald R HQ02
Sent: Thursday, September 03, 1998 1:59 PM
To: Soyke, Paul D MVR; Karnish, Diane MVS; Hanson, Dudley M MVR; 
    Hammond, Mark R LRH01; Manguno, Richard J MVN01; Walker, Wesley W 
    LRH01; Arnold, William E MVD01; Sweeney, Donald C II MVS; Carr, 
    John P MVR; Mcdonald, Jesse K MVD01
Cc: Daniel, Robert M HQ02; Kitch, Harry E HQ02
Subject: RE: Alternative scenarios

Folks

    Would someone like to explain to me what exactly I've missed. In 
the Tuesday meeting with Dusty, I heard explicit direction that a 
preliminary NED will be presented by 17 Sept. Which, as I understand 
it, is the way the 90-day process was sold to HO. Is that still the 
case or are we presenting a range of scenarios which will take to the 
GLC and the public to help us decide the NED? Given that changes must 
be made to the SEM to account for the new small-scale/without project, 
do you have time to run these alternate scenarios before Sept 17. Why 
not identify a prelim NED based on the current assumptions, then run 
alternate scenarios as sensitivity analysis prior to meeting with the 
GLC and public? Also as a further suggestion, avoid sending E-Mails 
around which suggest our recommended alternative will be determined 
based on assumptions that appears most likely to justify large scale 
alternatives in the near term. Regardless of what you decide to do, I 
need to see a summary or minutes from the teleconference or meeting I 
missed to report up the chain. Thanks.

Ron
                       -----Original Message-----
From: Soyke, Paul D MVR
Sent: Thursday, September O3, 1998 11:39AM
To: Diane Karnish; Dudley Hanson; Hammond, Mark R LRH01; Manguno, 
    Richard J MVN01; Walker, Wesley W LRH01; Arnold, William E MVD01; 
    Donald Sweeney; John Carr; Mcdonald, Jesse K MVD01; Ronald Connor
Subject: Alternative scenarios

    Dudley suggested that I send my thoughts to all of you and get your 
comments and ideas. It is important to reduce the amount of work 
required while still trying to get the options desired by MVO. Until 
the without project condition is complete, it is difficult to predict 
which set of assumptions will most productive. Rich and Jack will be in 
St. Louis on Tuesday to provide assistance in running the options. They 
need the flexibility to make the week productive.
    Please give me your comments by noon Friday on the following 
suggestions.
    Based on the teleconference yesterday and Jesse's proposal, I am 
offering the following suggestions:
    There should be a scenario based on a high (tripling of grain 
exports by 2050) commodity forecast with demand functions for grain of 
1.0 and 0.5 for all other. This is similar to Alt. 3 from Jesse. There 
should also be one using 1.0 for all commodities and the midline 
forecast. The team should then determine an alternative, based on these 
results, that appears to be the most likely to justify large scale 
improvements in the near term. This alternative should use conditions 
and assumptions that are within the range of the information available 
that could be within some reasonably likely future.
    These alternatives would seem to bound the options and allow us to 
work with the GLC and the public to determine acceptable limits and 
levels of confidence of the assumptions. Based on the results and those 
discussions, I would suspect that we could then do further runs and 
determine a recommended plan.
    I believe that the team in St. Louis next week should be given the 
flexibility to include or delete the IWW locks if the initial runs 
indicate that this would impact the results.
                                 ______
                                 
                                 TAB L
before the united states senate committee on the environment and public 
           works affidavit of major general hans. van winkle
    Pursuant to 28 U.S.C. 1746, the undersigned hereby executes the 
following sworn Statement under penalty of perjury.
    1. I, Hans A. Van Winkle, do hereby declare that I am a Major 
General in the United States Army currently serving, since June, 1999, 
as Deputy Commanding General for Civil Works of the U.S. Army Corps of 
Engineers, and stationed at its Headquarters in Washington, D. C.
    2. This affidavit is being prepared in response to written 
questions presented by Senator George V. Voinovich, Chairman, 
Subcommittee on Transportation and Infrastructure of the Senate 
Committee on Environment and Public Works. The Senator's letter and 
questions relate to the Corps' Upper Mississippi River-Illinois 
Waterway Navigation Study. Question 1 in Senator Voinovich's letter 
referred to a meeting I attended on February 4, 2000. The question 
asked that I explain what I meant by a statement attributed to me in an 
e-mail message, dated February 4, 2000, and written by another attendee 
at that meeting, Harry E. Kitch (hereinafter the HKitch e-mail''). The 
statement which I have been asked to explain was presented as follows: 
`` we are the navigation proponent and we can't have a limp-wristed 
recommendation saying to build something out in 2025''. In addition, 
question 2 in Senator Voinovich's letter asked that the participants in 
the February 4, 2000 meeting interpret another statement in the ``Kitch 
e-mail''. As presented by Senator Voinovich the statement read that 
``'concern was expressed that if we don't provide for the industry, 
navigation program might get moved to' the Department of 
Transportation''. This statement was not attributed. I will respond to 
both questions.
    3. At the outset, I state that at the times and events addressed in 
this affidavit I was unaware that Dr. Donald Sweeney was in the process 
of or had prepared an affidavit concerning the Upper Mississippi River 
Study.
    4. With respect to Senator Voinovich's Question 1, I made the 
statement, or a substantially similar statement, attributed to me, in 
the following context and with the intent set forth below.
    5. I made the statement at a meeting held on February 4, 2000. 
While I cannot attest to the word for word accuracy of the quoted 
statement, since I did not take any notes, nor had an official note 
taker been designated, the statement is generally accurate. The 
statement was made in the informal give and take of this meeting among 
my senior advisors and myself The statement simply expressed my 
frustration at the status of the Study at that time. After expending 7 
years and $50 million dollars, we were not able to yet finalize all 
elements of the array of alternatives identified in the Study. Among my 
frustrations was the fact, as I understood it, that some of the 
proposed alternatives, if adopted, would require even more study and 
the expenditure of additional funds before being able to fully 
implement them. In my opinion, the Corps of Engineers, as an expert on 
the Nation's inland waterway system, ought to be able to make firm 
proposals or recommendations, based upon sound, comprehensive data and 
analysis. Those proposals or recommendations should be implementable 
without endless study. In this case, in part,
    I was questioning whether proposals or recommendations requiring or 
anticipating yet more study were warranted or justified. Also expressed 
in that statement is my view that the Corps is the Federal agency 
responsible for examining options for the development, management, and 
conservation of our Nation's water resources with the objective of 
providing the Administration and the Congress with balanced choices for 
the future. Just as the Department of Transportation is the 
``proponent'' in these respects for surface transportation systems, the 
Corps, in my opinion, is such for our Nation's waterways.
    6. The February 4, 2000 meeting was a follow-up meeting to a prior 
briefing I had received about the Study. The prior briefing, held on 
January 28, 2000, led by the Corps' Mississippi Valley Division (MVD), 
was by Video Teleconference (VTC). This was my first briefing on this 
Study since I assumed my duties as the Deputy Commanding General for 
Civil Works of the U.S. Army Corps of Engineers in June, 1999.
    7. Based upon the VTC briefing, I had some questions and concerns, 
principal among which were two. First, I wanted to assure myself that 
extending 600 foot locks, to 1200 feet, as MVD proposed, was a sound 
recommendation. The current locks average 50 years old, and building 
extensions to these aging structures added an element of engineering 
risk. Second, I had questions about the ``optimally timed'' project 
alternatives identified in the Study. Members of my staff also had 
questions about the MVD presentation.
    8. Because of these questions and concerns, I convened the February 
4, 2000 meeting previously discussed. Attendees at this meeting 
included Mr. Thomas F. Caver, the Corps' Chief, Civil Works Programs 
Management Division, Mr. David Sanford, the Corps' Chief, Civil Works 
Policy Division, Mr. Harry E. Kitch, representing the Corps' Chief, 
Civil Works Planning Division who was not available for the meeting, 
and myself. Though the others had been participants in the January 
28,2000 VTC, Mr. Kitch had not. At this meeting, my staff recommenced 
that we undertake an Alternative Formulation Brief (AFB). I concurred. 
The AFB is standard procedure that would allow us to address my 
questions, and others. Completion of the AFB and presentation of its 
conclusions is expected in early March 2000.
    9. With respect to Senator Voinovich's Question 2, the comment, as 
I interpreted it, reflected how the navigation and agricultural 
industries felt about working with the Corps of Engineers. On this 
project, these interest groups had complained that the Corps had 
rejected their data and input, that the Corps process was not 
inclusive, and that reasonable assumptions and data were not being 
treated in a fair and reasonable way. In short, I understood the 
comment to highlight a concern that this Study process be inclusive and 
fair. I do not recall how this issue was raised at the meeting.

                           Major General Hans A. Van Winkle

            Subscribed and Sworn To Before me in the District of 
            Columbia, on this 3rd Day of March, 2000.

                                          Barbara J. Davis,
                                                     Notary Public,
                              My Commission Expires: June 14, 2001.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Statement of Doug Sutherland, County Executive, Pierce County, 
                               Washington
    Mr. Chairman and members of the subcommittee: my name is Doug 
Sutherland. I am the County Executive for Pierce County, Washington. 
Thank you for the opportunity to testify on the Water Resources 
Development Act of 2000.
    Pierce County lies along the eastern shore of Puget Sound and 
includes the city of Tacoma. The County includes the Puyallup and 
Nisqually Rivers, two of the 17 major river watersheds that comprise 
the Puget Sound basin.
    I respectfully request that the Subcommittee authorize the Corps of 
Engineers to participate with local agencies in planning and 
implementing ecosystem restoration projects in the Puget Sound region, 
as proposed in S. 2228 and the Administration's WRDA proposal. I 
recognize the many competing priorities that the Committee is facing in 
developing WRDA 2000, and know you will have difficult decisions to 
make about what to include in the bill. I'd like to relay why ecosystem 
restoration work in Puget Sound is a top priority to Pierce County and 
the Pacific Northwest, and why a major national commitment to the 
effort is warranted.
    It wasn't long ago that you could walk or boat along any river in 
the Puget Sound basin in the fall or winter and be sure of seeing 
thousands of salmon, often so abundant that they filled every pool and 
riffle. As recently as the 1970's, it was possible to share the 
experience of the earliest settlers to our region, who wrote of salmon 
so thick that you could walk across their backs from bank to bank.
    I'm sorry to say that these days, you could spend all day on one of 
the big salmon rivers of the region, including the Puyallup and the 
Nisqually in my county, and be lucky to see a hundred fish. The 
listings of chinook salmon and bull trout under the Endangered Species 
Act last year confirmed what every keen observer has witnessed for a 
decade: salmon are in steep decline in Puget Sound. A big run every few 
years and hopeful projections can no longer disguise the marked decline 
in salmon populations.
    If this trend continues, it is not too difficult to imagine that 1 
day in the not too distant future someone will witness the last salmon 
to swim in the Puyallup, the Skagit, or the Snoqualmie. If this occurs, 
we will have lost a resource of incalculable value: a cultural and 
social icon, an angler's once-in-a-lifetime prize, the catch of the day 
for a major tribal and commercial fishing industry. Imagine New England 
without fall colors, the Chesapeake without blue crabs, and California 
without the redwoods. Roll them into one, and you have some idea of 
Puget Sound without salmon.
    We are committed to bringing Puget Sound salmon back from the 
brink. One of the prime reasons for the decline of salmon has been 
destruction of habitat from a century of agriculture and timber 
harvest, urbanization, flood control, and navigation projects. The 
result is a checkerboard landscape, where pockets of high-quality 
habitat are interspersed with areas in which stream channels and 
streamside areas are in poor shape. Bringing salmon back from the brink 
will require the rebuilding of salmon habitat on an unprecedented 
scale, with substantial work needed in every one of the 17 watersheds 
of the Puget Sound basin.
    We need your help. Pierce County has joined with the U.S. Army 
Corps of Engineers on several major projects on the Puyallup River, and 
we have found the agency to be a capable and enthusiastic partner. 
Corps assistance has allowed us to undertake habitat restoration and 
flood protection projects that would have been impossible without the 
agency's technical and financial assistance. We would like to see the 
Corps' support available to communities throughout the Puget Sound 
basin.
    I am delighted that President Clinton and the Washington 
Congressional delegation have shown support for this effort through the 
Administration's WRDA bill and S. 2228. There are several elements of 
S. 2228 that I hope you will integrate into WRDA 2000. Most 
importantly, I urge you to authorize the program at the $125 million 
level proposed in S. 2228. The Puget Sound basin is large, with 17 
watersheds comprising more than 13,000 square miles, an area larger 
than the state of Maryland. As I've stated before, habitat restoration 
work is needed throughout the basin if we're to have any hope of saving 
salmon in Puget Sound. Spread out over 8 years and among projects with 
an average Federal cost of $1 million, the authorization of $125 
million would allow 15 of the highest priority projects a year to be 
completed. Over the course of the program, this level of commitment 
would make a big dent in the hundreds of restoration projects that are 
urgently needed to rebuild salmon populations.
    I also recommend the provisions of S.2228 regarding selection of 
projects under the program that direct the Corps to consult with 
Federal, state, and local agencies and use prior plans and studies to 
prioritize and select projects. These provisions will ensure that the 
program is efficient, targeted to on-the-ground results, and fully 
compatible with other restoration efforts in the region.
    The third aspect of S. 2228 that I'd like to highlight to you is 
how project costs are divided between the Federal Government and non-
Federal sponsors. Consistent with other Corps habitat restoration 
programs, S. 2228 provides a greater Federal contribution in areas that 
are affected by a prior Corps project. In addition, S. 2228 waives part 
of the cost-sharing requirement for projects cosponsored by an Indian 
tribe. I strongly support these provisions.
    My discussions with local government, tribal, environmental, and 
business leaders around Puget Sound indicate that there is strong 
support for S. 2228 and the partnership it will create. Pierce County 
and our neighbors around Puget Sound stand ready with funding, 
projects, and staff expertise to match the Federal commitment in this 
bill. Our jurisdictions have spent more than $15 million per year for 
the last 3 years on salmon projects and programs, and I can assure you 
that we are ready to rise to the funding challenges of this new 
program.
    I deeply appreciate the bipartisan support for salmon recovery 
demonstrated by the Washington Congressional delegation, and would 
particularly like to thank Senators Murray and Gorton and 
Representatives Inslee and Dicks for their leadership on this 
legislation. I'd also like to recognize and thank the other cosponsors 
of House version of this bill, Representatives Metcalf, Baird, Smith, 
and McDermott.
    Thank you for the opportunity to testify and I look forward to a 
long and fruitful partnership for the recovery of Puget Sound salmon.
                                 ______
                                 
Responses of Doug Sutherland to Additional Questions from Senator Smith
    Question 1. As you know, the Administration's proposal requests $10 
million for environmental restoration projects in the Puget Sound 
region. How would $10 million compare to the amounts received in your 
region, under the Corps' Section 2G6 authority?
    Response. I understand from the Corps that the Seattle District has 
expended $900,000 in studies and has programmed $4?8 million to 
construct restoration projects in the Puget Sound region under the 206 
authority. In the Corps other restoration program under Section 1135, 
more than $6.5 million has been expended and an additional $3.1 million 
programmed for habitat work in the Puget Sound basin in the last 5 
years. This is a high level of demand for programs that are new and not 
well publicized, and the demand for Corps assistance is expected to 
grow substantially in the region in coming years.

    Question 2. Can you describe some of the specific types of projects 
that would be conducted under the Administration's proposed provision, 
if it were enacted?
    Response. We anticipate that projects would include: . Restoring 
connections between rivers and side channel and floodplain habitats;
    <bullet>  Reconfiguring levees and dikes to improve habitat 
characteristics, including levee setbacks;
    <bullet>  Replacing undersized culverts and other barriers to 
salmon migration; Restoring estuary and marine beach habitat; Placing 
logs and stumps in streams and rivers to improve channel diversity; and 
. Planting trees and shrubs on riverfront lands; Puget Sound 
jurisdictions working with the Corps have implemented several projects 
of this sort in the last few years and can provide specific examples if 
needed.

    Question 3. The Water Resources Development Act of 1996 provided 
authority for the Corps to carry our aquatic ecosystem restoration and 
protection projects with state, local government and private nonprofit 
partners on a 65 percent Federal and 35 percent nonFederal basis. The 
authority provides for projects up to a Federal cost of $5 million and 
authorizes annual appropriations up to $25 million. In view of this 
national program, why does the Puget Sound Region need its own 
exclusive program?
    Response. Federal fisheries agencies have designated the Puget 
Sound basin as a whole as the appropriate region for recovery of 
chinook salmon and bull trout stocks that have recently been listed 
under the Endangered Species Act. Habitat restoration will be required 
to meet Federal ESA mandates throughout the basin, creating a high 
demand for assistance from Section 206 and other habitat programs. 
There are several reasons why assistance can be more effectively and 
efficiently provided through a Puget Soundwide program: 1. The regional 
scale and rigorous scientific standards for evaluating projects through 
the program will ensure that projects are selected on their merits and 
will individually and collectively make a valuable contribution to 
regional salmon recovery needs. 2. The evaluation of cost-effectiveness 
of projects on a regional scale will ensure that the program as a whole 
will be highly efficient, reducing long-term costs of salmon recovery. 
3. More assistance and funding will be available to the many 
communities around Puget Sound that have valuable salmon habitat but 
lack the staff and funding needed to compete effectively under existing 
Corps authorities.

    Question 4. The Administration's proposal for the Puget Sound 
Restoration Program authorizes a program for the Puget Sound Region for 
environmental restoration projects with a Federal cost up to $2.5 
million to be cost shared on a 65 percent Federal and 35 percent non-
Federal basins with non-Federal governments. The provision authorizes 
up to $10 million in Federal appropriations which would require non-
Federal matching funds of about $5.4 million. S. 2228 proposes a 
similar program for the Puget Sound region but proposes a Federal share 
of up to $5 million per project and a total appropriation authorization 
of $125 million requiring non-Federal matching funds of over $67 
million. Your testimony supports the $125 million appropriation. Does 
the Puget Sound region have the capabi!lty to provide the 35 percent 
non-Federal share to match this level of Federal appropriation?
    Response. Pierce County and our neighboring jurisdictions in the 
Puget Sound region are ready and able to provide the necessary funding 
to match Federal funds. We intend to match Federal funds with local, 
state, private, and tribal sources. Our strong commitment to providing 
needed funding is demonstrated by: More than $45 million in local 
funding of salmon projects and programs provided by Tri-County cities 
and counties in the last 3 years; Leadership to secure more than $38 
million in state funding for salmon projects in the 1999-2001 biennial 
budget; and Assistance in establishing a new regional organization, the 
Puget Sound Salmon Foundation, to solicit private funding for salmon 
work. Jurisdictions in our region see salmon recovery as a long-term 
commitment, and are ready to provide the funding needed to accomplish 
the job.
                               __________
 Statement of Lillian Borrone, Director, Port Commerce Department The 
                Port Authority of New York & New Jersey
    Thank you, Mr. Chairman and members of the committee. My name is 
Lillian Borrone and I am Director of Port Commerce for The Port 
Authority of New York and New Jersey. We appreciate this opportunity to 
testify on behalf of a Federal navigation project and related matters 
that are of critical importance not only to the New York-New Jersey 
region, but also to the entire nation. As I begin, I would like to take 
a moment to recognize the invaluable work and untiring efforts of 
retiring Senators Frank Lautenberg of New Jersey and Daniel Patrick 
Moynihan of New York on behalf of the Port of New York and New Jersey 
and the citizens of our states. Their leadership has been tremendous 
and will be sorely missed for reasons that extend far beyond the bounds 
of water resources legislation.
    The Port Authority is a bistate public authority created in 1921 
and charged by the two States to promote and protect commerce in the 
New York-New Jersey metropolitan region, including responsibility to 
provide the infrastructure necessary to accomplish that goal.
    The Hudson-Raritan estuary was one of America's principal ports 
well before the First Continental Congress met. Before the Dutch 
settlers of New Amsterdam built roads or schools, they built docks.
    Historically the Port of New York and New Jersey has been the 
gateway for much of the nation's imports and exports. In fact, as late 
as the 1950's half of all U.S. trade flowed through the Port. As the 
nation's land and waterside infrastructure improved, especially in the 
latter half of the 20th century, other ports grew. As production and 
population growth shifted southward and westward, so did a growing 
share of the country's maritime trade. By the 1970's the Pacific Rim 
had begun to supplant the North Atlantic nations as the driving force 
of global economic growth, resulting in a boom in business at our 
western ports. That growth was not only good for the country but 
necessary as the U.S. economy became more integrated with the new world 
economy.
    While the Port of New York and New Jersey's U.S. market share 
experienced a decline as other port regions and intermodal capabilities 
grew, the actual volume of trade remains enormous and it continues to 
increase. Today, New York-New Jersey is handling 2.5 million containers 
(as measured in twenty-foot equivalent units), a growth of 67 percent 
in just 4 years. And the cargo volumes at our Port, like the rest of 
the nation, are projected to continue to grow. Trade growth nationwide 
is projected at 4 percent in the years ahead; we conservatively project 
a 3.7 percent growth that would mean a doubling of cargo in our port 
over this decade. Other major ports anticipate similar growth.
    This realization prompted us in 1998 to undertake a major review of 
the impacts of such growth on our marine infrastructure and determine 
what new investments would be required in our marine terminal, roadway, 
railroad and waterway infrastructure to meet this future demand.
    The results of that review are contained in an investment options 
plan with a scope of 40 years that identifies up to $7 billion in local 
investments to modernize and expand the major components of the Port's 
infrastructure.
    The Port of New York and New Jersey is not alone, obviously, in 
considering or undertaking major new investments in its maritime 
infrastructure. Charleston is planning to develop a new terminal on 
Daniels Island, Los Angeles and Long Beach are investing billions of 
dollars in marine terminal and intermodal infrastructure, while the 
Virginia Ports Authority has expansion plans of its own. A 1995 VPA 
study identified almost $335 million in improvements to accommodate the 
significant cargo growth projected for that port. Continuing with the 
Virginia example, the study forecast a possible 250 percent increase in 
containerized cargo by 2010 of which intermodal volume was expected to 
increase 300 percent. I would not be surprised if today those 5 year 
old projections are revised upward to account for the incredible 
changes of our economy. All told, the Maritime Administration reports 
that between 1999 and 2003, ports predicts spending over $9 billion of 
non-Federal funding on marine terminals, dredging and other 
infrastructure.
    Mr. Chairman, the significance of the Federal and port industry 
estimates is very clear. In this age of the international economy, 
multilateral trade relationships and intermodal technologies, import 
and export cargo flows will grow increasingly and we all will have to 
invest in channels and facilities in order to stay competitive.
    Coupled with projections for strong growth in international trade 
throughout the U.S. is changing trends in the maritime industry. An 
impressive example of one of the trends sailed into New York Harbor in 
the summer of 1998 with the arrival of the Regina Maersk, her first 
U.S. stop on her inaugural East Coast Tour. She is a 6000 TEU vessel 
whose operating efficiencies can be realized with channel depths of 47 
feet. (The Army Corps of Engineers uses a +2 feet standard to ensure 
safe bottom clearance in the channels.) An indicator of the challenges 
the Port of New York and New Jersey faced was the fact that the Regina 
had to stop first in Canada to discharge cargo before sailing into New 
York to make certain the vessel could navigate the 40-foot channels 
available to her. (I should note that underway now is Phase 2 of the 
45-foot deepening of channels leading to the Howland Hook, Newark and 
Elizabeth container terminals.)
    While the Regina Maersk may have been the first of these large 
vessels to call on New York Harbor, she not the only one we will see. 
As of the first quarter of 2000, there are 101 deep draft or ``Post-
Panamax'' container ships sailing the world's trade lanes. While these 
vessels represent a little more than 6 percent of the world's 
commercial fleet, they carry 14 percent of all of the cargo traded in 
the world. In addition, another 130 orders have been placed by shipping 
lines that will more than double the number of these giants in service 
around the world. It is clear that the established trend toward larger 
vessels in most trade lanes is not an extraordinary occurrence for 
specialized cargo as was the view during the WRDA debate of 1986; it 
has, in fact, become the industry standard, much as corresponding 
channel depths will be the standard. This trend in the maritime 
industry is no different from technological developments in other 
transportation modes. It is the ocean equivalent of wide body jets, 
tandem trucks and double-stack unit trains, all of which are familiar 
sights throughout the country.
    Given the long time that it takes to plan and carry out major 
infrastructure investments and the certain knowledge of the pressures 
that trade and technology will bring to our gateways, this country 
cannot afford to put off project authorization and funding decisions 
until the private sector is choking the channels of U.S. ports with 
ships with modern ships that require modern channels.
    In recognition of this direction in ocean shipping and the 
presently inadequate depths of New York Harbor to accommodate these new 
vessels, our congressional delegation, including Senators Lautenberg 
and Moynihan, helped authorize a Corps feasibility study. That work, 
the New York and New Jersey Harbor Navigation Study, was completed this 
year. It is the subject of a Chief's Report signed earlier this month. 
In short, the report recommends the deepening to 50 feet of major 
channels that lead to major container terminal areas in the Port. I 
have included in my testimony a map that shows the various channels 
included in the recommendation.
    Mr. Chairman, two questions that your Committee may have are what 
is the value of this project to the Nation and why should the Nation 
invest here. The answers lie in two places. First, as this Committee 
well knows, the purpose of an Army Corps feasibility study is to 
determine whether or not particular channel improvements derive 
national economic benefits. The Corps study found that the project 
would, in fact, realize an annual benefit totaling $238.5 million in 
national transportation cost savings. These benefits are the 
transportation cost savings that result from larger vessels being able 
to call on the Port of New York and New Jersey directly, rather than 
divert to another port only to have goods bound for the New York-New 
Jersey region trucked or railed back into the bistate area. Such a 
scenario has national consequences in terms of wear and tear on the 
nation's road and rail network, air quality, highway congestion, 
freight delivery time and overall quality of life. As you may know, a 
ship the size of the Regina Maersk carries 6000 containers, a volume 
that would require 6,000 trucks or 3,000 rail cars. Providing direct, 
all-water service into the region is both a more economical, as well as 
environmentally preferred, method of serving this market.
    But the national interest in this project goes beyond those 
numbers, significant as they are. The Port of New York and New Jersey 
is in the heart of the nation's largest and most affluent consumer 
market. Eighteen million consumers live and work in the immediate 
metropolitan region and that number swells to 80 million within 1 day's 
truck drive from our docks (or a 260-mile radius around the port). This 
area covers a ten-state region that stretches from Maine to Maryland, 
from Cape Cod Bay to the Ohio River. Add to this broad market base the 
national rail system that emanates from the region and the Port of New 
York and New Jersey directly serves the southeast, the Midwest and 
beyond. (No doubt few consumers inland of the coastal states understand 
how much seaports contribute to their quality of life.) As you can 
understand, given this broad customer base, the Port of New York and 
New Jersey is not only a regional port serving its own local market. 
Indeed, the Port continues to be a major gateway, the largest on the 
East Coast of North America, for international trade. Given the 
nation's growing involvement on world trade activities and the 
significant role that the Port of New York and New Jersey plays in that 
trade, the Nation has a significant interest in maximizing the port's 
potential to serve this national consumer demand. The same would be 
true in other major gateways on the four coasts.
    We recognize, of course, that ports throughout the Nation and 
certainly along the East Coast compete for cargo. Baltimore competes 
with Norfolk which competes with New York-New Jersey which competes 
with Los Angeles and so on. That competition is an inherent 
characteristic of our nation's ports as we reflect, among other things, 
America's economic system and principles of federalism. It is to 
Congress' credit that, after exhaustive analysis by the Corps of 
Engineers, projects are authorized on the basis of their benefits to 
regional and national economies and not to make one port or region more 
competitive than another. The emphasis is on what is good for the 
country. That is nowhere more evident than in considering that New 
York-New Jersey, Norfolk, Seattle and Boston, for example, compete with 
Canadian ports for cargo. Halifax and Vancouver are formidable 
competitors that, it is useful to note, have naturally deep water among 
other advantages.
    This competition among U.S. ports is healthy and economically 
beneficial. It ensures that port authorities, marine terminal 
operators, waterfront labor and others work to improve service, invest 
in facilities and adopt efficiencies. Those are things our customers 
expect and the consumers deserve. Channel depth is just one element of 
the investments that are made. In the case of the Port of New York and 
New Jersey, we will commit approximately $1 billion for the non-Federal 
share of the channel project that we are seeking in WRDA 2000. 
Furthermore, as described earlier, we anticipate on the order of $5 
billion to $6 billion in major investments in upland infrastructure.
    This combination of investments by Federal and local governments, 
coupled with significant private sector investment will result in a 
modernization of the Port of New York and New Jersey that will be 
better able to serve the nation, its businesses and consumers well into 
the 215 Century.
    Mr. Chairman, I would like to be able to submit additional 
information for the record. Meanwhile, I would be happy to answer any 
questions you may have.
                                 ______
                                 
 Responses of Lillian C. Borrone to Additional Questions from Senator 
                               Voinovich
    Question 1. Some interests, particularly in the environmental 
community, have questioned the need to deepen our ports to accommodate 
the latest generations of container ships indicating that the benefits 
of this deepening accrues to non-U.S. based carriers and represents 
destructive competition between U.S. ports without benefit to the U.S. 
economy.
    Response. The entire nation benefits from having access to cost 
efficient transportation services. It is true that most container 
steamship lines are foreign-flag operations. This, in our opinion, has 
no more relevance to the issue of the condition of our contemporary 
maritime channel infrastructure than to question whether it is in the 
national interest to improve our highway or airport infrastructure 
since many motor vehicles are made by foreign-based corporations and 
foreign air carriers and passengers frequent our international 
gateways. Vessel ownership is really beside the point because steamship 
lines, tankers and other vessels are not the sole beneficiaries of port 
deepening projects. Consumers who use the products they carry or 
businesses who export their goods to other companies are major 
beneficiaries. Channels are only one aspect of a system of 
transportation facilities that sustain the competitiveness of our 
economy. The nation's importers and exporters shipping their products 
and commodities through New York Harbor rely on economic transportation 
services to move their freight into and out of the global marketplace. 
That intermodal infrastructure--be it rail, highways, marine terminals, 
navigation channels or intelligent transportation technologies--
requires productivity enhancements and capital investments to expand 
capacity and improve efficiency. The benefits of a transportation 
system serving oceanborne cargo such as we have in our region, enhanced 
by improvements in its efficiency made through investments in 
infrastructure, labor and other measures, reach beyond the ocean 
carrier to the trucker. the shipper, other affected employers and 
workers, and ultimately to consumers. And 1l there IS any question 
about who benefits by more efficient transportation modes, a simple 
test would be to reverse the investments and watch what happens both at 
the port and farther down the system where the consumer awaits the 
goods.
    As the volume of oceanborne commerce has grown, it has become 
possible to realize the significant economies of scale offered by large 
oceangoing ships. These larger capacity ships are already in service 
worldwide and more are on order as my statement notes. Deeper channels 
will translate into lower transportation costs, as these larger ships 
are able to reach container-handling facilities in the port without 
waiting for favorable tide conditions or lightering. Many of these cost 
savings, in turn, will be passed on to consumers in the form of lower 
priced goods at regional markets. In addition, American goods exported 
on larger ships can take advantage of lower transportation costs 
thereby being better able to compete in international markets.
    And what is the dimension of the benefits? The Port of New York and 
New Jersey, the largest port on the east coast, is the gateway for $72 
billion in cargo weighing 58 million long tons including more than 1.5 
million containers with goods destined for or departing from most 
states in the continental US. The Port has a primary market of 17 
million consumers in the New York/New Jersey/Connecticut metropolitan 
region and a secondary market of 81 million consumers in a 31-state 
region. The breath of transportation services provided to the nation by 
the port would indicate that the more efficient and effective our 
maritime transport is, the more beneficial it is to American consumers 
and businesses.
    Lastly, while there is competition between ports, it is generally 
for cargo that is not consumed locally. As my testimony discusses, this 
competition is healthy since as a direct result, freight rates remain 
low, services improve, labor becomes more efficient and our national 
economy benefits.

    Question 2. The deepening project recommended in the Chief of 
Engineers Report of May 2, 2000 includes deepening the Bay Ridge 
Channel into the South Brooklyn Marine Terminal. The report indicates 
that major transportation infrastructure improvements, possibly 
including a railroad freight tunnel, would be needed to realize the 
benefits of deepening the channel into South Brooklyn. In view of this 
fact, why is it necessary to authorize the deepening of the Bay Ridge 
Channel now?
    Response. The nearly 3 nautical mile long Bay Ridge Channel will be 
improved and maintained to a depth of 50 feet and a proposed turning 
basin is to be located opposite the South Brooklyn Marine Terminal. 
Authorization is sought for all channels examined and recommended in 
the Harbor Navigation Study as the Port and its intermodal 
transportation connections are recognized to function as an integrated 
system. Projections performed by the Port Authority and the City of New 
York indicate that oceanborne cargo will double within 10 years. This 
volume will far exceed the existing terminal capacity in the port, 
requiring the future expansion and development of all of the region's 
marine facilities, South Brooklyn included. Our studies documented 
that, even with terminal productivity enhancements, the Port could face 
a deficit in terminal capacity within 6 years. Leaving Brooklyn 
facilities out of current planning and development activities would 
result in a less efficient port and transportation system overall.
    The Port of New York and New Jersey functions as a single complex 
even though marine terminals are located in separate locations 
throughout the harbor. Transportation improvements necessary to 
maintain the efficient handling of maritime goods--including deepened 
ship channels, rail and road improvements--must take place in a 
comprehensive and coordinated fashion. While project authorization at 
this time enables design work to proceed for all these channels so that 
precise cost estimates can be obtained, these estimates are necessary 
to seek subsequent authorization for funding specific improvements as 
they are needed and without delay. By the same token, appropriations 
will be sought when the necessary preconditions for the Brooklyn 
project elements have been put in place.
    Specifically, construction of the channel improvement to South 
Brooklyn will be subject to a commitment to rehabilitate the South 
Brooklyn Marine Terminal and to provide the transportation 
infrastructure needed to realize project benefits.

    Question 3. I understand that there would be a significant impact 
on the movement of goods along the East Coast if the project deepening 
were not to occur. Could you summarize what the implications would be 
of not undertaking the harbor deepening project? In what ways is this 
project in the national interest?
    Response. By 2060, the number of vessel passages required to 
transport cargo through the Port would be six times the number required 
in 1996 if channels are not deepened and there was no accompanying 
change in the current vessel fleet. (If 2060 seems to be far too 
distant a projection to be relevant, one should recall that major 
infrastructure projects take decades to accomplish, from conception to 
completion, and should be designed to be of practical use for decades 
as well.) Some of the container ships that currently utilize the Port 
Jersey, the Kill Van Kull and the Arthur Kill Channels can now do so 
only under favorable tide conditions. To increase the number of vessel 
passages during the period of favorable tide by a factor of six or more 
may not be physically possible and certainly would pose a grave 
increase in the probability of accidents. Within this and the next 
decade if the deepening projects were not to occur, ocean carriers who 
are turning to a different vessel mix are likely to direct their ships 
to other US or Canadian ports that already have 50 feet and greater 
channel depths and have excellent, intermodal rail service into the 
United States.
    It is important to consider the environmental benefit of providing 
adequate channel dimensions. The movement of freight over the water is 
known to be the most efficient and environmentally benign of all modes 
of transport. One large marine vessel can carry thousands of containers 
while a 100-car train can carry 200 containers, double stacked, and a 
truck only one. Is it better to ship cargo--the volume of which is 
projected to double over the next 10 years--over interstate highways or 
even rail, or on large capacity vessels on the seas and along the 
nation's inland waterways? It also raises legitimate concerns as to the 
capacity, for example, of our interstates to handle even more tractor 
trailer rigs than already would be on the roads. That alone causes real 
concern in New York and New Jersey where the ability to add lanes and 
build new highways, especially for freight movements, is terribly 
constrained. Unnecessarily diverting containers and other freight to 
land modes would increase the cost of transporting goods to the region 
and increase congestion and pollution.
    Finally, beyond the environmental and congestion issues, the 
project is in the national interest since it lowers the transportation 
cost (by $230 million per year) of internationally shipping goods to 
and from many Northeast and Midwest states that are served by the Port 
of New York and New Jersey.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
        Statement of R. Barry Palmer, Executive Director, DINAMO
    Good morning. I am R. Barry Palmer, Executive Director of DINAMO, 
the Association for the Development of Inland Navigation in America's 
Ohio Valley. DINAMO is a membership based regional association of 
leaders from business and industry, labor and state government whose 
singular purpose is to expedite the modernization of the lock and dam 
infrastructure on the Ohio River Navigation System. DINAMO was launched 
in 1981 because of a perceived regional need for the Federal Government 
to construct new lock and dam facilities at specific locations on the 
Ohio River Navigation System. Current modernization of the Ohio River 
Navigation System was initiated in the mid 1950's, continued for about 
20 years and was never completed. Prior to construction of new lock 
facilities at the Robert C. Byrd Locks and Dam, Ohio River, OH/WV, 
authorized in 1986, the last project authorized for construction on the 
Ohio River was the Hannibal Lock and Dam in 1964.
    We have made much progress over the last 18 years, Mr. Chairman, 
largely with the help and leadership of this committee. 15 lock and dam 
structures on the Ohio River Navigation System are under construction 
or complete. Those projects include major rehabilitation of Emsworth, 
Dashields, and Montgomery Locks and Dams, Ohio River, PA; and 
construction of the Robert C. Byrd Locks and Dam, formerly the 
Gallipolis Locks and Dam on the Ohio River, OH/W; Grays Landing Lock 
and Dam and Point Marion Lock, Monongahela River, PA; Winfield Lock 
Replacement on the Kanawha River, WV; Olmsted Locks and Dam, replacing 
Locks and Dams 52 and 53 on the Lower Ohio River, IL/KY; Monongahela 
River Locks and Dams 2,3 & 4, PA; McAlpine Lock Project on the Ohio 
River, IN/KY; Marmet Lock Replacement on the Kanawha River, WV; and 
Kentucky Lock Addition on the Tennessee River, KY.
    But the task is not finished. We are here before this distinguished 
subcommittee to urge your support in two specific areas:
    First, for all lock and dam modernization projects already 
authorized and under construction, we would urge that the currently 
scheduled diesel fuel/user tax revenues, as well as surplus of moneys 
gathering in the Inland Waterways Trust Fund, be drawn down to complete 
all lock and dam construction projects in a timely manner. In the Ohio 
Valley about $250 million is needed annually--50 percent from the 
Inland Waterways Trust Fund and 50 percent from the General Treasury to 
complete Olmsted, Lower Monongahela River 2, 3 & 4, McAlpine, Marmet, 
and Kentucky by 2008 or earlier. What is needed is funding 
predictability on efficient funding schedules of the Corps of 
Engineers.
    The private sector entered into a partnership with the Federal 
Government to fund 50 percent of the costs of a lock and dam 
modernization project by paying 20 cents per gallon for each gallon of 
diesel fuel consumed by towboats operating on America's inland 
navigation system. The private sector has met its obligations in this 
regard each and every year since the user taxes were established. What 
has been missing is a Federal Government reciprocation of its 
partnership responsibilities to pay its share of the costs for the 
nation's lock and dam modernization program.
    The construction schedule for lock and dam construction projects on 
the Ohio River Navigation System has in some instances slipped by as 
many as 6 years, primarily due to insufficient funding. Funding for 
lock and dam construction in the Ohio Valley plummeted from about $220 
million in fiscal year 1996 to $115 million in fiscal year 2000. (The 
President's Civil Works Budget for fiscal year 2000 requested lock and 
dam construction in the region at $70 million.) According to a March 
2000 report of the Institute for Water Resources, US Army Corps of 
Engineers, for the Inland Waterway Users Board more than $1.34 billion 
in transportation savings has already been washed down the Ohio River 
because of construction schedule slippage for Ohio valley projects. An 
additional $534 million of potential future benefits can be saved if 
these projects on the Ohio River System are completed by 2008 or 
earlier.
    Currently there is more than $370 million in the Trust Fund, and 
annual revenues and interest on the Trust Fund Balance is about $120 
million annually. DINAMO believes that the 20 cents per gallon diesel 
fuel tax will provide adequate revenue under the cost-sharing 
arrangements established by the Congress is the Water Resources 
Development Act of 1986 to rebuild our nation's waterways 
infrastructure.
    Secondly, we urge the leadership of this Committee to provide 
construction authorization of improvements at the John T. Myers and 
Greenup Locks and Dams, in accordance with the recommendations of the 
Interim Feasibility Reports of the US Army Corps of Engineers. The 
Division Engineers Notice will be released by the Great Lakes and Ohio 
River Division Commander this month, and a Final Report of the Chief of 
Engineers should be complete by the Fall of 2000. Mr. Chairman, we urge 
these projects receive a contingent authorization, subject to a Final 
Report of the Chief of Engineers by the end of this calendar year.
    Contingent construction authorizations for the Myers and Greenup 
projects are needed now, Mr. Chairman, because it takes a long time to 
get these lock and dam modernization projects constructed. The Olmsted 
Locks and Dam project, for example, was authorized in 1988 after 5 or 6 
years of study. It probably will not be fully operational until at 
least 2008 about 25 years of heavy lifting--if efficient funding levels 
are met. Monies for Pre-Construction Engineering and Design for both 
projects have been included in the President's fiscal year 2001 Civil 
Works Budget. So the opportunity is ripe for these projects to move 
forward in an orderly manner.
    You might also note, Mr. Chairman, that DINAMO navigation and other 
waterways interests have been sitting at the table in discussions with 
environmental representatives from the Fish and Wildlife Service. We 
have been working together with the US Army Corps of Engineers on a 
program of Ecosystem Restoration projects at more than 200 sites in 
conjunction with the Ohio River Main Stem Study. These projects include 
riverine and tailwater enhancements, embayment restoration, island 
protection/restoration, near-shore habitat restoration, and riparian 
and wetlands restoration.
    Finally we applaud the bi-partisan leadership of this committee to 
address the deplorable underinvestment in our nation's infrastructure. 
TEA-21 and AIR-21 will provide the investment America expects in our 
highways and airways. We urge the committee to focus now on the real 
problems and needs of our inland waterways and provide leadership to 
resolve our problems.
Profile of Ohio River Navigation System, Traffic and Selected Economic 
        Activity
    There are 60 active navigation locks and dams in the Ohio River 
Basin operated by the US Army Corps of Engineers. There are 20 active 
projects on the Ohio River, 9 on the Monongahela River, 8 on the 
Allegheny River, 3 on the Kanawha River, 4 on the Kentucky River, 2 on 
the Green River, 4 on the Cumberland River, 9 on the Tennessee River 
and 1 on the Clinch River. Twenty of the navigation structures are over 
60 years in age, twenty-six are between 30 and 60 years old, ten are 
between 10 and 30 years old, and four are less than 10 years old.
    The older locks date to the 1930's, and there is an increasing 
likelihood of structural failure of some of these facilities. This 
situation portends decreasing reliability. Hence there will be a need 
for increasing repair and maintenance costs, as well as closure times. 
These closure times will increase delay costs and diversion of 
commodities to other modes from closures. In 1989 the main lock at John 
T. Myers Locks and Dam was closed for major maintenance for 45 days. 
This closure cost industry an additional $15 million while transiting 
the smaller 600' x 110' auxiliary chamber. The McAlpine closure of the 
main chamber in 1997 created an average delay per tow of 4 days at an 
additional cost to industry of $12 million. Last summer closures at 
Greenup cost industry an additional $3.4 million.
    The river has always been an economic generator, and it will 
continue to be a dominant catalyst for private investment as long as we 
maintain and upgrade its infrastructure. There are over 1000 
manufacturing facilities, terminals, and docks in the Ohio River Basin 
that shipped and received about 275 million tons of waterborne commerce 
in 1998. The Port of Pittsburgh Commission recently commissioned a 
study conducted by Martin and Associates, Lancaster, PA, that estimated 
the amount of jobs that were directly, indirectly, and induced from 
49.1 tons of waterborne commerce transiting Western Pennsylvania's 
navigable rivers in 1994. The study reflected the following results: 
the positive benefits of the rivers include 120,000 jobs, or 12 percent 
of private sector employment and average employee earnings of $37,808. 
Using traffic data from 1994 and extrapolating the job information from 
the Port of Pittsburgh study to the entire Basin, a case could be made 
that jobs associated with waterborne commerce on the Ohio River 
Navigation System are more than 650,000 today.
    In 1998, almost 275 million tons of commodities moved on the 
waterways of the Ohio River Basin. These commodities had a combined 
value of just more than $32.8 billion. Coal made up more than 57 
percent of this tonnage, followed by aggregates with almost 18 percent. 
An analysis of the Ohio River Basin waterborne commerce data shows that 
almost 52 million tons of commodities were shipped on the river system 
out of the basin. A sizable portion of this tonnage (almost 23.5 
million tons) consisted of coal. Docks in the basin received just less 
than 42 million tons from outside the Ohio River System, with petroleum 
products being the largest commodity brought in. Just less than 180 
million tons moved within the basin.
    Traffic doubled on the main stem Ohio River between 1950 and 1965 
(15 years). Traffic doubled again between 1965 and 1990 (25 years). 
Traffic on the Ohio River grew 60 percent between 1983 and 1997, while 
traffic on the Mississippi River System grew 39 percent to 489 million 
tons over the same period. While the tonnage today is pegged at about 
275 million tons on the Ohio River Navigation System, the most probable 
forecast of traffic on the system will be 385 million tons by 2020 and 
500 million tons by 2050.
    Coal for Electric Power Generation: The Ohio River Basin is a major 
coal producing and power generating area. Utility companies have 
historically been attracted to a plentiful supply of water for plant 
use. The utilities also take advantage of the transportation savings 
provided by barges and the lock and dam system on the basin's 
waterways.
    The Ohio River and its navigable tributaries are the kilowatt 
highways for one of the nation's most industrialized areas, the 
corridor from Pittsburgh to St. Louis. 1998 coal shipments on the Ohio 
River basin's waterways totaled just less than 157 million tons, or 57 
percent of all barge cargo. Of this amount, more than 117 million tons 
were destined for coal-fired power plants. In 1998 this coal moved to 
47 power plants along the Ohio River and its tributaries and also to 21 
power plants in 8 states outside of the basin. Coal moving in the Ohio 
River basin destined for power plants had a value of over $4.5 billion.
    Most of the utility coal moving by barge in the Ohio River basin 
originated on the Ohio River. Some of this coal actually was mined in 
the western United States and moved by rail to docks on the Ohio River, 
where it was loaded into barges to complete the trip to power plants. 
Other significant origins for utility coal were the Monongahela River 
and the low-sulfur coal producing areas along the Kanawha and Big Sandy 
Rivers. Rivers outside the Ohio River System that received coal from 
the basin included the Mississippi, Black Warrior/Tombigbee, Panama 
City harbor, Escambia, Biloxi Harbor, Arkansas, Illinois and Neches.
    West Virginia shipped the most utility coal by water, moving over 
40 million tons of primarily low sulfur coal to 40 plants in 9 states. 
Kentucky, also a source of low sulfur coal, was next with almost 35 
million tons. Ohio's 11 power plants, which received coal by barge, 
took in almost 30.5 million tons of coal worth almost $1.2 billion. 
More of this coal (41 percent) came from West Virginia than any other 
state. Indiana was next with over 16.5 million tons of coal received by 
5 power plants, with Illinois supplying two-thirds of the tonnage.
    The most recent lock modernization project on the Ohio River was 
the building of two new lock chambers at Robert C. Byrd Locks and Dam 
(formerly Gallipolis Locks and Dam). The new 1,200' x 110' and 600' x 
110' locks located in a canal removed a major bottleneck to navigation. 
This improvement was a major benefit to the shipment of coal to power 
plants, as over 22 million tons of coal bound for power plants 
transited R.C. Byrd Locks in 1998. This was 38 percent of the total 
tonnage at these locks.
    Other recent improvements in the Ohio River Basin were at Winfield 
Locks on the Kanawha River. Winfield Locks processed over 12.5 million 
tons of utility coal (59 percent of total tons) in 1998. Navigation 
infrastructure on the Monongahela River has also been improved lately 
with new locks at Grays Landing and Point Marion Lock and Dams. In 
1997, Grays Landing moved 4.2 million tons of utility coal (87 percent 
of total) and Point Marion moved 4.1 million tons (89 percent of 
total).
    Future improvements to navigation on the Kanawha River will benefit 
utility coal shipping. A new lock 800' x 110' is planned at Marmet 
Locks, where 11.9 million tons of utility coal made up 72 percent of 
the total traffic in 1998. A major rehabilitation of London Locks will 
include an extension of the lock. London transited 6.5 million tons of 
utility coal, which was 85 percent of the total traffic.
    The Chemical Industry and the Ohio River Navigation System: The 
Ohio River basin's sixth largest commodity group is chemicals. There 
were 236 waterside chemical plants, docks and terminals in the basin 
which shipped or received chemical commodities by barge in 1998.
    As with the utility companies, chemical companies have historically 
been attracted to a plentiful supply of water and raw materials. These 
companies also take advantage of the transportation savings provided by 
barges and the lock and dam system on the basin's waterways. In the 
Ohio River Basin, important clusters of waterside chemical plants have 
developed along the lower Monongahela and upper Ohio Rivers; along the 
Ohio River from Parkersburg, West Virginia through Huntington, West 
Virginia to Portsmouth, Ohio; in the Louisville, Kentucky area and 
along in the Tennessee and Kanawha River valleys.
    Chemical plants are located along the lower Monongahela River and 
Upper Ohio for access to coal and salt deposits and chemical raw 
materials from coking plants. Plastics plants are located in the 
Parkersburg area due to the proximity to auto parts and plastics 
manufacturers. In the Huntington-Portsmouth area, much of the plant 
development was tied to the Ashland Oil refinery at Catlettsburg, 
Kentucky or the Armco Steel mill in Ashland, Kentucky. The chemical 
complex at Louisville developed during World War II, when the Defense 
Department looked for a waterside location to manufacture synthetic 
rubber. Chemical plants were also attracted to the cheap electricity of 
the Tennessee Valley and the salt, coal and mineral deposits of the 
Kanawha Valley.
    1998 chemical shipments on the Ohio River basin's waterways totaled 
just less than 10.2 million tons, or 3.7 percent of all barge cargo. Of 
this amount, more than 8 million tons were shipped into the basin from 
outside. Just over 1 million tons were shipped out of the basin, and 
almost 1.1 million tons moved within the Ohio River System. Chemicals 
are a high-value commodity. The almost 10.2 million tons moving by 
barge in 1998 had a combined value of almost $6.5 billion, which is 
over 20 per cent of the value of the basin's commodities moving by 
water.
    The largest chemical commodity that moves by barge in the basin is 
styrene, which is used in the manufacture of polystyrene for insulation 
and packaging uses and in the manufacture of synthetic rubber. Most of 
the almost 1.4 million tons of styrene which moved in 1998 originated 
in the Houston and Baton Rouge areas and moved to docks on the upper 
Ohio River. Cumene, which is used in the manufacture of acetone and 
phenols for the manufacture of products such as building materials, 
carpets, auto parts, cosmetics, and medicines is the second ranking 
waterborne chemicals. Sodium hydroxide, which is used in the 
manufacture of rayon and cellophane is another ranking waterborne 
chemical. Over 1.6 million tons of various types of fertilizers also 
move in barges.
    Most of the chemicals that moved by barge in the Ohio River basin 
originated in Texas and Louisiana. The leading basin state in chemical 
shipments was Kentucky. The main destination for chemical barges in the 
basin were plants and docks in Ohio, which received over 2.5 million 
tons. Kentucky and Alabama also received more than 1 million tons of 
chemicals each. Since 90 percent of the chemicals shipped by water in 
the Ohio River basin enter or leave the basin, the lower Ohio River 
Locks passed the most chemical tonnage in 1997. Lock and Dam 52 moved 
9.7 million tons of chemicals. Wilson Lock and Dam on the Tennessee 
River had the highest percentage of chemical tonnage, with almost 1.9 
million tons of chemicals of its 13.6 million total tons, for 13.7 
percent.
    Petroleum, Petroleum Products and the Ohio River Navigation System: 
The Ohio River basin's third largest commodity group is crude petroleum 
and products made from petroleum. There were over 250 waterside 
refineries, tank farms, pipelines, factories and terminals in the 
basin, which shipped or received petroleum or petroleum products by 
barge in 1998.
    Petroleum and petroleum product shipments on the Ohio River basin's 
waterways totaled just over 20.25 million tons in 1998, or 7.4 percent 
of all basin barge cargo. Of this amount, just less than 9.7 million 
tons were shipped into the basin from outside. Over 1.1 million tons 
were shipped out of the basin, and over 9.4 million tons moved within 
the Ohio River System. The petroleum and petroleum products that moved 
by barge in 1998 had a combined value of over $3.3 billion, which was 
over 10 per cent of the value of the basin's commodities moving by 
water. 1998 was the first year since 1979 with more than 20 million 
tons of petroleum moved on Ohio River Basin waterways.
    The largest petroleum product that moves by barge in the basin is 
gasoline. Most of the 7.5 million tons of gasoline which moved in 1998 
moved from the Huntington area to the Louisville, Cincinnati and 
Pittsburgh areas or from the lower Mississippi River into the basin. 
Distillate fuel oil is the second ranking waterborne petroleum product. 
Almost 300 thousands tons of crude petroleum moved by barge in the 
basin.
    Over 35 per cent of the grain that moved by barge in the Ohio River 
basin originated in West Virginia. Gasoline and distillate and residual 
fuel oils made up most of this tonnage. Louisiana docks shipped 
gasoline oils and petroleum coke into the basin.
    The main destinations for petroleum barges originating in the basin 
were facilities in Kentucky on the Ohio, Tennessee, Green and Licking 
Rivers. A majority of the movements to Ohio were destined for 
facilities in the Cincinnati and Marietta areas and consisted of 
gasoline, petroleum coke and distillate fuel oil as well as asphalt, 
tar and pitch.
    Since more than half of the petroleum shipped by water in the Ohio 
River basin enters or leaves the basin, the lower Ohio River Locks 
passed the most petroleum tonnage in 1998. Locks and Dam 53 moved 10.7 
million tons of petroleum and petroleum products. Almost half of this 
tonnage was gasoline and petroleum coke. Meldahl Locks and Dam, just 
upstream of the Cincinnati area, had the highest percentage of 
petroleum tonnage, with over 7.3 million tons of petroleum of its 63.7 
million total tons, for 11.6 percent.
    Grain and the Ohio River Navigation System: The Ohio River basin's 
fourth largest commodity group is grain. There were 144 waterside grain 
elevators, plants and terminals in the basin, which shipped or received 
grain by barge in 1998.
    Ohio River System waterways serve grain shippers primarily by 
affording access to the export and industrial markets for grain. These 
markets have been the most dynamic sector of the grain market and the 
strong growth in grain traffic in the basin reflects the prominence of 
these sectors in waterborne movements. Large movements of grains are 
made by water out of the basin to the export market through lower 
Mississippi River ports. The only other significant movements of barged 
grains are those to the South, most importantly to processors in the 
Tennessee River Valley.
    Grain shipments on the Ohio River basin's waterways totaled just 
less than 14 million tons in 1998, or 5.1 percent of all barge cargo. 
Of this amount, just less than 3.9 million tons were shipped into the 
basin from outside. Over 10.3 million tons were shipped out of the 
basin, and over 900 thousand tons moved within the Ohio River System. 
The 14 million tons moving by barge in 1998 had a combined value of 
over $2.7 billion, which is over 8.25 per cent of the value of the 
basin's commodities moving by water. 1998 was the fourth largest year 
on history with more than 14 million tons of grain moved on Ohio river 
Basin waterways.
    The largest grain commodity that moves by barge in the basin is 
corn. Almost all of the over 5.1 million tons of corn which moved in 
1998 fell into one of two categories: moving from the upper Mississippi 
or Illinois River to the Tennessee River for processing; or moving from 
the lower Ohio River to the lower Mississippi River for export. 
Soybeans is the second ranking waterborne grain. The leading processed 
grain product is animal feed preparations.
    Most of the grain that moved by barge in the Ohio River basin 
originated in Illinois. Corn, soybeans and animal feed preparations 
were shipped out of Illinois on the Ohio, Mississippi and Illinois 
Rivers.
    The main destinations for grain barges originating in the basin 
were export facilities in Louisiana. Within the basin, processing 
plants in Decatur and Guntersville, Alabama and Loudoun and 
Chattanooga, Tennessee were major destinations for corn and other 
grains.
    Since 94 percent of the grain shipped by water in the Ohio River 
basin enter or leave the basin, the lower Ohio River Locks passed the 
most grain tonnage in 1998. Lock and Dam 52 moved 9.76 million tons of 
grain. Watts Bar Lock and Dam on the Tennessee River had the highest 
percentage of grain tonnage, with over 800 thousand tons of grain of 
its 1.7 million total tons, for 47 percent.
Ohio River Main Stem Study and Near-Term Investment Needs
    The Ohio River Main Stem Study, initiated within the past 5-6 
years, is intended to be an authorization document for near-term needs 
(over the near 15-20 years) and a Master Plan for long-term needs. 
During the last several years it has become clear that an additional 
eight locks and dams will become candidates for substantial capital 
improvements over the next 10 years on the Ohio River Main Stem. 
Because of a combination of factors--including forecasted traffic 
growth, the age and condition of a number of older navigation 
facilities, [and hence] normal operating transit costs, projected 
closure delay costs, and additional operation and maintenance and major 
maintenance costs we will be back to this committee several times in 
the next decade seeking construction authorization for additional 
capacity at several locations along the Ohio River. These lock and dam 
projects include, in addition to John T. Myers and Greenup Locks and 
Dams, Emsworth, Dashields, and Montgomery Locks and Dams near 
Pittsburgh; Newburgh and Cannelton Locks and Dams on the Lower Ohio; 
and Meldahl Locks and Dam on the Middle Ohio. Attached is a graph 
depicting which projects appear to be the next likely candidates for 
major capital improvements.
    More importantly, during the course of the study a clear 
justification was found for present authorization of large scale 
improvements at two Ohio River facilities namely John T. Myers and 
Greenup. The Great Lakes and Ohio River Division Commander will forward 
his notice of improvements at these locks and dams to Washington, D.C. 
We are told that a Final Report of the Chief of Engineers will be 
completed before the end of this calendar year. We are therefore asking 
the Committee to include contingent authorizations for these projects 
in this year's version of the Water Resources Development Act of 2000.
    In terms of both traffic levels and delays, John T. Myers and 
Greenup are the two busiest lock projects on the Ohio River for which 
major improvements are not already under construction (or authorized). 
In 1998 the US Army Corps of Engineers reports traffic volume through 
John T. Myers at nearly 73.6 million tons and traffic volume through 
Greenup at more than 71.8 million tons. Each facility consists of one 
1200' x 110' main lock (capable of locking 16 jumbo barges and a 
towboat in a single operation) and one 600' x 110' auxiliary lock 
(capable of locking 6 jumbo barges and a towboat in a single 
operation). The current problem is that traffic volume in the Myers and 
Greenup portions of the river are growing at such a rapid pace that the 
practical capacity of each main lock chamber will soon be overwhelmed. 
Construction of increased capacity at the auxiliary chambers of the 
John T. Myers and Greenup locks is needed soon, in order the forestall 
the need for construction of a new third 1200' x 110' lock at some time 
in the future. The US Army Corps of Engineers, Great Lakes and Ohio 
River Division, is recommending 600' x 110' extensions to the existing 
600' x 110' auxiliary locks. DINAMO concurs with these recommendations 
and has been participating fully in the Corps' process to reach this 
recommendation.
    Fewer delays also mean reduced air emissions. The Corps of 
Engineers estimates that with the John T. Myers lock extension 6.8 
million fewer gallons of fuel will be burned, 342 fewer tons of carbon 
monoxide/dioxide will be put into the air, as will 854 fewer tons on 
nitrous oxide, 171 fewer tons of hydrocarbons and 85 fewer tons of 
particulates. Lock and Dam modernization is good for the environment.
    The project cost for the John T. Myers Auxiliary Lock extension is 
about $182 million, for Greenup about $176 million. Each extension 
could be completed by 2008 if the projects were included in the Water 
Resources Development Act of 2000. The benefit/cost ratio for John T. 
Myers is 1.8, and the benefit/ cost ratio for Greenup is 2.5. It is 
important to note that the Final Interim Report of the Chief of 
Engineers for both lock and dam modernization projects will be 
completed this year. These projects should achieve final reviews and be 
included in this years' WRDA legislation.
    In summary, Mr. Chairman, we urge your leadership in providing 
construction authorization for capital improvements at the John T. 
Myers and Greenup Locks and Dams on the Ohio River, in accordance with 
the recommendations of the US Army Corps of Engineers, its Great Lakes 
and Ohio River Division, and its Louisville and Huntington Districts, 
as contained in their Interim Feasibility Reports for the projects. We 
recommend that you continue with the cost-sharing arrangements for 
these projects as established by the Water Resources Development Act of 
1986. The tax levels on diesel fuel consumed by towboats operating on 
America's inland navigation system are sufficient to fund our 
appropriate share of the costs of lock and dam modernization. The work 
of rebuilding our lock and dam system is serious business, and the 
Federal Government needs to expedite projects already under 
construction in a timely and orderly manner.
    Thank you for the opportunity to present our views on these 
matters.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
    Responses by Barry Palmer to Additional Questions from Senator 
                               Voinovich
    Question 1. As you noted in your testimony feasibility reports will 
be completed this year on lock improvements at J.T. Myers and Greenup 
Locks and these projects will be eligible for authorization in this 
year's WRDA. There are recent allegations that portions of the inland 
transportation system are under utilized and don't realize the benefits 
that were projected. Can you comment on the utilization of these two 
locks?
    Response. In 1999 John T. Myers and Greenup locks and dams handled 
71 and 70 million tons of waterborne freight, respectively. In tonnage 
terms this amount ranks the John T. Myers and Greenup facilities as the 
seventh and eighth most utilized of the Federal Government's 172 
navigation locks.
    Delays typically average less than 1 hour per tow at each lock, 
except for those times when the main chamber is closed due to accidents 
or major maintenance work. Five such events have occurred at Greenup 
and two at John T. Myers in recent years. A 1999 planned main chamber 
maintenance closure at Greenup forced traffic to use the small 
auxiliary chamber for 30 days, causing delays per tow to average 21 
hours, with maximum delays reaching 46 hours per tow. A 19-day, 
unexpected closure the previous year caused tow delays to reach 70 
hours at Greenup. Main chamber closures have also occurred at John T. 
Myers. A 1989 main chamber closure of 44 days caused average delays to 
reach 48 hours per tow and an 11-day closure in 1995 caused average 
delays to reach 11 hours per tow (another closure of John T. Myers is 
scheduled for July 25 through August 4, 2000).
    We recognize the vital importance of this maintenance work and 
appreciate the efforts of the Corps to work with us in scheduling these 
events whenever possible, however, they cannot avoid these closures. 
And they cannot schedule nor prevent accidents. As long as there is a 
small auxiliary lock at these two facilities, any main chamber closure 
will result in costly delays. The extension of the auxiliary lock at 
John T. Myers and Greenup will alleviate for the towing industry and 
our customers the adverse effects that stem from these disruptive 
closures. The benefit of the proposed navigation improvements is easy 
to see in this instance.

    Question 2. The Corps economic analysis of inland transportation 
project improvements has recently been criticized for not adequately 
considering alternative modes of transportation by rail and truck. Can 
you comment on the feasibility of movement of coal and other products 
that are currently moving through the Myers and Greenup locks by 
alternative modes of transportation if these locks are not improved?
    Response. Two points are important to remember. First, the waterway 
system in the Ohio River Basin is an integral part of an intermodal 
transportation system that includes truck, rail, pipeline and 
waterborne carriers operating 365 days a year, 24 hours a day. Second, 
the Corps' regulations require them to consider alternative modes and 
costs when evaluating waterway improvements. Each study includes a 
complete transportation rate analysis that estimates the waterway cost, 
identifies the least cost alternate mode/route, and estimates the cost 
of using that alternate mode for each waterway movement in the Ohio 
River System. This analysis is a key piece of the overall, 
forwardlooking waterway system analysis that they perform.
    Again, the problem being addressed in the Myers/Greenup feasibility 
report is the insufficiency of auxiliary lock capacity during main 
chamber closures. The Corps' analysis verifies what we in the industry 
know to be true: the relatively short-duration closures of the main 
chamber at either the John T. Myers or Greenup projects are very costly 
to towboat operators, shippers, and the nation. These closures initiate 
a series of destabilizing, shipper-specific responses. A transportation 
system that was in balance makes adjustments that include rescheduling 
shipments, moving to alternate routes, swapping shipments above and 
below the affected lock, and continuing to use the lock. These reactive 
measures take time and money to put in-place, and the feasibility of 
implementing any one of them is specific to the circumstances of the 
individual shipper.
    One thing is very clear, whenever the main chamber closes, 
transportation costs will be higher. Trucking and rail companies will 
try to find more equipment by redispatching equipment away from other 
users, waterborne and overland carriers will experience additional 
logistics costs, shippers may well switch production to less efficient 
plants, and towing companies will experience higher operating costs as 
they wait to use the lock. So while feasible alternatives may exist, 
they all come at a higher cost to the nation than the best 
alternative--our inland waterways.

    Question 3. Your testimony indicates that there is more than $370 
million in the Inland Waterways Trust Fund which is the source of 50 
percent of the funding for inland waterway projects. In spite of this 
surplus you indicate that ongoing inland navigation projects are not 
being funded at a rate to achieve efficient construction schedules 
resulting in cost increases and lost benefits. What level of annual 
construction investment is needed for inland waterways? Do we need 
``firewalls'' or similar mechanism that exist in the highway and 
airport trust funds to assure a certain level of annual funding for the 
inland system?
    We believe there are adequate funds in the Inland Waterways Trust 
Fund and projected tax revenue from the 20 cents per gallon levy on 
diesel fuel from towboats operating on America's inland navigation 
system to pay for 50 percent, or one-half, of the cost of currently 
authorized projects (and perhaps Myers and Greenup improvements) during 
this decade. About $250 million--$300 million annually could and should 
be allocated toward lock and dam modernization on America's inland 
navigation system.
    You have rightly identified that monies not appropriated for 
infrastructure investments which return a benefit to the nation's 
economy go for consumption spending. The current amount that is not 
appropriated for inland waterway investment is a raid on the Inland 
Waterways Trust Fund. Our experience has demonstrated that when these 
infrastructure investments are foregone, the tax revenue never returns 
to these programs for investment. While we have no position on the 
mechanism, we do believe that the Congress should guarantee that all 
inland waterway taxes and the general treasury matching funds for 
inland navigation infrastructure investments should be spent.
                               __________
  Statement of Mayor Dannel Malloy, City of Stamford, Connecticut, on 
 Behalf of the National Association of Local Government Environmental 
                         Professionals (NALGEP)
    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Dannel Malloy, Mayor of the City of Stamford, Connecticut, and I am 
pleased to testify today on behalf of the National Association of Local 
Government Environmental Professionals about the critical role of the 
Army Corps of Engineers in the revitalization of America's brownfields.
    My testimony will first explain why the Corps of Engineers' mission 
in brownfields is so important to local communities, why it is 
consistent with the Corps' existing activities and competencies, and 
why an investment by this Congress in the Corps' brownfields mission 
will bring a high return for our citizens and our environment. Second, 
I will describe the need for Corps' brownfields assistance in 
Stamford's own efforts to revitalize its abandoned brownfields in our 
downtown and along our waterfront. I will also describe examples of 
other localities where the Corps of Engineers can play a major, 
positive role in brownfields revitalization that improves the quality 
of our nation's waters. Third, I commend both the Administration and 
Senator Chafee for proposing to enhance the Corps' mission in 
brownfields revitalization, and I suggest elements for successful Corps 
involvement in local brownfields projects.
          background on nalgep and the stamford revitalization
    I am testifying on behalf of both the City of Stamford, and the 
National Association of Local Government Environmental Professionals, 
or ``NALGEP.''
    NALGEP represents local government officials responsible for 
ensuring environmental compliance, and developing and implementing 
environmental policies and programs. NALGEP's membership consists of 
more than 130 local government entities throughout the United States 
and includes many innovative communities, such as Columbus and Cuyahoga 
County, Ohio; Rochester and Glen Cove, New York; Richmond, Virginia; 
Kansas City, Missouri; Las Vegas, Nevada; Enid, Oklahoma; Casper, 
Wyoming; Miami and 18 other cities and counties in Florida; and 
Stamford, to name a few.
    In 1995, NALGEP initiated a brownfields project to determine local 
government views on national brownfields initiatives such as the EPA 
Brownfields Action Agenda. The NALGEP Brownfields Project culminated in 
a report, entitled Building a Brownfields Partnership from the Ground 
Up: Local Government Views on the Value and Promise of National 
Brownfields Initiatives, which was issued in February, 1997.
    During the past few years, NALGEP has continued its work on 
brownfields through coordinating work groups of local officials to 
address the following issues: (1) Brownfields Cleanup Revolving Loan 
Funds; (2) use of HUD Community Development Block Grants for 
brownfields; (3) partnerships between business and local government 
officials to reduce sprawl and promote smart growth; (4) brownfield 
training and education needs for localities; and (5) the 
Administration's Brownfields Showcase Community initiative. Local 
officials have testified on brownfields on behalf of NALGEP several 
times before this Committee and other Senate and House committees.
    As a result of these efforts, NALGEP is well qualified to provide 
the Committee with a representative view of how local governments, and 
their environmental and development professionals, believe the Nation 
must move ahead to create long-term success in the revitalization of 
brownfields properties.
    The City of Stamford is located on Long Island Sound, just 35 miles 
from New York City. Its diverse population consists of 111,000 people. 
Stamford has a strong corporate base with four corporations from the 
Fortune 500 and 13 Fortune 1000 corporations headquartered in Stamford. 
While Stamford is an old industrial city, settled in 1641, most of the 
historic manufacturing companies have left Stamford, leaving behind 
their contaminated industrial sites. In 1998, the City of Stamford 
became one of 16 communities nationwide to be designated a Brownfields 
Showcase Community. Showcase Communities are models of brownfields 
innovation, demonstrating how Federal agency resources can be leveraged 
together with state, local, and private sector investments to assess, 
clean up, and redevelop brownfields into high-quality communities.
    Stamford has launched two major revitalization initiatives with the 
assistance of the Corps of Engineers. Along Stamford's harbor front in 
the south part of the City, we are cleaning up long-abandoned 
brownfields and creating new manufacturing, housing, and recreational 
areas for a part of the community that has a 71 percent minority 
population with 25 percent living below the poverty line.
    One project now underway on the waterfront is the new Southfield 
Harbor Residential Community, located at a contaminated former 
shipbuilding plant and fuel deport adjacent to a City park. This 
waterfront development project will consist of approximately 320 rental 
apartment units, a 68-slip marina, and a publicly accessible 
harborwalk. The development will bring over $50 million of private 
investment and is expected to generate 100-200 construction jobs and 12 
full-time permanent jobs. This development is cleaning up a former 
industrial site, creating housing, and opening up this waterfront to 
City residents for the first time in more than 60 years.
    In addition, Stamford has launched a major initiative to revitalize 
the Mill River Corridor into a vital mixed-use district surrounding a 
new linear park along the river, which runs through the central city. 
The Mill River Corridor initiative is the centerpiece of Stamford's 
plans to create a vibrant urban center with a high quality of life 
where citizens will want to live, work, and play. Stamford views the 
revitalization of the Corridor as critical to the City's economic 
health in the 215 century. The Corridor will help attract new business, 
thereby creating thousands of new jobs. Moreover, the City's plans to 
build new affordable housing along the River is essential to ensuring 
that the City has a diverse base of workers with different skill levels 
who can fill the jobs of the new economy. The City's plan calls for: 
the creation of a new center city park in the core of downtown 
Stamford; a linear park along the river with trails for walking, 
running, and biking; 900 new units of mixed-income housing in 
residential neighborhoods surrounding the park; and new commercial 
mixed-used development to anchor both ends of the corridor. The City 
has already established a master plan for redevelopment, and made a 
substantial local investment in the Mill River Corridor project, 
including nearly $2 million of local funds for land acquisition and 
planning, with an additional $1.2 million requested in this year's 
budget.
    The Army Corps of Engineers is a critical partner in Stamford's 
harbor front and Mill River revitalization initiatives. At the 
waterfront, cleanup and redevelopment of these brownfields are hindered 
by the need for further environmental assessment, ecosystem 
restoration, harbor dredging, and other activities for which the Corps 
is well suited. At Mill River, Stamford needs assistance in a 
hydrologic study of the river in order to remedy recurring siltation, 
improve water flow, and reconfigure the flood storage area. The Corps 
could also play a valuable role in dredging, identifying and 
remediating any environmental contamination in and around the Mill 
River, and helping to restore the aquatic ecosystem. Stamford has 
engaged with the Corps on these issues already, and the agency is 
conducting a reconnaissance study to help Stamford to overcome these 
hurdles to our community revitalization. With the Corps' broad 
expertise across hydrologic, environmental, and community development 
issues, it can be an ideal partner to the City of Stamford.
     the value of the corps in community brownfields revitalization
    The Corps of Engineers can be a valuable partner in community 
brownfields revitalization because it provides services that are needed 
by local governments; a brownfields mission is consistent with the 
Corps' existing activities and competencies; and the return on a Corps 
brownfields investment will be high.
    First, the Corps involvement in brownfields will meet an urgent 
community need. As this Committee well knows, the cleanup and 
revitalization of brownfields has become a top priority for American 
communities. There may be as many as 500,000 brownfields that are 
draining our established localities of vitality, threatening the public 
health and environment, and thwarting the expansion of local economies, 
jobs, and tax base. The costs of site assessment and remediation can 
create a significant barrier to the redevelopment of brownfields sites. 
In particular, the costs of site assessment can pose an initial 
obstacle that drives development away from brownfields sites. With this 
initial obstacle removed, localities are much better able to put sites 
into a development track. In addition, the allocation of public 
resources for site assessment can provide a signal to the development 
community that the public sector is serious about resolving liability 
issues at a site and putting it back into productive reuse. Likewise, 
resources for cleanup are the missing link for many brownfield sites--a 
link that keeps brownfields from being redeveloped into productive 
areas in many communities.
    NALGEP and other organizations, like the United States Conference 
of Mayors, have identified brownfields revitalization as an important 
national need, and an area proper for Federal involvement. This 
Committee also has recognized the need for the Federal Government to 
promote brownfields cleanup through new law, new resources, and new 
liability clarification tools for the states. I can assure you that 
brownfields revitalization in Stamford represents one of my top 
priorities, and the key to many of our housing, economic development, 
and quality of life needs.
    The local need for brownfields assistance is particularly important 
along the waterways of our cities. River fronts, harbor fronts, and 
lake fronts in many local communities hold the legacy of our industrial 
heritage and the contamination left behind by these activities. So too, 
the revitalization of our waterways with commercial, residential, and 
greenspace development represents the key to the future revitalization 
of many American communities. Waterway brownfields redevelopment also 
poses a unique set of challenges for communities. The difficult issues 
of water quality improvement, ecosystem protection, flooding and 
runoff, toxic contamination, and hydrologic engineering make the Corps' 
expertise in cleanup along the nation's waterways particularly 
important.
    The second reason that Corps' involvement is brownfields 
revitalization is appropriate is that it is consistent with the 
existing mission, activities, and competencies of the Army Corps. 
Addressing contamination that could negatively impact the nation's 
waters is a natural and appropriate part of the Corps' established 
environmental mission. The Corps of Engineers is successfully cleaning 
up brownfields in dozens of American communities already, under 
authorities including the Section 206 ecosystem restoration program, 
the Section 205 environmental dredging authority, the range of flood 
control and streambank erosion programs, and targeted planning and site 
assessment activities. The Corps is also working closely with the U.S. 
Environmental Protection Agency to target Federal assistance for 
brownfields restoration. The Corps has signed a Memorandum of 
Understanding with EPA to foster interagency brownfields cooperation, 
supported a number of Brownfields Showcase Communities, and placed 
personnel at the local level to coordinate local brownfields efforts. 
Indeed, according to the Corps of Engineers, the agency is facilitating 
brownfields revitalization in more than 50 local projects nationwide. 
Although there is a critical need for clearer brownfields authority for 
Corps' involvement in this area, and a dire need for additional 
brownfields resources, the Corps' existing work demonstrates a track 
record of real success and value for American communities.
    A third reason that the Corps' role in local brownfields 
revitalization is valuable and appropriate is that this investment of 
Federal resources will yield a high return for America's local 
communities, its citizens, and our environment. Local communities have 
an opportunity to work in partnership with the Corps and other public 
and private partners to acquire valuable lands, remove the barrier of 
environmental contamination, and rebuild vibrant neighborhoods, centers 
of commerce, urban parks and recreational areas, and high-quality 
communities. Removing the barrier of contamination from our waterfront 
brownfields can help create jobs, leverage private sector resources, 
expand the tax base, reverse urban deterioration, protect health and 
public safety, slow the sprawling of our metropolitan regions, and keep 
our communities livable.
    On behalf of the many local communities that believe that the Corps 
has a constructive role to play in local brownfields revitalization, I 
encourage you to support and expand the Corps' activities in 
brownfields by creating a clear authority, and new resources, for a 
Corps brownfields mission.
  local examples of the value of, and need for, the corps brownfields 
                                mission
    There are a growing number of local examples where the Corps' role 
in brownfields is making a valuable difference. There are also a 
growing number of localities that need the Corps' assistance to deal 
with tough environmental challenges along our community waterways. In 
addition to the harbor front and Mill River projects in Stamford I have 
already described, I wish to highlight a few other examples:
    Kansas City, Kansas and Missouri--In Kansas City, Missouri and 
Kansas, the Corps has partnered on multiple local flood reduction 
studies and construction projects that have helped to revitalize 
contaminated brownfields. The Corps has provided general technical 
assistance in geographic information system (GIS) development for a 
brownfields site inventory that will allow the community to integrate 
local, state, and Federal graphical representations of properties, land 
use, and economic incentives. The Corps has also designed a riverfront 
heritage trail, which will use bike and pedestrian facilities to link 
redeveloped brownfield sites.
    In addition, the Corps has worked on specific projects, such as the 
Blue River Rechannelization Project, which is a major flood reduction 
project well along in the construction phase; and the Turkey Creek 
Project, which is now in design. The Corps of Engineers is also 
exploring the use of WRDA Section 1135 to support the restoration of a 
5 acre parcel of a degraded ecosystem at the Riverfront West site into 
a less degraded, more natural condition. These brownfields areas lie in 
flood plains and/or have been severely impacted during past flood 
events in Kansas City. By mitigating the potential of future 
catastrophic flood events, the Corps' ongoing flood reduction studies 
and projects will have a major positive impact on the economic 
viability and redevelopment potential of these brownfields areas.
    Glen Cove, New York--The Corps of Engineers has played a key role 
in the revitalization of a Superfund site and brownfields on the 
waterfront of Glen Cove, New York. Located on the north shore of Long 
Island, Glen Cove has ten miles of beautiful waterfront, three public 
beaches, 300 square acres of nature preserves, and historical mansions 
built by some of America's wealthiest business leaders. One mile of 
that waterfront is a toxic Superfund dump and brownfield site. A World 
War II era munitions plant, the Li Tungsten plant, contaminated the 
site with low-level radioactive waste. This contamination included the 
dumping of radioactive and hazardous waste at an adjacent site that 
once was a municipal dump, which is now part of the Superfund site. For 
many years, the Li Tungsten plant was a productive part of the 
community and economy. Today, Li Tungsten has no jobs, provides no 
taxes, and it no longer contributes anything to the community. The site 
stands dangerous, polluted, and abandoned.
    However, with the assistance of the Corps of Engineers, Glen Cove 
is successfully cleaning up this waterfront site, and is preparing to 
establish a premier tourist destination with a waterfront hotel and 
conference center, high speed ferry to Manhattan and other 
destinations, and a vibrant mixed-use retail center.
    The Corps has supported this project with environmental assessment, 
dredging and channel reconstruction of the Glen Cove Creek and Mill 
Pond. The Corps has also played a key role in a study of infrastructure 
and greenspace improvements that will make this a high quality 
development that protects the water quality of the community. Moreover, 
the Corps' assistance helped Glen Cove to leverage an additional $1 1 
million in Department of Transportation funding to implement these 
infrastructure and greenspace improvements.
    Cleveland and Cuyahoga County, Ohio--In the Chairman's community of 
Cleveland and Cuyahoga County, one of the nation's leading brownfields 
communities, there are a number of brownfields sites along the Cuyahoga 
River and other water sources where the Corps of Engineers, Buffalo 
District could play a valuable role. For instance, the Abrams Creek 
area near the Cleveland airport will need to be assessed for 
environmental contamination and potentially cleaned up to support 
airport expansion and economic development in the area.
    Providence, Rhode Island--In Providence, another Brownfields 
Showcase Community, the Corps has helped advance the Woonasquatucket 
River Greenway Project, which is a planned 4.4 mile greenway park and 
bicycle and pedestrian path that will include commercial and 
recreational developments. The Corps has assisted this project, which 
must overcome the problem of contamination along the riverside 
properties, by helping Providence to use computer visualization and 
landscape simulation technologies to plan and design the initiative.
    Des Moines, Iowa--The City of Des Moines is engaged in a cost-
sharing agreement with the Corps of Engineers to conduct a flood damage 
prevention survey of the Des Moines and Raccoon Rivers. Riverpoint West 
is a 300-acre site on the north side of the Raccoon River, immediately 
adjacent to the Des Moines Central Business District. Des Moines has 
launched an initiative to clean up and revitalize the Riverpoint West 
area, which is slated for a mixed-use urban village with approximately 
1,000 residential units, 850,000 square feet of office and retail 
space, and substantial environmental and recreational improvements. 
Riverpoint West was badly flooded in 1993, and also suffers from 
significant environmental contamination challenges. Although a new 
levee constructed by the Corps of Engineers after the 1993 floods will 
help prevent future flooding, more needs to be done to protect this 
area. Des Moines is seeking to work with the Corps to conduct 
additional activities at this brownfield redevelopment site, including 
environmental site assessment and the restoration of green space, 
flora, wildlife management, aquatic and other site infrastructure.
    East Palo Alto, California--East Palo Alto is a small community of 
25,000 people that has never enjoyed the economic prosperity of its 
neighboring communities in Silicon Valley. The City has the highest 
levels of unemployment and poverty and lowest median income in San 
MateoCounty. In addition, the City has struggled hard to significantly 
reduce its crime rate, which was one of the highest in the Nation in 
the early 1990's.
    However, the City is moving forward to revitalize the community by 
cleaning up and redeveloping abandoned brownfield areas. The focus of 
East Palo Alto's effort is the Ravenswood Industrial Area and the 
adjacent Four Corners redevelopment area, totaling approximately 135 
acres. The City has developed a strategic plan and design for this 
area, which will be a mixed-use development and employment center with 
up to 2 million square feet of commercial and high-technology offices 
and light manufacturing. New, medium-density housing is also planned 
nearby. The City will seek to promote the location of environmentally 
sensitive businesses, the use of green building practices, and 
development that enhances and protects the beauty of adjacent resources 
such as San Francisco Bay, wetlands, and open space areas. The Four 
Corners portion is slated for the establishment of a new Town Square 
area including government buildings, civic space, and commercial 
establishments. The City expects that redevelopment of the entire 
Ravenswood Industrial Area will create 4,000 new jobs and generate more 
than $1 million per year in new tax revenues.
    East Palo Alto needs the Corps of Engineers' help to succeed in its 
Ravenswood revitalization initiative. East Palo Alto seeks to continue 
its cooperation with the Corps to assess and clean up environmental 
contamination. In addition, the Ravenswood area has experienced severe 
flooding from the adjacent San Francisco Bay, making flood damage 
prevention a top priority. In addition, East Palo Alto needs assistance 
in the construction of drainage, sewage, and other environmental 
infrastructure. Moreover, the Corps could assist East Palo Alto to 
protect and restore the ecosystem of the area, which includes wetlands 
and other significant natural areas, as well as the challenges of 
brownfields contamination.
    suggested elements of effective corps involvement in brownfields
    We understand that Congress is considering how a Corps of Engineers 
brownfields authority could be established, both under the 
Administration's WRDA 2000 proposal, and under Senator Chafee's S. 2335 
bill, the State and Local Brownfields Revitalization Act of 2000. 
NALGEP commends you for showing leadership on these important 
brownfields issues, and encourages you to ensure that the Corps' 
brownfields authority understands and meets the needs of local 
governments, including:
    1. NALGEP supports an approach that requires the Corps of Engineers 
to closely consult with appropriate local, state, regional, and Federal 
officials in the design and implementation of these local brownfields 
projects.
    2. NALGEP supports an approach that requires the Corps to take into 
consideration how the project will improve public health and the 
environment, encourage redevelopment of areas with existing 
infrastructure, and promote the creation or enhancement of parks, 
greenways, and recreational areas.
    3. NALGEP supports the approach of allowing local partners to meet 
their required non-Federal share of Corps brownfields projects by 
taking into account the value of land, easements, right-of-ways, and 
relocations associated with the project, as well as the value of 
assessment and remediation previously carried out by the local partner 
at the site. Land acquisition and site activity are typical, 
appropriate functions carried out by local governments, and should be 
credited toward the cost-share requirements of Corps involvement at 
these projects.
    4. NALGEP encourages an approach that reduces the required local 
cost share for those communities who have a limited ability to pay, or 
are suffering from economic distress.
    5. NALGEP also encourages Congress to clearly specify what type of 
environmental cleanup standards will apply to Corps cleanups of local 
brownfields sites, by stating that a new brownfields authority does not 
waive or limit otherwise applicable laws governing cleanups.
    6. Finally, NALGEP encourages Congress to authorize a sufficient 
level of annual resources to allow the Corps of Engineers to meet the 
large local needs for brownfields resources and assistance.
                               conclusion
    In conclusion, NALGEP and the City of Stamford encourage Congress 
to move ahead to make the Corps' brownfields mission a part of your 
overall strategy to strengthen and empower local communities to create 
environmental quality, economic vitality, and Federal-local 
cooperation. The involvement of the Corps in brownfields revitalization 
is needed at the local level, is consistent with the Corps' existing 
mission and competencies, and will bring a high return on American 
investment. Thank you for your consideration. This concludes my 
testimony.
                               __________
   Statement of Howard D. Marlowe, President of the American Coastal 
                               Coalition
    Chairman Voinovich and members of the Subcommittee, I am Howard 
Marlowe, President of the American Coastal Coalition. The ACC is a 
nationwide advocacy organization for coastal communities whose sole 
mission is to achieve policies that will promote the economic and 
environmental interests of coastal communities. On behalf of the ACC, 
thank you for this opportunity to testify.
    Since our establishment in 1996, our major focus has been on 
Federal policies that affect beach restoration. As you know, the 
Administration announced in 1995 that it would not support the 
authorization or funding of any beach nourishment projects which it 
deemed to be new starts. The Senate Environment and Public Works 
Committee and its House counterpart acted with force and clarity to 
reject the Administration's position when they adopted Section 227 of 
the Water Resources Development Act of 1996. That section, which we 
refer to as the National Shore Protection Act of 1996, declared it to 
be national policy that the Secretary of the Army should:

    <bullet>  Recommend potential shore protection projects for study 
by the Army Corps of Engineers;
    <bullet>  Recommend projects for congressional authorization to 
receive construction funds; and
    <bullet>  Recommend funding for shore protection project studies 
and construction.

    To this day, the Army Corps of Engineers has published no guidance 
on implementing Section 227 because of strong opposition from the White 
House Office of Management and Budget. Members of Congress and interest 
groups such as the American Coastal Coalition spent months negotiating 
a solution to OMB's concerns about what it claims is the excessive 
long-term cost of beach nourishment projects. The result of those talks 
was the adoption in the Water Resources Development Act of 1999 of a 
major change in the cost-sharing formula for newly authorized shore 
protection projects. That change will have non-Federal sponsors paying 
an increased share of those long-term renourishment costs. At the time 
the Senate Environment and Public Works Committee was considering that 
change, Dr. Joseph Westphal responded to your questions that the cost-
sharing formula being considered by the Committee would result in a 
change in the Administration's no-new-shore-protection projects policy. 
Apparently, he was not speaking for the Administration because (a) the 
President in effect proposed no funding for new beach restoration 
projects in his Fiscal 2001 budget recommendations, and (b) there is 
not a single new beach nourishment study or authorization contained in 
the Administration's WRDA 2000 proposal.
    Mr. Chairman, the Administration's shore protection policy is bad 
for the national economy and the national environment. Furthermore, 
OMB's dealings with Congress on this subject have been characterized by 
an array of tactics ranging from falsehoods to bad faith. In WRDA 2000, 
OMB has taken their commitment to ignoring the will of Congress to new 
lows by failing to recognize the need for authorizing new shore 
protection projects and studies and by recommending an automatic de-
authorization process that would have an especially harmful impact on 
existing and future shore protection projects.
Background
    According to the U.S. Census Bureau, 54 percent of America's 
population lives within 50 miles of the coast. That number is growing 
by 3600 people a day! Millions more Americans and foreign tourists 
visit coastal communities in the warmer months. The primary attraction 
for both residents and visitors is the beach. In fact, America's 
beaches are its single biggest tourist attraction. They are also the 
source of billions of dollars of local, state and national tax 
revenues. From t-shirt vendors to banks, airlines, Realtors, and 
hotels, the beach is a major source of revenues and jobs. Beaches are 
also a unique part of America's environmental infrastructure. The sand 
that is so beautiful is also the home of many coastal animals, birds, 
and plant species. Beaches are also the best protection against wave 
damage caused by coastal storms.
    From 1955 to 1995, the Federal Government spent an average of less 
than $30 million a year to help states and local communities restore 
their public beaches. That is less than the cost of a modest-sized 
Federal highway interchange! Since 1995, this figure has increased to 
just over $85 million or three highway interchanges. That $85 million 
is out of a $4 billion budget for the entire civil works program of the 
Army Corps of Engineers.
    Beaches play an extremely important role in the economic and 
environmental infrastructure of the United States. First, beaches are 
an integral part of America's coastal infrastructure. The immense 
natural resources of the nation's coastal regions are responsible for a 
significant amount of commercial activity. In 1993, the U.S. commercial 
fishing industry produced and marketing products valued at $10.8 
billion. Saltwater recreational anglers generated $15 billion from 64 
million fishing trips. In 1990, 2.15 billion tons of cargo valued at 
more than $500 billion moved through the nation's 190 seaports.
    In 1997, total tourism expenditures in U.S. coastal congressional 
districts were more than $185 billion, while tourism payroll was almost 
$50 million and tourism jobs in these districts were more than 2.7 
million. Beaches and coastal regions are not only the Number One 
destinations for domestic tourists. They also are the top destinations 
for foreign tourists. Each year, the Federal Government receives about 
$4 billion in taxes from foreign tourists, while state and local 
governments receive another $3.5 billion. Foreign tourists spent more 
than $11 billion in Florida in 1992, $2 billion of that amount in the 
Miami Beach area alone. This Florida spending generates more than $750 
million in Federal tax revenues, more than the total received by the 
State and its local governments combined. Focusing on Miami Beach 
alone, annual Federal tax revenues from foreign tourists ($2 billion) 
are about 17 times more than the Federal Government spent on the entire 
Federal Shore Protection program from 1950 to 1993 ($34 million in 1993 
dollars). If the Federal share of beach nourishment averages about $10 
million a year, the Federal Government collects about 75 times more in 
taxes from foreign tourists in Florida than it spends restoring that 
State's beaches.
    In 1998, California's beaches generated $73 billion of direct and 
indirect benefits to the national economy. The Federal tax revenue 
portion of those benefits alone was $14 billion compared to far less 
than half a million dollars that the Federal Government spent on beach 
nourishment in that state during 1998!
    Delaware receives 5.1 million ``person trips'' each year in a state 
where just more than 21,000 people actually live in beach communities 
and another 373,000 people live within day-use travel distance. Beach 
tourism generates $173.2 million in expenditures each year. Just as 
significant, beach erosion results in an estimated loss of more than 
471,000 visitor days a year, a figure which is estimated to increase to 
more than 516,000 after 5 years. During that 5-year period, beach 
erosion will cost an estimated $30.2 million in consumer expenditures, 
the loss of 625 beach area jobs, and the reduction of wages and 
salaries by $11.5 million. Business profits will drop by $1.6 million 
and State and local tax revenues will decrease by $2.3 million. 
Finally, beach erosion will reduce beach area property values by nearly 
$43 million over the 5-year period.
    Our nation's estuaries are also major tourist and recreational 
attractions. For example, nature tourism in Corpus Christi, Texas is 
the fastest growing component of a tourism sector that generates $23 
billion annually. Recreational fishing provides aggregate net benefits 
to the area of $83 million, including $37 million per year in state and 
local taxes. The economic impact of water quality-dependent uses in 
Long Island Sound is estimated at more than $5 billion annually. 
Commercial andpara.recreational fishing contributed more than $1.2 
billion of the total, while beach going has a direct benefit of more 
than $800 million annually.
National Shoreline Study
    At a recent hearing of this Subcommittee, the Coastal States 
Organization highlighted the importance of the National Shoreline Study 
authorized by WRDA 1999. That study will not only provide the first 
physical catalog in 30 years of the beaches in the United States that 
eroding, it will also show the economic and environmental costs of 
erosion to the nation. The ACC fully supports funding the National 
Shoreline Study. However, we regret that the Administration apparently 
is using the fact that this study has yet to be completed as an excuse 
not to recommend the authorization or funding of any new beach 
restoration projects. It is especially hard to take this excuse with 
any seriousness when we look at the paltry $300,000 appropriation for 
this study recommended by the Administration. That figure less than 
one-third of the amount of money needed in Fiscal 2001 to mount an 
effective study.
Facts vs. Falsehoods
    Given their popularity, economic and environmental importance, and 
their storm damage reduction benefits, it is surprising that beaches 
and the communities along the coast are a perpetual target for media 
attacks. ``Playgrounds for the Rich.'' ``Disasters Waiting to Happen.'' 
It's time to see how these falsehoods fair against the facts.
    <bullet>  Falsehood: The Federal Flood Insurance Program pays out 
more in benefits to coastal homeowners than it receives in insurance 
premiums. Fact: Homeowners in coastal states annually pay in at least 
20 percent more in premiums than they receive in flood insurance 
payments.
    <bullet>  Falsehood: Tens of billions of dollars are being spent in 
the ``endless'' and ``useless'' struggle to restore eroded beaches. 
Fact: Over the past 45 years, the Federal Government has spent a total 
of less than $2 billion on beach restoration. That's about $30 million 
a year. Maintaining our country's beaches is an ongoing effort, but it 
is far from useless. Studies have shown that every dollar spent to 
repair and maintain a beach produces at a very minimum $3 to $5 in 
taxpayer benefits.
    <bullet>  Falsehood: Spending taxpayer money on beach restoration 
is a subsidy for rich people. Fact: This class-baiting rhetoric is 
especially pernicious. Social scientists have studied America's 
beaches. They have found what any of us can conclude with our own eyes: 
With the exception of shopping malls, sandy beaches attract the most 
diverse economic, ethnic and racial populations. There is no denying 
that many of the homes located nearest to any of America's coastlines 
are owned by families with above-average incomes. But the only beaches 
that can receive Federal or state money are public beaches with public 
access.
    <bullet>  Falsehood: Beach restoration efforts are useless. The 
better approach is to ``let nature take its course.'' Fact: Since the 
arrival of the first non-Native Americans, humans have built 
communities and ports along the coast. Ports, navigation channels, and 
similar development have been an essential ingredient of the economic 
vitality of America. That development has interfered with the natural 
flow of sand, causing most of the beach erosion in the U.S. There is no 
way to ``let nature take its course'' without reversing the events of 
the past three centuries.
    Mr. Chairman, there are vocal groups who choose to ignore these 
facts in order to press their case that Federal tax dollars should not 
be spent on beach restoration. They have found an ally in the White 
House Office of Management and Budget. They would implement a 
purposeful policy of neglect of America's eroding coastline. None of 
these people would consider for a moment a policy of even benign 
neglect of an endangered species or a wildlife refuge. But their ``back 
to nature'' appeal is little more than proposing a policy of malignant 
neglect. By taking this position, they are threatening irreparable harm 
to an extremely important economic and environmental national asset.
    The American Coastal Coalition as well as most local coastal 
governments and private citizens want to restore America's eroded 
beaches and preserve the peoples' opportunity to use this outstanding 
environmental resource. Our preferred approach to accomplish this goal 
is to replenish the sand that has been lost because of 300 years of 
human intervention along the coast. This approach costs money, but it 
is far preferable to the cheaper alternative of building seawalls to 
protect coastal property. OMB and its fringe group allies can continue 
to attack coastal communities or they can join with us in supporting 
attainable policies that will repair the damage and encourage 
responsible growth. Calling for the clock to be turned back three 
centuries is neither responsible nor attainable.
Section 16 of the Administration's WRDA 2000 Proposal
    The Administration's proposal for the Water Resources Development 
Act of 2000 contains a provision (Section 16) that would have the 
following impact:
    First, if construction of a water resources development project or 
separable element is not initiated within 7 years from the date the 
project or separable element was last authorized it would automatically 
become deauthorized.
    Second, those water resources development projects and any 
separable element of such a project, for which funds have once been 
obligated for construction, shall be de-authorized if congressionally 
identified appropriations have not been obligated for construction of 
the project or separable element during any five consecutive fiscal 
years.
    Currently, it takes 1 to 2 years to get a beach nourishment 
project's reconnaissance study authorized and funded; another year to 
have the study completed; another year to get the feasibility study 
funded; 2 to 3 years to get that study completed; another year to get 
the project authorized. At this point, the clock would start running 
under the Administration's proposal.
    In theory, a project ought to be able to get under construction 
within 7 years of authorization. For example, if a project is 
authorized in 2000, it should be able to get funding for actual 
construction by 2002, with environmental windows possibly holding up 
actual construction until 2003. But, most of those beach nourishment 
projects that are up for actual construction funds in fiscal year 2001 
to 2002 were authorized in the 1980's! We believe that Corps procedures 
have undergone some improvement in recent years, but many beach 
nourishment projects authorized in 1992 and 1996 [projects can only be 
authorized in years in which Congress enacts a Water Resources 
Development Act] are not likely to get construction funds until fiscal 
year 2003 or later. While the Corps needs to do better, Corps 
procedures and the Administration's refusal to budget for new beach 
nourishment projects have been significant factors in slowing down the 
time it takes to get from authorization to construction. Until the 
Administration is willing to budget for the construction of shore 
protection projects and Corps procedures improve, the 7-year automatic 
de-authorization provision may harm shore protection that are needed 
and that, by all measures, are viable.
    Every authorized Federal beach nourishment project has an economic 
life of up to 50 years. Over that life, the authorization provides for 
periodic renourishment. If the project ``performs'' well, the period 
between initial construction and the first periodic renourishment may 
be longer than the 5 years allowed by the Administration's proposal. 
The same may be true for the time period between subsequent periodic 
renourishments. That ``good performance'' would be rewarded with an 
automatic deauthorization! This is one Seal of Approval from the Feds 
that local communities don't need. Once again, the Administration's 
refusal to budget for the funding of any activity related to a beach 
nourishment project that it did not recommend in the first place also 
can hold up congressional funding for periodic renourishment.
    The American Coastal Coalition opposes Section 16 and strongly 
urges that it not be included in this Committee's WRDA 2000 bill. We 
see this proposal as another in the Administration's efforts to kill 
the Federal beach restoration program.
WRDA 2000 Policy Changes
    There are a number of changes that can be made which will improve 
the effectiveness and efficiency of the Federal beach restoration 
program. I will summarize three of these and then emphasize a fourth 
which is actually tops on the legislative agenda of the America Coastal 
Coalition.
    Congress in WRDA 1999 has already called on non-Federal sponsors to 
shoulder a greater share of the costs of beach nourishment projects. 
Two states, New Jersey and Florida, have increased the dedicated funds 
they already had in place for these projects. Texas, California, and 
Hawaii each appropriated significant sums last year for their state's 
beach nourishment efforts. The ACC believes that more coastal states 
must make long-term commitments to fund their share of these projects.
    In many areas of the country, beach erosion has either been caused 
or exacerbated by other Federal activities, such as navigation and port 
maintenance projects. The solution is not to assign blame, but for the 
Federal Government to assume its statutory responsibility to mitigate 
the damages to beaches which these projects have caused. Unfortunately, 
there are far too many instances where the Corps of Engineers has tried 
in recent years to deny that responsibility.
    On the other hand, we applaud the Corps for efforts it is making to 
approach its coastal missions in a regionalized, integrated manner. For 
Fiscal 2000, Congress funded a regional sediment management program 
within the jurisdiction of the South Atlantic Division and the Mobile 
District Offices of the Corps which is an important effort to integrate 
the planning and execution of navigation and beach restoration 
projects. We hope that Congress will appropriate funds to begin similar 
efforts in other parts of the country in Fiscal 2001. The ACC also 
welcomes the efforts of the San Francisco Division of the Corps to 
establish a task force that puts the Corps, state agencies, local 
governments, and other interests together in a concerted effort to plan 
for the combined coastal water resources needs within its jurisdiction.
Recreation is Not a Four-Letter Word
    There is at least one statutory initiative that can be undertaken 
in WRDA 2000 that will have a major benefit for the Federal beach 
restoration program. The American Coastal Coalition proposes that 
recreational benefits be given equal consideration with storm damage 
reduction and environmental restoration nefits in the all-important 
calculation of a project's estimated benefit-cost ratio.
    During the ``study'' phase of a beach erosion control project, the 
Army Corps of Engineers develops a plan which maximizes net national 
economic development (NED) benefits. An essential element of this plan 
is the formulation of a benefit-cost ratio (BCR). Under current budget 
policies, the Corps will not recommend the construction of any project 
whose benefits do not exceed its costs. Costs are determined by the 
outlays required to provide initial project construction and periodic 
renourishment over the life of the project. Benefits are those which 
increase the economic value of the national output of goods and 
services.
    Corps policy requires that at least 50 percent of the cost of the 
project be covered by storm damage reduction benefits. An equal amount 
of recreation benefits can be used for project justification as long as 
the recreation benefits are incidental, i.e., no additional material is 
added to accommodate recreation. ``Shore protection projects 
(particularly those featuring beachfill) are innately conducive to 
beach and shoreline recreational activities. Provided that hurricane 
and storm damage reduction benefits combined with incidentally 
generated recreation benefits limited to an amount equal to hurricane 
and storm damage reduction benefits are sufficient in themselves for 
economic justification, the Corps will propose undertaking the project 
as a HSDR project....If, in this limiting initial evaluation, a greater 
amount of recreation benefits is required to be combined with hurricane 
and storm damage reduction benefits in order to demonstrate the 
economic justification, the project is characterized as being primarily 
for recreation. As such, it will not be proposed by the Corps as a 
Federal undertaking, since recreational developments are not accorded 
priority in Civil Works decisions.'' (Emphasis added)
    There is no statutory authority for this decision by the Corps of 
Engineers to accord recreation a lower priority in its decisions 
regarding which beach restoration projects should be recommended for 
Federal authorization. This was a policy decision made by various 
executive branch entities in the mid-1980's. Whatever the basis for 
their decision, we urge this Committee to require that projects whose 
primary benefit is recreational be accorded the same budgetary priority 
as those whose primary benefit is storm damage reduction or 
environmental restoration. The 1946 law which gave the Corps authority 
to do beach restoration work states:
    ``With the purpose of preventing damage to the shores and beaches 
of the United States, its Territories and possessions and promoting and 
encouraging the healthful recreation of the people, it is declared to 
be the policy of the United States....to promote shore protection 
projects and related research that encourage the protection, 
restoration, and enhancement of sandy beaches, including beach 
restoration and periodic beach nourishment, on a comprehensive and 
coordinated basis by the Federal Government, States, localities, and 
private enterprises.'' (emphasis added)
    Federal policy should base beach nourishment assistance on the 
totality of the economic benefits it provides. To limit those benefits 
to storm damage reduction ignores the equally important economic impact 
of beach tourism, eco-tourism, recreational fishing, and other similar 
benefits.
    Prior to the 1986 law, beach restoration projects were often 
justified as recreational projects. These included major projects such 
as Miami Beach which, prior to its restoration in the late 1970's, had 
a seriously eroded beach which had resulted in a significant loss of 
revenue from tourism. The restoration of this ``recreational'' beach 
has produced billions of dollars of local, state, and national economic 
benefits which far exceed the cost of this project.
    Beaches are public parks that are part of the coastal 
infrastructure and environment. They provide recreational, storm damage 
reduction, and environmental benefits. The focus of Federal policy 
should be to restore and maintain these parks so that the public can 
use them.
    There are regions of the country (for example, the Gulf Coast 
states and Hawaii, among others) where coastlines are less developed. 
The distribution of Federal beach restoration funds is less likely to 
go to these areas because their proposed projects do not achieve a 
benefit/cost ratio that is equal to or greater than 1:1. Proposed 
projects in more-developed areas typically have no difficulty achieving 
a BCR of greater than 1:1. Neither the Army Corps of Engineers nor 
Congress favors Federal financial assistance for projects whose BCR is 
1:1 or less.
    Similarly, since ``budget policy'' as implemented by Corps of 
Engineers regulations has determined that the beach restoration program 
is one whose primary purpose is hurricane and storm damage reduction, 
it provides no assistance to public beaches (even those that are well-
developed, such as Waikiki), where there is not a significant history 
of severe coastal storms. Much of the beach erosion throughout the 
United States is caused by the interruption of normal sand flow by 
various human-induced factors such as ports and navigation channels as 
well as dams. These facilities interrupt the natural flow of sand, 
making it difficult if not impossible for nature to repair eroded 
beaches. As noted above, the underlying Federal law states that the 
basis of Federal financial assistance should be ``preventing damage to 
the shores and beaches of the United States, its Territories and 
possessions and promoting and encouraging the healthful recreation of 
the people.'' These are the only statutory purposes determined by 
Congress which support the Federal role in beach nourishment, and they 
should not be modified by either Corps of Engineers or Administration 
policies.
    Therefore, Mr. Chairman, the American Coastal Coalition proposes 
the following change in law which we urge this Subcommittee to include 
in its WRDA 2000 bill:
Proposed Amendment:
    Section 1. 33 U.S.C. 426 e(2) is amended as follows:

    <bullet>  ``(B) Recommendations for new shore protection projects
(i) In general--
The Secretary shall recommend to Congress the authorization or 
            reauthorization of shore protection projects based on the 
            studies conducted under subparagraph (A). In making such 
            recommendations, the Secretary shall develop and implement 
            procedures which treat recreational, hurricane and storm 
            damage reduction, and environmental restoration benefits 
            equally.''
    Section 2. Strike Section 103 (c)(4) of the Water Resources 
Development Act of 1986 and redesignate the following paragraphs 
accordingly.
    Explanation: Section 1 directs the Assistant Secretary of the Army 
(Civil Works) to develop and implement regulations which treat 
recreational, hurricane and storm damage reduction, and environmental 
benefits equally in determining the benefit-cost ratio for a proposed 
beach nourishment project. This would only apply to new projects.
    Section 2 strikes the provision in WRDA 1986 which establishes a 
separate, lower Federal cost-share for projects whose primary purpose 
is recreational.
WRDA 2000 Beach Restoration Project Authorizations
    The following is a list of only those project or study 
authorizations of which we are currently aware. We believe each of 
these merits inclusion in WRDA 2000.
    Lee County, Florida: The County is seeking a modification of its 
original congressional authorization to give it status as a 
reimbursable project under Section 206 of WRDA 1992. The Corps of 
Engineers has never implemented guidance for reimbursable beach 
restoration projects, alkthough it has issued guidance for statutory 
provisions which have authorized reimbursable navigation projects. This 
lack of guidance makes it quite difficult for a non-Federal sponsor to 
proceed using the provisions of Section 206. The experience of Panama 
City Beaches, Florida, which was accorded Section 206 status in WRDA 
1996 provides a strong indication that. For those communities that can 
afford to ``front'' the Federal share of construction costs, 
significant savings can be achieved in the time it takes to complete 
construction and project cost. These are taxpayer savings at the 
Federal, state, and local levels. With respect to all types of 
reimbursable water projects, the American Coastal Coalition states its 
opposition to the funding limits placed on these projects by Section 
102 of the Energy and Water Development Appropriations Bill for Fiscal 
2000.
    Barnegat Inlet to Little Egg Inlet, New Jersey: This project is 
unfortunately a poster child for the harm that can be done by the 
Administration's ``no-new-shore-protection-projects'' policy. The 
failure to get an authorization of this project in WRDA 2000 could 
delay construction from 2002 until 2004. Delays have a price which can 
be expressed in the economic and environmental cost of increased 
erosion as well as higher construction costs caused by inflation.
    Maui, Hawaii: A significant portion of the beaches of this island 
county are suffering from erosion. There are no federally authorized 
beach restoration projects in any part of Hawaii except Waikiki. The 
beaches of Maui, just as others in Hawaii, are suffering from erosion. 
We support funding a reconnaissance study followed by a feasibility 
study which will determine how the Federal Government can partner with 
the State and the county to restore one portion of Maui's shoreline (in 
the Kihei region) fully factoring the environmental restoration and 
recreational benefits of this project.
    Cameron Parish, Louisiana: There are two projects in this parish 
where Gulf sediments that flow from east to west are being blocked by 
jetties associated with federally maintained navigation channels. One 
is on the west side of Calcasieu Ship Channel West Jetty and the other 
is on the west side of Grand Chenier West Jetty. This is an example of 
the mitigation responsibility discussed earlier in my testimony. The 
State has undertaken several surveys of the fast-eroding beach in this 
area. We recommend that a study be authorized in WRDA 2000 that will 
examine the feasibility of undertaking a beach or other type of 
shoreline restoration study.
    Section 103 Program: The Corps of Engineers needs increased 
authority to undertake Small Beach Erosion Projects under its Section 
103 Continuing Authorities program. The current authorization limit of 
$30 million a year and $3 million a project should be raised to $50 
million a year and $5 million per project. There are many projects on 
the Gulf and West Coasts, as well as Hawaii, which are likely 
candidates for this category or beach restoration program.
    San Francisco, California: Ocean Beach in San Francisco is another 
example of the need to give the Corps of Engineers authority to ``think 
outside the box'' so that it can prepare a plan to restore a beach 
which is heavily used by the public. The authorization for study this 
project (adopted by the then-House Committee on Public Works and 
Transportation on August 3, 1989) should be expanded to include 
assessing its potential to provide environmental restoration benefits 
as well as to protect public recreation and public facilities 
endangered by the erosion of the beach, regardless of whether that 
erosion is caused by storm events. This beach is an excellent example 
of a coastal public park. Its restoration should be eligible for 
Federal assistance.
    Raritan Bay and Sandy Hook Bay, New Jersey: There are several New 
Jersey Bayshore communities that are unprotected from storm damage and 
coastal erosion. Increased urbanization and loss of protective beaches 
in this particular area of the State have made low-lying residential 
and commercial structures dangerously susceptible to flooding. Port 
Monmouth and Cliffwood Beach are two segments of this project that 
should be authorized in WRDA 2000 subject to completion of a Chief's 
report.
    Dare County, North Carolina: This is also a much-needed beach 
restoration project that we recommend for authorization subject to a 
Chief's report. A feasibility study is currently being completed for 
this economically and environmentally important area of the East Coast 
shoreline.
    We ask for the Subcommittee's approval to provide information on 
additional beach restoration project provisions for WRDA 2000 as more 
information becomes available to us, and we thank the Subcommittee for 
this opportunity to present our views.
                               __________
                                 King County, Washington,  
                                     King County Executive,
                                                      May 16, 2000.

Hon. George Voinovich, Chairman,
Subcommittee on Transportation and Infrastructure,
Committee on Environment and Public Works,
U.S. Senate,
Washington, D.C. 20510

Dear Senator Voinovich: I respectfully request that the enclosed 
testimony on the Water Resources Development Act of 2000, written by me 
on behalf of King County, be included in the formal hearing record.
    King County has a strong interest in provisions of the bill related 
to the restoration of salmon habitat in Puget Sound and the adjacent 
surrounding waters. The County is strongly committed to the restoration 
of salmon populations in Puget Sound, listed recently under the 
Endangered Species Act (ESA). The Puget Sound Restoration Program that 
is included in the bill would provide much needed Federal assistance, 
through the U.S. Army Corps of Engineers, to our efforts for salmon 
habitat restoration in the Puget Sound area.
    Please feel free to direct questions or comments to Dennis Canty, 
Funding Coordinator, King County ESA Policy Office, at (206) 296-8394.
    Thank you in advance for your consideration.
            Sincerely,
                           Ron Sims, King County Executive.
                                 ______
                                 
    Statement of Ron Sims, County Executive King County, Washington
    Mr. Chairman and Members of the Subcommittee: My name is Ron Sims. 
I am the County Executive for King County, Washington. Thank you to, 
opportunity to testify on the Water Resources Development Act of 2000.
    King County lies along the eastern shore of Puget Sound and 
includes the cities of Seattle and Bellevue. The County has the largest 
share of the Puget Sound basin among the 14 counties that comprise the 
basin, with more than 2,000 square miles of land and 100 miles of 
saltwater shoreline within the basin.
    I respectfully request that the Subcommittee authorize the Corps of 
Engineers to participate with local agencies in planning and 
implementing ecosystem restoration projects in the Puget Sound region, 
as proposed in S. 2228 and the Administration's WRDA proposal. I 
recognize the many competing priorities that the Committee is facing in 
developing WRDA 2000, and know you will have difficult decisions to 
make about what to include in the bill. I'd like to relay why ecosystem 
restoration work in Puget Sound is a top priority to King County and 
the Pacific Northwest, and why a major national commitment to the 
effort is warranted.
    A little more than 1 year ago we had the first of what are likely 
to be many salmon stocks in Puget Sound listed under the Endangered 
Species Act. King County and our neighboring counties are the first 
major urban area in the United States to face an ESA listing of a 
species as widespread as chinook salmon. Threatened salmon swim through 
our industrial areas, our cities and suburbs, and our farms and 
forests. Can we restore the chinook salmon, a signature of the 
environment, cultural, and economy of the Pacific Northwest? Can we do 
so in a way that also protects our economy, a regional and national 
powerhouse? For the sake of the salmon, our communities, and the future 
of the ESA itself, we cannot fail.
    Salmon recovery in Puget Sound will require the rebuilding of 
salmon habitat on an unprecedented scale. One of the biggest factors in 
decline of salmon nuns in our region has been damage to habitat from 
the incremental affects of urban development, timber harvest, farm 
clearing, flood control, channel and harbor maintenance, and many other 
day-to-day activities over a century of settlement. The legacy is 
Landscape pockets of high-quality habitat but major areas spread trout 
the 17 watersheds of the Puget Sound basin where habitat has been lost 
or degraded. Restoration of this habitat is a fundamental part of our 
salmon recovery strategy.
    We need your help. King County has joined with the U.S. Army Corps 
of Engineers to cosponsor eight habitat restoration projects since 
1997, and we have found the agency to be a capable and enthusiastic 
partner. Corps assistance has allowed us to undertake habitat 
restoration projects that would have been impossible without the 
agency's technical and financial assistance. We would like to see the 
Corps' support available to communities throughout the Puget Sound 
basin.
    I am delighted that President Clinton and the Washington 
Congressional delegation have shown support for this effort through the 
Administration's WRDA bill and S. 2228. There are several elements of 
S. 2228 that I hope you will integrate into WRDA 2000. Most 
importantly, I urge you to authorize the program at the $125 million 
level proposed in S. 2228. The Puget Sound basin is large, with 17 
watersheds comprising 13,000 square miles, an area larger than the 
state of Maryland. As I've stated before, habitat restoration work is 
needed throughout the basin if we're to have any hope of saving salmon 
in Puget Sound. Spread out over 8 years and among projects with an 
average Federal cost of $1 million, the authorization of $125 million 
would allow 15 of the highest priority projects a year to be completed. 
Over the course of the program, this level of commitment would make a 
big dent in the hundreds of restoration projects that are urgently 
needed to rebuild salmon populations.
    I also recommend the provisions of S. 2228 regarding selection of 
projects under the program that direct the Corps to consult with 
Federal, state, and local agencies and use prior plans and studies to 
prioritize and select projects. These provisions will ensure that the 
program is efficient, targeted to on-the-ground results, and fully 
compatible with other restoration efforts in the region.
    The third aspect of S. 2228 that I'd like to highlight to you is 
how project costs are divided between the Federal Government and non-
Federal sponsors. Consistent with other Corps habitat restoration 
programs, S. 2228 provides a greater Federal contribution in areas that 
are affected by a prior Corps project. In addition, S. 2228 waives part 
of the cost-sharing requirement for projects cosponsored by an Indian 
tribe. I strongly support these provisions.
    My discussions with local government, tribal, environmental, and 
business leaders around Puget Sound indicate that there is strong 
support for S. 2228 and the partnership it will create. King County and 
our neighbors around Puget Sound stand ready with funding, projects, 
and staff expertise to match the Federal commitment in this bill. King 
County alone has invested more than $60 million in salmon projects and 
programs in the last decade, and I can assure you that we are ready to 
rise to the funding challenges of this new program.
    I deeply appreciate the bipartisan support for salmon recovery 
demonstrated by the Washington Congressional delegation, and would 
particularly like to thank Senators Murray and Gorton and 
Representatives Inslee and Dicks for their leadership on this 
legislation. I'd also like to recognize and thank the other cosponsors 
of House version of this bill, Representatives Metcalf, Baird, Smith, 
and McDermott.
    Thank you for the opportunity to testify and I look forward to a 
long and fruitful partnership for the recovery of Puget Sound salmon.
                                 ______
                                 
  Statement of Chris Endresen, Commissioner Kitsap County, Washington
    Mr. Chairman and Members of the Subcommittee: My name is Chris 
Endresen. I am a Commissioner for Kitsap County, Washington. Thank you 
for the opportunity to testify on the Water Resources Development Act 
of 2000.
    Kitsap County lies within Hood Canal, and the Puget Sound basin as 
a whole. We have a vested interest in the recovery of Puget Sound 
Chinook, and Hood Canal Summer Chum. These species have all been listed 
as threatened by the National Marine Fisheries Service. Not only are 
these resources important to our economy, they are also an integral 
part of our lives in the Pacific Northwest.
    I respectfully request that the Subcommittee authorize the Corps of 
Engineers to participate with local agencies in planning and 
implementing ecosystem restoration projects in the Puget Sound region, 
as proposed in S. 2228 and the Administration's WRDA proposal. I 
recognize the many competing priorities that the Committee is facing in 
developing WRDA 2000, and know you will have difficult decisions to 
make about what to include in the bill. I'd like to relay why ecosystem 
restoration work in Puget Sound is a top priority for the Pacific 
Northwest, and why a major national commitment to the effort is 
warranted.
    Salmon recovery in Puget Sound will require the rebuilding of 
salmon habitat on an unprecedented scale. One of the biggest factors in 
decline of salmon runs in our region has been damage to habitat from 
the incremental affects of urban development, timber harvest, farm 
clearing, flood control, channel and harbor maintenance, and many other 
day-to-day activities over a century of settlement. The legacy is a 
landscape with pockets of high-quality habitat but major areas spread 
throughout the 17 watersheds of the Puget Sound basin where habitat has 
been lost or degraded. Restoration of this habitat is a fundamental 
part of our salmon recovery strategy.
    We need your help. Through the Hood Canal Coordinating Council we 
have begun working with the U.S. Army Corps of Engineers on project 
discussions and planning and have found the agency to be enthusiastic 
about our cause. Corps assistance would allow us to undertake habitat 
restoration projects that would be impossible without the agency's 
technical and financial assistance. We are anxious to see the Corps' 
support extended into areas throughout Puget Sound where they have not 
been able to work before.
    I am delighted that President Clinton and the Washington 
Congressional delegation have shown support for this effort through the 
Administration's WRDA bill and S. 2228. There are several elements of 
S. 2228 that I hope you will integrate into WRDA 2000. Most 
importantly, I urge you to authorize the program at the $125 million 
level proposed in S. 2228. The Puget Sound basin is large, with 17 
watersheds comprising 13,000 square miles, an area larger than the 
state of Maryland. As I've stated before, habitat restoration work is 
needed throughout the basin if we're to have any hope of saving salmon 
in Puget Sound. Spread out over 8 years and among projects with an 
average Federal cost of $1 million, the authorization of $125 million 
would allow 15 of the highest priority projects a year to be completed. 
Over the course of the program, this level of commitment would make a 
big dent in the hundreds of restoration projects that are urgently 
needed to rebuild salmon populations.
    I also recommend the provisions of S. 2228 regarding selection of 
projects under the program that direct the Corps to consult with 
Federal, state, and local agencies and use prior plans and studies to 
prioritize and select projects. These provisions will ensure that the 
program is efficient, targeted to on-the-ground results, and fully 
compatible with other restoration efforts in the region.
    The third aspect of S. 2228 that I'd like to highlight to you is 
how project costs are divided between the Federal Government and non-
Federal sponsors. Consistent with other Corps habitat restoration 
programs, S. 2228 provides a greater Federal contribution in areas that 
are affected by a prior Corps project. In addition, S. 2228 waives part 
of the costsharing requirement for projects cosponsored by an Indian 
tribe. I strongly support these provisions.
    Our discussions here in Hood Canal among local governments, tribes, 
volunteer groups, fish enhancement groups, environmental groups, and 
others indicate strong support for S. 2228 and the partnerships it will 
create. We, both individually, and through the Hood Canal Coordinating 
Council, stand ready with funding, projects, and staff expertise to 
match the Federal commitment in this bill. We have invested countless 
hours of local government staff and volunteer time on salmon recovery 
efforts and projects. We know more needs to be done and are ready to do 
it with the right expertise and help. We believe that the Corps is that 
help and expertise that we desperately need in our rural area.
    I deeply appreciate the bipartisan support for salmon recovery 
demonstrated by the Washington Congressional delegation, and would 
particularly like to thank Senators Murray and Gorton and 
Representatives Inslee and Dicks for their leadership on this 
legislation. I'd also like to recognize and thank the other cosponsors 
of House version of this bill, Representatives Metcalf, Baird, Smith, 
and McDermott.
    Thank you for the opportunity to testify and I look forward to a 
long and beneficial partnership for the recovery of salmon in Hood 
Canal and the whole of Puget Sound.
                               __________
     Lee County's Concerns with Administration's WRDA 2000 Proposal
    This paper summarizes fundamental concerns with the 
Administration's proposal based on the concepts, authorities and 
processes that would shape future water management in South Florida 
under this draft legislation. We are not, at this time, listing all of 
the specific problems we have with many of the provisions.

    1. Concern: The Administration's proposal alters the balanced 
purposes for the existing Central and Southern Florida (C&SF) Project 
and, by amending the balanced purposes that were reaffirmed in WRDA 96, 
eliminates this balance for the future of this entire project.
    Remedy: The balanced purposes for both the existing and modified 
C&SF Project should be reaffirmed while providing that the primary 
purpose of the Comprehensive Plan is ecosystem restoration, 
preservation and protection.

    2. Concern: The assurance provisions preempt Florida law governing 
water allocations and reservations and preclude comprehensive water 
management by the local sponsor. They fundamentally alter current 
Federal policy. These provisions establish unprecedented Federal water 
rights, and Federal authority and control of water quality and 
quantity.
    Remedy: Assurances can be provided by utilizing the Project 
Implementation Reports for each project component under the Plan which 
can, by agreement of the Secretary and local sponsor, and consistent 
with State Law: (1) allocate and reserve the new water supply made 
available, (2) otherwise provide for the allocation of any other 
benefits and (3) establish the component's operating criteria necessary 
to provide the allocations and other benefits.

    3. Concern: The Administration's proposal regarding Project 
Implementation Reports is vague and is inconsistent with 
representations from the Restudy team that these Reports will contain 
all the information needed for a full feasibility report and more. 
These Reports provide an opportunity to address assurance issues with a 
more complete decisionmaking document.
    Remedy: These Reports should meet the requirements of the U.S. 
Water Resources Council's Principles and Guidelines and provide all 
information needed to support Congressional authorization, approval 
under state law, and answer all questions regarding the allocation of 
benefits and achievement of Project and Comprehensive Plan purposes.

    4. Concern: The Administration's proposal authorizes specific 
project components and other undefined components ``consistent with the 
plan.'' These are all project components whose value, cost-
effectiveness and benefits have not been demonstrated by feasibility 
level engineering, economic and environmental studies. There are no 
reliable cost estimates on which to base authorization for 
appropriations.
    Remedy: Authorize project modifications after Congress has been 
able to review a completed and fully coordinated feasibility or Project 
Implementation Report.

    5. Concern: The Administration's proposal references the Chiefs 
Report of June 22, 1999, that includes additional commitments that were 
not part of the Plan reviewed in consultation with the State and were 
included without notice or opportunity for public comment. If 
implemented, these conditions would destroy the balanced purposes of 
the Plan, have substantial adverse impacts on State interests, and 
substantially increase project costs.
    Remedy: All references to the Chiefs Report should be deleted from 
the Bill, confirming that the Plan is based on the Recommended Plan in 
the document of April 1999.

    6. Concern: The way the Administration's proposal approves the 
Comprehensive Everglades Restoration Plan.
    Remedy: Approve the Comprehensive Plan as a guide and framework for 
a continuing planning process to answer remaining environmental and 
technical questions, requiring periodic updates at the time further 
Congressional authorizations are requested.

    7. Concern: The Administration's proposal acknowledges the need for 
but does not provide a full and equal partnership between the State and 
Federal Governments.
    Remedy: In addition to deleting provisions by which Federal 
allocation of water preempts state law, the bill should provide for (1) 
equal cost sharing of the Central and Southern Florida project 
including construction of project components and operations and 
maintenance, (2) equal decisionmaking for operating protocols in PIR 
agreements and, (3) under programmatic regulation require consultation 
with, not concurrence by, the Secretary of the Interior.

    8. Concern: Compliance with water quality requirements is not 
ensured. Remedy: Require that, prior to authorization, project 
components include features necessary to ensure that all discharges 
meet applicable water quality standards and water quality permitting 
requirements.
                               __________
     Statement of the National Association of Flood and Stormwater 
                          Management Agencies
    The National Association of Flood and Stormwater Management 
Agencies (NAFSMA) is pleased to submit the following comments for 
consideration as the Subcommittee considers the Water Resources 
Development Act of 2000.
    NAFSMA represents more than 100 local and state flood control and 
stormwater management agencies serving a total of more than 76 million 
citizens and has a strong interest in this important legislation. 
NAFSMA supports this biennial process as a means to seek new projects, 
modify previously authorized projects, and to seek policy changes that 
support programs that mitigate flood losses and enhance watersheds.
    NAFSMA's members are public agencies whose function is the 
protection of lives, property and economic activity from the adverse 
impacts of storm and flood waters. The mission of the association is to 
advocate public policy, encourage technologies and conduct education 
programs to facilitate and enhance the achievement of the public 
service functions of its members. Many of NAFSMA's members are 
currently involved in ongoing water resources projects with the Corps 
of Engineers and work closely with the Federal Emergency Management 
Agency as participants in the National Flood Insurance Program.
    Since the organization was formed in 1979, NAFSMA has worked 
closely with the U.S. Army Corps of Engineers in numerous efforts. Our 
members have supported the concept of cost sharing as first authorized 
in WRDA 86 and a group of our members worked closely with the Corps to 
redesign what is now the Partnership Cooperation Agreement in the early 
1990's. We have supported new initiatives such as the Corps Challenge 
21 program as a necessary complement and vital tool to add to the Corps 
ability to meet environmental challenges in their traditional water 
resource projects.
    We urge you to consider these comments and to utilize them in your 
deliberations on WRDA 2000. We appreciate your consideration. Please 
feel free to call NAFSMA Executive Director, Susan Gilson, at 202-218-
4133 if you have any questions or would like further information.
       nafsma comments on the administration's proposed wrda 2000
Section 4--Watershed and River Basin Assessments
    NAFSMA supports the Corps new perspective in accomplishing its 
watershed studies that allows for multi-objective multi-purpose 
planning and investigation in the development of its watershed 
management plans.
    NAFSMA members utilize all available means (private, local, state 
and Federal programs and funding sources) in order to provide and 
maintain the flood protection projects and programs necessary to 
protect life and property. Many of the projects needed are of the scope 
and magnitude that local and state programs do not have the resources 
to implement and the Federal Government is a much-needed and valued 
partner. NAFSMA members realize that by mitigating flood losses, either 
structurally or non-structurally is a better posture for government 
than having to respond to flood disasters with Federal, state or local 
programs.
    NAFSMA supports the proposed 75 Federal/25 non-Federal sponsor cost 
sharing formula for the proposed watershed and river basin assessments. 
NAFSMA also supports the proposed authorization level of $15,000,000.
Section 14--Structural Flood Control Cost-Sharing
    NAFSMA is strongly to the administration's proposed reduction in 
the Federal contribution to Corps-partnered structural flood control 
projects to a 50 Federal/50 local cost sharing formula.
    The NAFSMA membership strongly opposes a reduction of the Federal 
commitment to flood management projects as a tool for reducing the 
number of structural flood management projects. In many cases a 
structural project is the only viable alternative to provide needed 
flood protection for existing development. NAFSMA strongly encourages 
the committee to reject the administration's proposal and instead look 
at providing incentives for rewarding environmentally sensitive project 
components. In most cases, the local governments would opt for the 
nonstructural alternative, if the solution would provide the needed 
flood protection.
    NAFSMA supports the current Federal project cost sharing of 65 
percent Federal/35 percent local and further encourages the development 
of incentives for environmentally sensitive project components. NAFSMA 
encourages the subcommittee to allow the project cost sharing formula 
to be modified upward to 75 percent Federal/25 percent local for 
federally partnered flood control projects with environmentally 
protective features.
    NAFSMA has supported cost sharing since its inception in WRDA 86. 
The original partnership has already been altered when Congress reduced 
the structural flood control formula to 65 Federal/35 local share. 
NAFSMA urges that Congress move to reject the administration's current 
proposal, which would even further erode the partnership launched 
between the Federal and non-Federal partners in WRDA 86.
Section 16--Project De-Authorizations
    NAFSMA also encourages the Corps of Engineers to develop guidance 
and policies for de-authorizing all or portions of federally authorized 
projects that have exceeded their useful life or in situations where 
other alternatives exist or can be implemented that provide the same 
level of benefits as the original project. Over a period of as little 
as 50 years, inevitable aging, erosion or deterioration results in 
operation and maintenance costs that equal or exceed the costs that 
would be incurred through the implementation of longer lasting, less 
costly and more environmentally sensitive alternatives.
    De-authorizing Corps projects in this manner also significantly 
decreases administrative costs for the Corps and the local sponsors 
with regard to the reporting of the condition of such projects, thus 
allowing all parties to use their chronically limited funds for actual 
public protection rather than for administrative activity.
Section 17--Floodplain Management Requirements
    NAFSMA opposes including the language ``adopt and enforce'' after 
the word policies in Section 402 of the Water Resources Development Act 
of 1986 [100 Stat. 4133] as proposed in Sec. 17 of the Administration-
drafted WRDA 2000 bill. Requiring the nonFederal sponsor to carry out 
enforcement activities in this area goes beyond the spirit of the 
partnership as outlined in WRDA 86 and amendments.
                                 ______
                                 
   additional nafsma issues which need to be addressed in the water 
                       resources development act
    NAFSMA encourages the Federal Government to make sufficient annual 
appropriations to support those projects and programs previously 
authorized and those to be authorized.
Feasibility Study Cost Sharing
    NAFSMA supports raising the cost sharing on feasibility studies 
from a 50 percent Federal/50 percent local share to the same 65 percent 
Federal/35 percent non-Federal share that applies to new construction 
on flood control projects. NAFSMA also supports that the local 
feasibility cost sharing requirements be met by local in-kind services.
Project Cost Issues:
            Recognition of In-Kind Contributions
    NAFSMA would also support a change in the current provisions 
governing the percentage of cash and in-kind service that the local 
partner could use to meet the project's cost sharing requirements. 
NAFSMA urges that a provision be included to allow the entire local 
share to be met through ``in-kind'' service contributions.
                  national economic development (ned)
    NAFSMA supports a review of the current NED policy to determine if 
existing policy drives projects away from more environmentally friendly 
non-structural flood management solutions. NAFSMA members would be 
interested in participating in a national discussion on the Corps 
National Economic Development policy. NAFSMA members are concerned that 
there are projects that are multi-objective, promote river restoration 
and include environmental enhancements that don't meet the current NED 
policy. We are encouraged by the Corps' internal review of planning 
guidelines which seem to move us toward this direction.
    NAFSMA advocates the Federal Government to assure the true costs 
and benefits incurred by the local sponsor for LERRDs, construction, 
environmental mitigation, operation and maintenance are considered 
during the feasibility phase of the project. The true costs are those 
costs mandated by laws, rules and regulations of local, state and 
Federal Governments. Local governments often find themselves in 
situations where they have many additional costs to meet the local 
share, such as compliance with state and local regulations which are 
not accurately reflected in cost sharing formulas.
    NAFSMA supports non-Federal sponsors receiving full credit for all 
legitimate project related expenses, similar to credit received by the 
Corps for project related expenses.
    NAFSMA supports non-Federal sponsors receiving credit for CERCLA 
activities necessary for project execution.
Section 211 of WRDA 96
    NAFSMA supports policies and programs that allow local 
implementation of Federal projects where advantages and effectiveness 
can be demonstrated and agreements that allow for reimbursement of the 
project's Federal share, such as Section 211 of WRDA 96.
Corps Personnel and Permitting Issues
    NAFSMA supports and encourages the Corps of Engineers to make 
personnel available to participate with members early and throughout 
the planning, design and permitting phases of new civil works projects 
to address all environmental issues and regulations in order to obtain 
the necessary permitting in a timely and uncontested manner.
    NAFSMA urges the Committee to include language in WRDA 2000 which 
allows local agencies to augment the Corps regulatory staff. NAFSMA 
member agencies are reporting that it currently takes them 3-4 months 
to obtain a nationwide permit and 6-9 months to obtain an individual 
permit. We anticipate additional delays with the replacement permits 
put forward by the Corps to replace Nationwide Permit 26.
Operation and Maintenance Issues
    NAFSMA members have spent considerable resources in developing and 
maintaining flood management projects. Flood management projects by 
their nature are designed to allow for a certain amount of debris and/
or sediment before the effectiveness of the project becomes impaired. 
It is essential that maintenance activities be performed on flood 
management projects before the project nears an impairment situation. 
The original design and constructed conditions should become the 
benchmark conditions to which maintenance shall be performed. NAFSMA 
advocates normal operations and maintenance activities be allowed to be 
performed so that the flood mitigating aspects and multi-objective 
aspects of the project can be met and the community can realize the 
project benefits.
    In recent years, NAFSMA members have been experiencing more and 
more difficulty in conducting routine maintenance activities, 
especially those related to maintaining the carrying capacity of flood 
management projects. Our member agencies have experienced great 
difficulty in obtaining the necessary 404 permits needed to clear out 
vegetation and remove sediment in flood control channels. This burden 
has added great delays and increased costs to the maintenance loads of 
local flood management agencies. It also increases the risk of flood 
damage for our constituents, posing a public safety issue.
    This lack of ability to perform routine maintenance activities 
places our member agencies at odds with other Federal programs. The 
Federal Emergency Management Agency requires local governments to 
assure the maintenance of flood carrying capacity of flood control 
projects, such as enlarged channels, as a condition of revising Flood 
Insurance Rate Maps to reflect the effects of the projects. At the same 
time, the Corps of Engineers, under its 404 permit process, makes it 
more difficult and expensive for local governments to perform the 
required, and necessary, maintenance.
    NAFSMA advocates that Congress require the Corps to have all 
environmental permitting and mitigation requirements be completed and 
issued for long-term operations and maintenance activities, when a new 
civil works project is being designed and implemented to avoid future 
issues that would restrict or prohibit the operations and maintenance 
activities due to new permitting requirements.
Section 404 Exemption Clarification
    NAFSMA also urges Congress to clarify the existing exemption 
provided under Section 404(f) of the Clean Water Act for flood 
management facilities and activities. NAFSMA has testified before the 
Committee in the past during hearings focused on wetlands permitting on 
the difficulties faced by local flood control agencies in carrying our 
their responsibilities to protect lives and property from the adverse 
impacts of flooding. It is difficult to explain to local citizens that 
their local public works or flood management agency cannot keep a flood 
control channel in working order because it is unable to obtain the 
necessary Federal permits to carry out the work in a timely manner. 
Meanwhile, an adjacent flood management channel maintained by the Corps 
of Engineers can be cleared. Congress must clarify this situation so 
that state and local flood management agencies are able to protect 
local citizens and property.
    This situation is especially difficult to understand since the 
Federal Government was a partner, and in most cases prepared the 
operation and maintenance manuals outlining the necessary work that 
flood management agencies are now unable to perform. NAFSMA urges the 
Subcommittee to investigate this issue further and although you do not 
normally review Clean Water Act related issues under WRDA, this 
particular permitting situation has created a significant public safety 
problem. Our members strongly support wetlands protection and have been 
responsible for some of the most environmentally sensitive and unique 
flood management projects, but the situation that has been created for 
state and local agencies by Federal wetlands permitting requirements is 
untenable. The Committee must help our state and local agencies meet 
their flood management responsibilities.
              additional operations and maintenance issues
    NAFSMA urges that Congress authorize Federal funding for 
rehabilitation and repair of infrastructure constructed with Federal 
funds that has outlived its design life.
Cooperative Agreements with Non-Federal Sponsors
    NAFSMA urges that language be included in WRDA 2000 that directs 
the Corps to enter into cooperative agreements with local or regional 
agencies having the capability to implement projects. The Federal 
Highway Administration and the Federal Emergency Management Agency have 
similar cooperating agreements with local agencies that work very well.
                               __________
Statement of Joseph E. Lema, Vice President, Manufacturers and Services 
                 Division, National Mining Association
   summary of request for authorization of lower ohio river projects
    The National Mining Association (NMA), on behalf of NMA's member 
companies that produce coal, metallic ores, and nonmetallic minerals, 
and manufacture mining and minerals processing machinery and equipment 
urges early Congressional authorization for construction of navigation 
improvements at three lock and dam projects on the Lower Ohio River in 
the states of Indiana and Kentucky: John T. Myers, Newburgh, and 
Cannelton. Each of those projects require twin 1,200-foot by 110-foot 
lock chambers to accommodate, safely and efficiently, barge tows 
transporting coal, other minerals, and other bulk commodity traffic at 
current and projected traffic levels. When those three projects are 
completed, together with the Olmsted and McAlpine projects under 
construction, and the existing, modern Smithland project, the Lower 
Ohio River from Louisville, Kentucky to the mouth of the Ohio River at 
its junction with the Mississippi River at Cairo, Illinois, will have 
uniform twin 1,200-foot by 110-foot lock chambers at all of the Lower 
Ohio River lock and dam projects, enabling smooth flow of barge tows 
through that high traffic segment at the heart of the inland waterways 
system.
    From 1986 to 1996, according to data furnished by the U.S. Army 
Corps of Engineers, the Ohio River experienced a 2 percent growth rate 
annually in total traffic, incorporating annual growth rates of 2 
percent for coal traffic, 4 percent for aggregates, and 10 percent for 
other ores and minerals, among other commodity traffic. Coal traffic, 
in particular, is very high, and is expected to increase at an annual 
rate of two or more percent into the next two decades. In 1996, coal 
traffic was more than 56 percent of total freight tonnage on the Ohio 
River.
    Uniform, twin 1,200-foot by 110-foot lock chambers are required at 
the John T. Myers, Newburgh, and Cannelton projects, like the chambers 
existing today at the Smithland project, and under construction at the 
Olmsted and McAlpine projects for three overriding reasons:

    1. Serious delays encountered by barge tows in passage through the 
locks and dams result in losses of $250 to $350 per hour.
    2. When a single existing 1,200-foot by 110-foot lock chamber is 
closed for maintenance and repairs, often several days or weeks, barge 
tows must use a smaller 600-foot by 110-foot lock chamber, 
necessitating a breakup of the barge set with incremental movements of 
portions of the barge set through the smaller chamber resulting in 
delays and safety risks.
    3. The Lower Ohio River, including its junctions with the Tennessee 
and the Mississippi Rivers, is characterized by requiring an 
exceptionally high number of lockages for barge tows regularly.
Construction of Navigation Improvements Is Warranted and Timely at 
        Selected Lock and Dam Projects on the Lower Ohio River
    The Ohio River's barge shipping channels and lock and dam projects 
that control commercial navigation by barge tows from the mouth of the 
Ohio River at its junction with the Mississippi River at Cairo, 
Illinois to its origination at its junction with the Allegheny and 
Monongahela Rivers at Pittsburgh, are strategically important assets in 
the freight transportation network of the United States. The River is 
utilized extensively for the distribution of bulk commodities, 
including coal and other minerals, in a corridor from Pennsylvania to 
Missouri. Through interconnection with the Mississippi River and the 
Tennessee River, it further enables barge tows on the Ohio River to 
handle bulk shipments originating or terminating in a corridor from 
Minnesota to the Gulf of Mexico and points in the Southeast accessible 
using the Tennessee River. The influence of the Ohio River for 
commercial navigation also extends to states located west of the 
Mississippi River, in particular coal-producing states from which 
railroads connect mines with river terminals for intermodal rail-barge 
transportation.
    Following enactment of key legislation on policies with regard to 
cost-sharing of inland waterway construction and rehabilitation in the 
Water Resources Development Act of 1986, much has been accomplished 
toward upgrading inland waterways navigation, including several lock 
and dam improvement projects at sites on the Ohio River and segments of 
connecting rivers, i.e. the Monongahela, Kanawha, and Tennessee Rivers, 
to aid intermodal truck-barge and rail-barge traffic serving commerce 
in the Ohio River Basin. Particular attention should be given to 
improvement of navigation at selected lock and dam projects on the 
Lower Ohio River from Louisville to Cairo, Illinois where the Lower 
Ohio River junctions with the Mississippi River, a stretch of the Ohio 
River that includes its junction with the mouth of the Tennessee River 
at Paducah, Kentucky. This especially significant hub for 
interconnected river barge traffic includes portions of three 
commercially navigable waterways, namely:

    <bullet>  the Lower Ohio River from Louisville to Cairo, Illinois;
    <bullet>  the Upper Mississippi River from Cairo, Illinois to its 
junction with the Illinois River north of St. Louis; and
    <bullet>  the Tennessee River from its junction with the Ohio River 
at Paducah, Kentucky southerly into the Tennessee Valley.

    That hub for river barge traffic is especially significant for 
several reasons:

    1. River barge traffic is substantial, with much of the barge tows 
carrying coal consumed for power generation at utility plants located 
on the rivers and other minerals and aggregates required by the 
construction industry.
    2. The Lower Ohio River, the Tennessee River, the Upper Mississippi 
River, and the Illinois River are interconnected for barge traffic.
    3. Modern rail-to-barge unloading, storage, and barge loading 
terminals are in place for use in coal transfer operations for coal 
mined in the Illinois Basin and in the Powder River Basin and other 
coal-producing areas of the western states.
    4. Eastern coal has ready access to power plants located on the 
Lower Ohio River, the Tennessee River, the Mississippi River, and the 
Illinois River, as well as to port terminals located on the Gulf Coast, 
in barge tows originating on the Kanawha, Monongahela, Big Sandy, and 
Upper Ohio Rivers serving coal-producing areas of the eastern states.
    5. Barge lines operating on the Ohio, Mississippi, Illinois, and 
Tennessee Rivers through this hub for river barge traffic are well 
equipped with modern towboats and barges and available today for 
competitive, fuel-efficient transportation services.
A Systematic Approach Should be Followed in Upgrading Obsolete 
        Navigation Structures and Lockage Systems on the Lower Ohio 
        River
    It must be recognized that lock and dam projects on the rivers 
serve many purposes: flood control, water supply, commercial navigation 
and recreational boating, along with maintaining adequate depths of 
shipping channels, i.e. 9 to 14 feet for shallow-draft river barge tows 
depending on location. Of course, a critical factor for commercial 
navigation by barge tows is the adequacy of lockage chambers to 
accommodate passage of barge tows in a time-sensitive manner, much like 
the efficiency of at-grade surface highways depends highly on the time 
allocated at signalized intersections for ``platoons'' or queues of 
vehicles. For river navigation, the dimensions of a lock chamber and 
the number of lock chambers at a lock and dam project are controlling 
factors with regard to the efficiency of barge traffic. On the Ohio 
River, the standard for lock chambers is 1,200 feet long by 110 feet 
wide dimensions required to accommodate a barge tow in a single pass 
through the site for a towboat pushing 15 jumbo barges lashed three 
across and five in line with the lock chamber and shipping channel. 
Lock and dam projects with smaller lock chambers and projects having 
only one chamber of the standard size that must be taken out of service 
at times for maintenance and repair operations, requiring use of a much 
smaller auxiliary lock chamber only 600 feet in length, cause tows with 
15 barges to be broken into sections of barges so that the total set 
can be moved through the lock chamber in segments resulting in 
significant delays and safety risks that would not be encountered if 
the lock chamber had standard 1,200-foot x 110-foot dimensions. An 
examination of lock chambers on the Lower Ohio River and the Ohio River 
gateway to the Tennessee Valley where the demand for standard 15-barge 
tows is high indicates a systematic approach should be followed in 
upgrading obsolete navigation structures and lockage systems on the 
Lower Ohio River.
    Eight lock and dam projects--seven on the Lower Ohio River from 
Louisville to Cairo, Illinois and one on the Tennessee River just 
upstream from its junction with the Ohio River at Paducah, Kentucky--
are involved in this analysis. It is noteworthy that there are no lock 
and dam projects on the Upper Mississippi River above Cairo, Illinois 
where the Ohio and Mississippi Rivers join, northerly above St. Louis 
at a point where the Mississippi River junctions with the Illinois 
River.
    The current construction authorized at the Olmsted and McAlpine 
projects on the Lower Ohio River and at the adjoining Kentucky project 
on the Tennessee River, like the completed Smithland project on the 
Ohio River, is indicative of the need for twin 1,200-foot by 110-foot 
lock chambers similarly at the John T. Myers, Newburgh and Cannelton 
projects just upstream on the Lower Ohio River, points where 
complementary navigation requirements are warranted to add a second 
1,200-foot by 110-foot lock chamber compatible with modern barge tows 
operating through the zone. The Olmsted project itself replaces two 
obsolete projects at Lock and Dam 52 and Lock and Dam 53 on the Lower 
Ohio River.


                                      Annual Traffic Characteristics--1996
----------------------------------------------------------------------------------------------------------------
                                                                       Annual       Average Time/Tow (minutes)
       Lock & Dam Projects Ohio & Tennessee Rivers          No. of      Tons    --------------------------------
                                                             Tows    (millions)    Delay     Process    Total\1\
----------------------------------------------------------------------------------------------------------------
Ohio River L/D 53 and L/D 52, both to be replaced by       9,901\2\        94.1        n.a        n.a    93.5\2\
 Olmsted L/D............................................
Smithland...............................................      7,866        85.1        8.2       44.1       52.3
John T. Myers\3\........................................      6,592        77.6       43.7       47.8       91.5
Newburgh................................................      6,686        68.3       44.8       47.1       91.9
Cannelton...............................................      5,025        56.8       39.7       56.0       95.7
McAlpine................................................      4,900        54.0       52.8       55.9      108.7
                     Tennessee River
Kentucky L/D............................................      3,401        33.5      347.4      118.8      466.2
----------------------------------------------------------------------------------------------------------------
\1\total time per tow = delay and time for processing through lock.

\2\In 1996 8,158 tows passed over wicket dam under flood conditions.

\3\Uniontown L/D was renamed John T. Myers L/D during 1997.

Source: Ohio River Navigation System: 1997 Statistical Supplement, U.S. Army Corps of Engineers, Huntington,
  District

    Barge traffic demand on the Lower Ohio River from the vicinity of 
Louisville, Kentucky to Cairo, Illinois at the junction of the Ohio and 
Mississippi Rivers justifies having in place a uniform system of lock 
and dam projects each having twin 1,200-foot x 110-foot lock chambers, 
the standard size for modern Ohio River barge tows. Seven lock and dam 
projects are involved. The first project moving upstream from the mouth 
of the Ohio River at Cairo, Illinois is the Olmsted Project which 
replaces the obsolete L/D 52 and 53 at a new site between the junctions 
of the Lower Ohio River with the Mississippi and the Tennessee Rivers. 
The Olmsted Project is now under construction and will have twin 1,200-
foot x 110-foot lock chambers when completed.
    Moving upstream, the next facility is the Smithland Project where 
twin 1,200-foot x 110-foot lock chambers are now in place. It is 
significant that lock and dam projects upstream from the Smithland 
Project, in 1996, required that barge tows, on the average, consume 
more than 90 minutes to transit the site, including 40 minutes or more 
in waiting for entry into a lock chamber and 45 to 55 minutes for 
clearing passage through the project. On the other hand, at the modern 
Smithland Project barge tows completed lockages in approximately 52 
minutes, including only 8 minutes of delay.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 
</pre></body></html>
